<html>
<title> - THE GAO REPORT ON TELECOMMUNICATIONS: ADDITIONAL COORDINATION AND PERFORMANCE MEASUREMENT NEEDED FOR HIGH-SPEED INTERNET ACCESS PROGRAMS ON TRIBAL LANDS</title>
<body><pre>[Senate Hearing 114-374]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-374

   THE GAO REPORT ON TELECOMMUNICATIONS: ADDITIONAL COORDINATION AND 
PERFORMANCE MEASUREMENT NEEDED FOR HIGH	SPEED INTERNET ACCESS PROGRAMS 
                            ON TRIBAL LANDS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2016

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                           U.S. GOVERNMENT PUBLISHING OFFICE
21-661 PDF                       WASHINGTON : 2016                           
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b4c5b446b485e585f434e475b0548444605">[email&#160;protected]</a>  











                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 27, 2016...................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Cantwell....................................    37
Statement of Senator Franken.....................................     4
    Prepared statement...........................................     4
Statement of Senator Heitkamp....................................    41
Statement of Senator Hoeven......................................    31
Statement of Senator Murkowski...................................    35
Statement of Senator Tester......................................     2
Statement of Senator Udall.......................................     3

                               Witnesses

Enjady, Godfrey, President, National Tribal Telecommunications 
  Association....................................................    27
    Prepared statement...........................................    29
Goldstein, Mark, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................    14
    Prepared statement...........................................    16
Kitka, Julie, President, Alaska Federation of Natives............    23
    Prepared statement...........................................    24
McBride, Brandon, Administrator, Rural Utilities Service, U.S. 
  Department of Agriculture......................................     5
    Prepared statement...........................................     6
Sohn, Gigi B., Counselor to the Chairman, Federal Communications 
  Commission.....................................................     9
    Prepared statement...........................................    10

                                Appendix

Affiliated Tribes of Northwest Indians (ATNI), prepared statement    66
Cherokee Nation, prepared statement..............................    70
Leech Lake Telecommunications Company, LLC, prepared statement...    72
National Congress of American Indians (NCAI), prepared statement.    49
Response to written questions submitted by Hon. Steve Daines to:
    Godfrey Enjady...............................................    73
    Brandon McBride..............................................    74
Response to written questions submitted to Gigi B. Sohn by:
    Hon. Steve Daines............................................    78
    Hon. Heidi Heitkamp..........................................    77
    Hon. Brian Schatz............................................    75
    Hon. Jon Tester..............................................    74

 
                           THE GAO REPORT ON 
                    TELECOMMUNICATIONS: ADDITIONAL 
                     COORDINATION AND PERFORMANCE 
 MEASUREMENT NEEDED FOR HIGH-SPEED INTERNET ACCESS PROGRAMS ON TRIBAL 
                                 LANDS

                              ----------                              


                       WEDNESDAY, APRIL 27, 2016


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order. 
I ask the witnesses to please take their seats.
    Today we are going to examine the January 2016 Government 
Accountability Office Report on Access to Broadband Service on 
Tribal Lands.
    Quick and effective internet access is vital for many 
purposes, such as commerce, public safety, education, and 
health. This Committee has received concerns from people living 
in rural Indian lands, including my home State of Wyoming, 
regarding unreliable internet service and significant barriers 
to improving access to even basic internet services in their 
communities. The Government Accountability Office report 
describes how unreliable internet can be and how it can affect 
business development, education and health.
    In 2010, at the direction of Congress, the Federal 
Communications Commission issued the National Broadband Plan to 
achieve access to high-speed internet for everyone. Between 
fiscal years 2010 and 2014, the Federal Government spent 
approximately $33 billion on the national goal of universal 
high-speed internet access. It is somewhat troubling that quite 
a bit of money has been spent on this national goal and Indian 
tribal governments and communities still struggle to access 
internet services.
    In many instances, networks cannot accommodate multiple 
users on Indian lands. The GAO has highlighted one tribal 
example where connection problems cause significant problems 
with heavily congested networks. According to the Federal 
Communications Commission, in 2016, 41 percent of the people on 
tribal lands still do not have access to high-speed broadband. 
This figure should be much lower.
    The GAO report sheds light on why this figure may be 
significantly higher than other parts of the Nation. The GAO 
found that two agencies with responsibility for broadband-
related programs, the Department of Agriculture and the Federal 
Communications Commission, do not coordinate well in programs, 
in outreach, or in training.
    In addition, the GAO found that as of December 2015, the 
Federal Communications Commission has not established 
performance measures or goals for broadband availability on 
tribal lands. The GAO made several recommendations for 
improvement, including developing goals and measures to track 
progress.
    We will hear today how both agencies are moving forward to 
increasing broadband services for Indian communities.
    With that, I would like to welcome the witnesses. We look 
forward to your testimony.
    Senator Tester, do you have an opening statement?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I do. Thank you, Mr. Chairman.
    I want to thank all the witnesses who are here today. I 
look forward to your testimony.
    Mr. Chairman, I appreciate you holding a hearing on a topic 
that is vitally important to tribal communities which, quite 
frankly, doesn't get enough attention, so this hearing is 
important.
    Telecommunications in Indian Country and, in particular, 
broadband, often appears to be an afterthought, as we are 
dedicating our time to other major issues in tribal 
communities, things like health care, education, economic 
development, public safety, among all others; all important, 
but broadband is important too. We overlook that fact and the 
fact that broadband plays a key component in economic 
development in Indian Country.
    The longer Indian Country lacks robust broadband, the 
harder it is going to be for Tribes to effectively provide 
crucial services needed in their communities. As these services 
become more dependent on interconnectivity, Tribes will 
continue to lag further and further behind.
    Opportunities such as providing telemedicine services to 
remote Native communities that lack doctors and reliable modes 
of transportation, online resources and distant learning for 
classrooms, more effective and streamlined communications for 
public safety, and new markets for Native businesses who have 
often been effectively shut out are all examples of the 
potential broadband has to address the critical needs in tribal 
communities.
    We have a couple tribal witnesses here today who can speak 
to this potential, and I look forward to hearing from them 
about the impact it has in their communities.
    I look forward to hearing from our Federal witnesses, as 
well, and learning more about their efforts to increase access 
and adoption of high-speed internet access across Indian 
Country. Our Administration's goal of connecting everyone, 
including rural and Native America, is imperative for the 
welfare and security of not only tribal communities, but for 
our entire Nation.
    The FCC and the USDA need to listen to Tribes, they need to 
sharpen their tools and find ways to get more Tribes connected. 
Access to high-speed internet should not be a luxury. There is 
no way that we could do our jobs here without the ability to 
connect, and we can't expect Tribes to do their job either.
    Thank you to all the witnesses for testifying here today 
and for the work that you do in Indian Country. I look forward 
to a fruitful discussion that will help us find solutions on an 
issue that is becoming more and more important as we move 
further into a world that relies on connectivity.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Tester.
    Would any other members like to make an opening statement?
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Barrasso. Thank you for 
calling this hearing today on what I believe is a very 
important topic.
    I also want to thank all the witnesses for being here. I am 
especially pleased to welcome Mr. Godfrey Enjady from the 
Mescalero Apache Tribe. He has made impressive progress in 
tacking the digital divide facing his community in New Mexico. 
Universal service investments and rural utility service loan 
support has been vital to his success, so I look forward to his 
testimony today on behalf of the National Tribal 
Telecommunications Association.
    In my home State, 80 percent of those living on tribal 
lands do not have access to broadband, four out of five people 
without broadband access. This is truly appalling. But the 
statistics do not convey the real hardships and lost 
opportunities that are a consequence of the digital divide 
facing Indian Country.
    Not having wireless reception can mean the difference 
between life and death in an emergency. A man outside Gallup, 
New Mexico missed two opportunities for a life-saving kidney 
transplant because he lacked telephone service at home and 
could not be contacted in time.
    When FCC Chairman Tom Wheeler visited the Acomo Pueblo with 
me, we stopped by the Tribe's community library. It has free 
wi-fi that the librarian keeps on 24-7. That way folks without 
internet at home can come to the parking lot after hours and 
still get online from outside the building. That really bothers 
me in the situation where we don't have that connectivity, as 
Vice Chairman Tester talked about.
    Our Nation's rural areas and tribal lands should not be 
bypassed when broadband and wireless networks are built out 
across the Nation. Although they are among the least connected, 
these areas are precisely where broadband technology can help 
the most, and I hope we will hear some of that from our 
witnesses today.
    By overcoming physical distances and geographic isolation, 
broadband can help improve economic development, education, and 
access to health care, so we need to do much more. This hearing 
is an opportunity to identify where the FCC, the RUS, and 
Congress should focus our efforts to tackle the digital divide 
facing Indian Country.
    Thank you so much.
    The Chairman. Thank you.
    Would any other Senators like to make a statement?
    Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Mr. Chairman, I will submit my opening 
statement for the record. I just want to say thank you to the 
witnesses and how important this is. The digital divide in 
Indian Country is enormous. This is a rural electrification 
issue of the 21st century.
    Everyone should be wired; every kid should be able to 
access high-speed broadband for educational purposes. Broadband 
is a necessity in the 21st century and we have to do this. And 
if we are going to attract good teachers and good doctors and 
business to Indian Country, they have to have broadband.
    So I will submit my official statement for the record. 
Thank you, Mr. Chairman.
    [The prepared statement of Senator Franken follows:]

   Prepared Statement of Hon. Al Franken, U.S. Senator from Minnesota
    Thank you, Chairman Barrasso, for holding this oversight hearing on 
broadband issues in Indian Country, and thank you to our witnesses for 
your work in this area. I look forward to hearing your perspectives on 
some of the challenges involving increasing access to broadband in 
Indian Country as well as some of the successes.
    Access to reliable high speed Internet is critical to growing our 
economy. People living in Indian Country are just as entitled to access 
to broadband as those living in our cities and towns.
    Unfortunately, as I travel around Minnesota, I have seen first-hand 
how access to high speed Internet varies significantly depending on 
where you live. This digital divide is a real problem for schools, 
families, and entire communities.
    Without reliable Internet, how can we expect our children to do 
their homework? And how can we expect our students to be ready for the 
21st century economy? That's why I've made the deployment of rural 
Broadband a bipartisan priority of mine during my time in the Senate. 
I'll continue to press for the build out of high-speed Internet to 
every corner of our state, including our tribal communities, because 
it's critical for both education and for local economies.
    Thank you again to Chairman Barrasso, Ranking Member Tester, and to 
all of our witnesses today. I look forward to hearing your testimony.

    The Chairman. Thank you very much, Senator Franken.
    I want to remind the witnesses that we will include your 
complete statements for the record, so please try to keep your 
statements to five minutes or less so that we will have some 
time for questioning. Thank you for being here today.
    We will first hear from Mr. Brandon McBride, who is the 
Administrator for the Rural Utilities Service for the 
Department of Agriculture; then from Ms. Gigi Sohn, who is the 
counselor to the Chairman of the Federal Communications 
Commission; Mr. Mark Goldstein, who is the Director of the 
Physical Infrastructure Issues of the Government Accountability 
Office; Ms. Julie Kitka, who is president of the Alaska 
Federation of Natives, from Anchorage; and Mr. Godfrey Enjady, 
who is the President of the National Tribal Telecommunications 
Association, from New Mexico.
    Welcome. Thank you very much. And if we could begin with 
you, Mr. McBride.

 STATEMENT OF BRANDON McBRIDE, ADMINISTRATOR, RURAL UTILITIES 
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. McBride. Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee, I appreciate this opportunity to 
discuss the recent Government Accountability report focusing on 
improving internet access on tribal lands.
    The Rural Utilities Service is one of three rural 
development agencies at USDA. The Rural Housing Service offers 
housing and community facilities programs; the Rural Business 
and Cooperative Service offers both business development and 
finance programs; and RUS makes loans and grants available to 
finance rural electric, telecommunications, and rural water 
infrastructure. Together, these agencies work together to help 
communities build stronger economies, create jobs, and improve 
the quality of life in rural America.
    Our efforts at RUS to encourage broadband deployment to 
rural and Native communities have helped deliver broadband 
service that has improved access to health care and educational 
programs, and opened the door to job opportunities. These 
services help strengthen economies in American Indian, Alaskan 
Native, and Native Hawaiian communities. This funding 
assistance is vital and we are fully committed to improving 
investment in tribal lands and underserved areas.
    Thanks to the leadership of this Committee and your 
colleagues in the Senate, RUS has placed special emphasis on 
financing critical infrastructure services to unserved and 
underserved Native communities.
    Since 2009, RUS has funded broadband deployment through 
five distinct programs. We are focused on the need to improve 
access for Native and rural communities. These grant and loan 
programs have invested over $425 million in projects serving 
tribal lands, tribal organizations, American Indians, and 
Alaskan Natives. RUS programs have provided internet access to 
communities for the first time, supported the acquisition of 
equipment needed to expand access to education and health care 
services, and financed the construction of infrastructure that 
has improved broadband access.
    Given our history, RUS has a solid understanding of the 
costs and the challenges of building out rural 
telecommunications systems. We understand how critical 
broadband access is and we also understand the magnitude of 
work that remains to be done in rural and tribal areas.
    Since the start of this Administration, RUS has expanded 
outreach and service across tribal communities. To make our 
programs more accessible to those serving and living in tribal 
areas, RUS has implemented the Substantially Underserved Trust 
Area provisions of the 2008 Farm Bill.
    The SUTA rulemaking was crafted following a two-year tribal 
consultation effort that involved more than 30 government-to-
government consultations. As a result, SUTA provisions provide 
three tools for most RUS loan programs. These tools include 
loans with interest rates as low as 2 percent, a waiver of non-
duplication restrictions, and giving highest priority to 
projects in substantially underserved trust areas.
    RUS is committed to using the tools at its disposal to 
provide broadband access for tribal communities and we are 
consisting looking for ways to improve. This GAO report makes 
several recommendations to help enhance and measure the 
availability and adoption of high-speed internet. One of GAO's 
recommendations was that USDA and the FCC work towards better 
coordination in this regard.
    To address GAO's recommendation, RUS and the FCC are 
currently working to closely coordinate outreach efforts to 
better assist tribal areas. Included in these discussions is 
the development of joint outreach materials that explain how 
programs can be interrelated and how available funding options 
may be leverages. Our work with the FCC has also resulted in 
productive conversations about the financial and policy 
implications of a changing universal service fund landscape.
    RUS's work with other Federal agencies has resulted in 
stronger coordination and outreach efforts that improve 
broadband access and adoption in tribal areas. As a part of the 
President's Broadband Opportunity Council, RUS is working with 
the Department of Commerce on the Community Connectivity 
Initiative. This partnership can assist communities with their 
broadband self-assessment, recommendations, planning, and 
implementation support.
    RUS is also partnering with the Department of Interior in 
planning a Tribal Broadband Summit, as well as on the FCC's 
five upcoming tribal broadband workshops. All of these are 
scheduled for later this year.
    RUS is proud of its investments in tribal communities and 
we will continue to work with the FCC to use the tools that 
Congress has given us to help bring broadband to every corner 
of America, including rural and tribal areas.
    Thank you for your interest in USDA's Rural Utilities 
Service and thank you for your support of our agency and its 
mission.
    [The prepared statement of Mr. McBride follows:]

 Prepared Statement of Brandon McBride, Administrator, Rural Utilities 
                Service, U.S. Department of Agriculture
    Chairman Barrasso, Vice Chairman Tester and Members of the 
Committee, I appreciate this opportunity to discuss the Government 
Accountability (GAO) report entitled ``Telecommunications: Additional 
Coordination and Performance Needed for High-Speed Internet Access 
Programs on Tribal Lands.''
    Efforts of the United States Department of Agriculture's (USDA) 
Rural Utilities Service (RUS) to encourage broadband deployment to 
rural and native communities have been critical in bringing broadband 
to tribal areas. Our work with tribal stakeholders and other state and 
federal agencies, including the Federal Communications Commission 
(FCC), plays a major role in financing broadband projects to deliver 
quality, affordable high-speed Internet service to strengthen 
economies, improve access to health care and educational programs, and 
open the door to job opportunities in American Indian, Alaskan Native 
and Native Hawaiian communities.
    RUS is a policy, planning and lending agency of the USDA. The 
agency makes loans, loan guarantees and grants available to finance 
rural electric, telecommunications and water and wastewater 
infrastructure. These investments are necessary to build sustainable 
local and regional economies and to attract and leverage private 
capital in rural and tribal areas.
    RUS is one of three USDA Rural Development (RD) agencies. The Rural 
Housing Service offers housing and community facilities programs. The 
Rural Business and Cooperative Service offers both business development 
programs and finance programs. Together, RD agencies work to help 
communities build stronger economies, create jobs and improve the 
quality of life in rural areas.
    Nowhere is this RD assistance more vital than in America's native 
communities. RD is fully committed to improving investment into tribal 
lands and underserved areas. Our President, Secretary and 
Undersecretary place a high priority on improving program delivery to 
native communities, and our programs are designed for communities with 
the greatest need. Thanks to the leadership of members of this 
Committee and your colleagues in the Senate, RUS has placed special 
emphasis on financing critical infrastructure services to underserved 
native communities.
    RD agencies have a long history of investing in tribal economies. 
Since 2009, total RD investments benefitting tribal areas have exceeded 
$2.9 billion. One reason for this success is because our USDA RD state 
offices maintain Native American Tribal Coordinators to assist tribes 
by providing technical assistance and programmatic knowledge throughout 
the application process for these programs.
    RD agencies and staff also work in cooperation with tribal 
governments and partner with other federal agencies, including the FCC. 
It is important to note that USDA's Office of Tribal Relations and RD 
have participated with the FCC's Office of Native Affairs and Policy on 
outreach efforts in Indian Country.
    RUS often works directly with tribal communities. Since 2009, RUS 
has provided nearly $1.5 billion for tribal areas to fund electric 
utilities, water and waste water systems and telecommunications 
projects, including broadband. Also since 2009, RUS Telecommunications 
programs have invested over $157 million in projects serving Tribal 
Lands, Tribal Organizations, American Indians, and Alaska Natives.
    RUS has several standing programs which support broadband 
deployment. Since 2009, USDA has awarded $6.7 billion for almost 550 
projects to improve telecommunications infrastructure in rural 
communities. This includes $2.9 billion through the Recovery Act to 
build out more than 250 successful broadband projects already having a 
positive impact in rural areas, and $77.4 million in Community Connect 
grants for 74 broadband projects in rural areas that previously did not 
have broadband service.
    Our traditional telecommunications infrastructure loan program, 
authorized in 1949, was created to ensure rural areas had access to 
reliable and affordable telecommunications systems. Since 1995, RUS has 
required that these networks facilitate broadband service. Through this 
program, RUS has provided loans and grants to 8 of the nation's 10 
tribally-owned regulated telecommunications carriers. RUS also provides 
financing to non-native telecommunications service providers that offer 
services to tribal communities. Since 2009, telecommunications 
infrastructure funding totaling over $91 million has assisted tribal 
areas.
    RUS has long focused on the need to connect native and rural 
communities to a broadband future. The Community Connect grant program, 
which awards grants to communities with no access to broadband service, 
since 2009 has provided nearly $14 million to assist tribal communities 
lacking access to high-speed Internet.
    RUS' Broadband Loan Program, authorized under the Farm Bill, 
provides broadband network financing to build high capacity systems in 
rural underserved areas. Since 2009, Farm Bill broadband loans of 
nearly $10 million increased tribal connectivity to global markets, and 
opened the doors to educational, health care and social services during 
this same period.
    Another RUS telecommunications program helping tribal areas meet 
essential needs is the Distance Learning and Telemedicine (DLT) grant 
program. Since 2009 this program has financed nearly $43 million in 
equipment to expand access to education and health care services in 
tribal areas.
    With a combined portfolio of over $6.7 billion in 
telecommunications investments, which includes our grant programs as 
well as $4.3 billion in telecom loans, RUS has a solid understanding of 
the costs and the challenges of distance, density and geography to 
build out rural telecommunications systems. We understand how broadband 
connectivity transforms lives, enlivens communities and creates 
sustainable economies that offer jobs and increase the quality of life 
when these services finally arrive.
    Our history shows that RUS understands the importance of 
relationship with tribal elected officials, and is committed to 
consulting, coordinating with, and helping American Indian, Alaska 
Native and Native Hawaiian communities obtain affordable and robust 
broadband services needed to attract investment capital and new 
business ventures unique to native cultures.
    Since the start of this Administration, RUS has worked to expand 
outreach and service across tribal communities. To make its utility 
loan and grant programs more accessible to those serving and residing 
in tribal areas, RUS implemented the Substantially Underserved Trust 
Area (SUTA) provisions of the Food, Conservation, and Energy Act of 
2008 (2008 Farm Bill).
    The SUTA rulemaking was crafted following a 2-year tribal 
consultation effort that included over 33 government to government 
consultations with native nations and tribal communities as well as all 
relevant federal agencies and departments. These provisions include 
three discretionary tools for most RUS loan programs: RUS may make 
loans and guarantee loans with interest rates as low as 2 percent and 
with extended repayment terms; RUS may waive non-duplication 
restrictions, matching fund requirements, or credit support 
requirements to facilitate construction, acquisition or improvements of 
infrastructure; and RUS may give highest priority to designated 
projects in substantially underserved trust areas.
    Among telecommunications projects RUS has funded that benefit 
tribal areas include:

  <bullet> $279,106 Distance Learning and Telemedicine grant to Eastern 
        Aleutians Tribes, Inc. in Alaska to purchase video conferencing 
        equipment and CPR mannequins capable of recording and 
        quantifying performance to improve training in local 
        communities.

  <bullet> $10.5 Million Broadband Initiatives Program loan/grant 
        combination to the San Carlos Apache Tribe in Arizona to 
        provide Fiber-to-the-Premises to five new communities, a 
        hospital, and several clinics.

  <bullet> $5.4 Million Infrastructure loan to Mescalero Apache 
        Telecom, Inc. to upgrade its telecommunications system and 
        provide fiber optic Internet to half of its service territory 
        in New Mexico. This loan was the first RUS Telecommunications 
        Program loan provided with SUTA consideration.

    As noted previously, RUS has partnered with other federal agencies, 
including the FCC. Most recently our extensive efforts have involved 
the Connect America Fund, the FCC's reform order, which implements 
Universal Service Fund (USF) reforms. RUS has a significant interest in 
the reform effort, and has been engaged in a continuing and productive 
dialog with the FCC about the financial and policy implications of the 
changing USF landscape.
    The GAO report ``Telecommunications: Additional Coordination and 
Performance Needed for High-Speed Internet Access Programs on Tribal 
Lands,'' makes several recommendations to help improve and measure the 
availability and adoption of high-speed Internet on tribal lands. One 
of those GAO recommendations was that USDA and the FCC work towards 
better coordination on improving Internet availability and adoption in 
tribal communities.
    To address the GAO's recommendation, USDA's RUS and the FCC are 
currently working to closely coordinate outreach efforts to better 
assist tribal areas in providing high-speed Internet access. Included 
in these discussions will be development of joint outreach materials 
that explain how programs can be interrelated, and how available 
funding options may be leveraged.
    Both the USDA and the FCC offer programs to improve Internet 
availability and adoption on tribal lands. Examples of recent USDA 
telecommunications projects specifically benefitting tribal areas 
include not just broadband funding, but funding for equipment to 
improve access to quality health care and educational services.
    As part of the Broadband Opportunity Council (BOC) efforts RUS is 
working with the Department of Commerce's National Telecommunications 
and Information Administration (NTIA) on the Community Connectivity 
Initiative. This is a partnership intended to provide communities a 
broadband self-assessment, a report and recommendations, planning and 
implementation support directed to developing a national community of 
practice. RUS is also partnering with the Department of Interior's 
(DOI) BOC recommendation in a Tribal Broadband Summit scheduled for 
later this year. Earlier RUS participation with the FCC in the DOI's 
Listening Session was very productive.
    RUS and the FCC have participated in a number of outreach events 
that each organization has held. In the future, RUS will work closely 
with the FCC to develop joint outreach events focused on providing 
high-speed Internet access to tribal lands.
    For example, the FCC has five workshops scheduled this fiscal year. 
RUS is planning to participate in these:

        1. Montana: end of May
        2. Seattle, Washington: late June
        3. Wisconsin or Minnesota: early August
        4. Arizona or New Mexico: early September
        5. Oklahoma: Mid November

    Providing sustainable broadband service in tribal areas can be 
challenging, which is why many of these programs exist. RUS is proud of 
its investments in tribal communities and will work with the FCC to use 
the tools the Congress gave us to help bring broadband to every corner 
of America--including rural and tribal communities.
    Thank you for your interest in USDA's Rural Utilities Service and 
thank you for your support of our agency and its mission.

    The Chairman. Thank you very much, Mr. McBride.
    Ms. Sohn.

 STATEMENT OF GIGI B. SOHN, COUNSELOR TO THE CHAIRMAN, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Ms. Sohn. Chairman Barrasso, Vice Chairman Tester, members 
of the Committee, thank you for the opportunity to testify 
today about the recently released GAO report on the status of 
broadband on tribal lands.
    While there has been incremental improvement in recent 
years, residents of tribal lands continue to disproportionately 
lack access to broadband. According to the FCC's 2016 Broadband 
Progress Report, 41 percent of residents on tribal lands lack 
access to fixed broadband services at our benchmark speed. 
While this represents a 22 percent increase since 2015, this 
digital divide is unacceptable.
    In recognition of the persistent disparity in access to 
communication services on tribal lands, the Commission's Office 
of Native Affairs and Policy was created in 2010. The 
Commission charged ONAP with facilitating delivery of the 
benefits of modern communications infrastructure to all Native 
communities. Our work with Tribal Nations is a strategic 
partnership, one in which we effectuate the trust relationship 
that the Commission shares with Tribal Nations.
    Last year, GAO was asked to review the status of broadband 
on tribal lands. GAO made four recommendations which I will 
address in turn. The FCC agrees with all the recommendations.
    Recommendation 1: Develop joint training and outreach with 
USDA.
    The Commission agrees that coordination with USDA is 
vitally important. From 2012 to 2015, the two agencies 
developed and implemented consultation, training, and outreach 
for Tribal Nations on multiple occasions, including 15 regional 
tribal consultation and training workshops. The Commission has 
invited USDA to participate in all of the five regional 
consultation and training workshops being planned for 2016, the 
first of which will be held in Montana in late May or early 
June.
    At the same time, we recognize that our coordination with 
USDA must be more strategic and routine. For example, staff 
should meet on a regular basis to share data and funding plans 
to ensure that taxpayer dollars are having the greatest impact 
on tribal lands.
    Recommendation 2: Develop performance goals and measures 
for tribal areas for improving broadband availability to 
households.
    The Commission agrees on the importance of such performance 
goals and measures. The Commission has established a specific 
performance goal for our Connect America Fund to bring 
broadband to rural insulated high-cost areas, including tribal 
lands. The Commission has also adopted an outcome measure for 
this goal: the number of homes, businesses, and community 
anchor institutions that newly gain access to broadband service 
as a result of the Connect America Fund support.
    Twice a year, through its Form 477, the Commission collects 
broadband availability data for each census block, including on 
tribal lands. The Commission uses that data to publish 
statistics on the availability of broadband service on tribal 
lands and to monitor progress towards its goal of ensuring 
universal availability of broadband to all Americans.
    Recommendation 3: Improve the reliability of FCC data 
related to institutions that receive E-rate funding by defining 
``tribal'' on the program application.
    The FCC agrees with the GAO about the importance of 
collecting more reliable data both on schools and libraries on 
tribal lands, and on schools and libraries that serve Native 
students, whether on or off tribal lands. Beginning in funding 
year 2017, the FCC intends to amend directions to the E-rate 
application to offer guidance in applicant self-reporting of 
tribal affiliation.
    Recommendation 4: Develop performance goals and measures 
for improving broadband availability to tribal schools and 
libraries.
    The Commission agrees, which is why the agency adopted 
goals and measures in its 2014 First E-rate Modernization 
Order. In that Order, the FCC adopted a goal of ensuring 
affordable access to high-speed broadband sufficient to support 
digital learning in all schools and robust connectivity in all 
libraries.
    The Commission adopted specific measures and targets to 
determine whether we are successful in achieving that goal. In 
addition, the FCC directed USAC to create a comprehensive and 
efficient data reporting structure to develop information 
technology tools that facilitate analysis of E-rate data and to 
increase public availability of such data.
    The recommendations advanced by GAO will help to improve 
and measure the availability and adoption of high-speed 
internet on tribal lands, which will in turn give the 
Commission a deeper understanding of where and how to direct 
resources. Through increased coordination with our tribal and 
Federal partners, as well as this Committee, the FCC will 
continue to address the persistent lack of access to broadband 
services on tribal lands. Together we are committed to ensuring 
that all Native communities have access to the economic, 
educational, health care, and civic opportunities that 
broadband enables.
    I look forward to your questions.
    [The prepared statement of Ms. Sohn follows:]

Prepared Statement of Gigi B. Sohn, Counselor to the Chairman, Federal 
                       Communications Commission
    Chairman Barrasso, Vice Chairman Tester, and Members of the 
Committee, thank you for the opportunity to testify today about the 
recently released GAO report on the status of broadband on Tribal 
lands.
The Status of Broadband on Tribal Lands
    While there has been incremental improvement in recent years, 
residents of Tribal lands continue to disproportionately lack access to 
broadband. Beginning in 2015, the Commission defined a benchmark speed 
of 25 Mbps downstream/3 Mbps upstream as necessary to support the 
``advanced telecommunications capability'' that Congress identified in 
Section 706 of the Telecommunications Act of 1996. Yet, according to 
the Commission's 2016 Broadband Progress Report, Tribal lands continue 
to be left behind from receiving these advanced services envisioned by 
Congress. For example, 41 percent of residents on Tribal lands lack 
access to fixed broadband service at the benchmark speed, as compared 
to 10 percent nationwide. While this figure represents a 22 percent 
increase in services available on Tribal lands since the 2015 Broadband 
Progress Report, the fact remains that broadband access on Tribal lands 
remains far below the national average. This digital divide in Indian 
Country remains unacceptable.
    An example of the challenges associated with bringing broadband to 
Tribal lands is the experience of the Standing Rock Sioux Tribe. The 
Tribe's present day homeland is the Standing Rock Reservation, which 
encompasses approximately 2.3 million acres on the borders of North 
Dakota and South Dakota. In an effort to address the state of 
communications services on the Reservation, the Standing Rock Sioux 
Tribe created Standing Rock Telecommunications, Inc. (Standing Rock 
Telecom) to provide mobile voice and data services within the entire 
Reservation. As a successful bidder in the FCC's Mobility Fund Phase I 
auction--resulting in $3.3 million in total assigned support and 
coverage for up to 1,290 road miles on the Standing Rock Reservation--
Standing Rock Telecom has the opportunity to use universal service 
Mobility Fund support to expand the critical services it is providing 
on the Reservation.
    Recognizing the persistent disparity in access to communications 
services on Tribal lands, the Commission's Office of Native Affairs and 
Policy (ONAP) was created in 2010. Acting on a recommendation in the 
National Broadband Plan, the Commission charged ONAP with facilitating 
delivery of the benefits of modern communications infrastructure to all 
Native communities by, among other things, ensuring robust government-
to-government consultation with federally-recognized Tribal governments 
and other Native organizations; working with Commissioners, Bureaus, 
and Offices, as well as with other government agencies and private 
organizations, to develop and implement policies for assisting Native 
communities; and ensuring that Native concerns and voices are 
considered in all relevant Commission proceedings and initiatives. 
There is a new way of doing Tribal business at the Commission. Our work 
with Tribal Nations is a strategic partnership, one in which we 
effectuate and exercise the trust relationship that the Commission 
shares with Tribal Nations.
FCC Initiatives to Bridge the Digital Divide in Indian Country
    In the last eighteen months, the Commission has modernized two 
universal service programs that hold the potential to help bridge the 
digital divide in Indian Country. The first of these programs is the E-
rate program, which is the country's largest educational technology 
program. In June 2014, at the invitation of Senator Udall, Chairman 
Wheeler traveled to the Pueblo of Acoma in New Mexico, meeting with 
then-Governor Vallo and other senior Tribal officials to discuss the 
state of connectivity on the Pueblo. During this trip, Chairman Wheeler 
and Senator Udall visited the Acoma Learning Center, the Pueblo of 
Acoma's Tribal library, where they discussed the library's connectivity 
challenges and its experiences with the E-rate program. Later that 
year, the Commission adopted two Orders that comprehensively modernized 
the E-rate program by setting specific, ambitious goals for the 
broadband capacity delivered to schools and libraries, refocusing 
funding rules for Wi-Fi and fiber deployment, and increasing the E-rate 
cap to meet the program's connectivity goals. To ensure that Tribal 
schools and libraries such as the Acoma Learning Center are able to 
participate effectively in the program, the FCC directed the Universal 
Service Administrative Company to create an USAC Tribal liaison to 
assist with Tribal-specific outreach and training.
    Last month, the Commission adopted an Order to modernize a second 
universal service program, the Lifeline program. For more than 30 
years, the Lifeline program has helped tens of millions of low-income 
Americans afford basic phone service. Recognizing the unique and dire 
economic circumstances many Tribal Nations face, the Commission 
provides enhanced levels of Lifeline support of up to $34.25 per month 
to low-income residents of Tribal lands. Not surprisingly, Lifeline is 
an extremely important program to low-income residents on Tribal lands. 
Yet, before last month's vote, Lifeline support was limited to basic 
telephone service. Under the new modernized rules, low-income residents 
of Tribal lands will soon be able to apply up to $34.25 per month 
toward the cost of broadband service. This change will significantly 
reduce the cost of broadband for low-income Tribal residents while also 
incentivizing businesses to deploy broadband infrastructure on Tribal 
lands.
    Yet, we recognize that our work is far from finished. For example, 
the Commission recently adopted a Further Notice of Proposed Rulemaking 
seeking comment on measures to increase broadband deployment on Tribal 
lands served by rate-of-return carriers. Chairman Wheeler publicly 
committed to bringing forward a proposal addressing this challenge 
before the end of the year.
    Broadband technology is critical for Tribal communities to 
participate in the 21st century economy and to advance community 
development, health delivery, and education. We can, and will, do 
better.
GAO Report and FCC Response
    In its engagement letter, GAO outlined three primary issues or 
objectives: (1) what data exist related to access to telecommunications 
services on Tribal lands and how might that data be improved; (2) what 
public and private sector programs exist to promote access to 
telecommunications on Tribal lands, and what actions could be taken to 
reduce barriers to access; and (3) what challenges exist to increasing 
telecommunications services on Tribal lands, and what actions could be 
taken to reduce barriers to access.
    The GAO report, entitled ``Additional Coordination and Performance 
Measurement Needed for High-Speed Internet Programs on Tribal Lands,'' 
was released on February 3, 2016. The report examines: (1) perspectives 
of selected Tribes and providers on the importance of high-speed 
Internet access for Tribes and any barriers to increasing this access 
on Tribal lands; (2) the level of interrelation and coordination 
between federal programs at the Commission and the U.S. Department of 
Agriculture (USDA) that promote high-speed Internet access on Tribal 
lands; and (3) existing data and Commission performance goals and 
measures related to access to high-speed Internet service on Tribal 
lands and for Tribal institutions.
    The report contains four recommendations for the Commission, and 
the agency was given an opportunity to review the draft report and 
respond in writing to the recommendations prior to its release. A 
letter from the Chiefs of the Wireline Competition Bureau and the 
Consumer and Governmental Affairs Bureau, agreeing with each of the 
recommendations, is contained in the report as Appendix III. In 
addition, Chairman Wheeler reported in writing to Congress on further 
efforts by the Commission in response to GAO's recommendations within 
60 days of release of the report (March 31, 2016).
    As discussed below, the Commission has executed, or is 
prioritizing, a broad range of initiatives to help improve and measure 
the availability and adoption of high-speed Internet on Tribal lands. 
But we recognize at the same time that there is much more to be done. 
The Commission is committed to facilitating the expansion of 21st 
century communications to Tribal Nations across the United States.

    Recommendation 1: GAO recommends that the Commission develop joint 
training and outreach with USDA whenever feasible to help improve 
Internet availability and adoption on Tribal lands.

    The Commission agrees with GAO that coordination with USDA is 
important and desirable in these areas. In fact, the Commission has 
partnered with USDA on multiple occasions since 2012 to cooperatively 
develop and implement consultation, training, and outreach for Tribal 
Nations. For example, from 2012 through 2015, staff from USDA 
headquarters in Washington, DC and USDA regional offices across the 
country have presented and participated at many of the Commission's 
fifteen (15) interactive 2\1/2\ day regional Tribal consultation and 
training workshops across Indian Country. USDA has provided information 
to workshop attendees on programs including Community Connect Grants, 
Distance Learning and Telemedicine Grants, and the Computers for 
Learning Program. Most recently, in September 2015, a representative 
from USDA presented on the Computers for Learning Program at the FCC 
Tribal Broadband, Telecom, and Broadcast Consultation and Training 
Workshop in Rapid City, South Dakota. All of this information and 
training provided by our colleagues at USDA has complemented 
information that the Commission has provided on, for example, the four 
universal service programs and the Tribal Priority in broadcast radio.
    Moreover, the Commission has invited USDA to participate in each of 
the five regional Tribal consultation and training workshops being 
planned for 2016. The first of those workshops will be held in late May 
or early June in Montana. This workshop comes on the heels of a meeting 
last fall between Chairman Wheeler and the leaders of the Tribal 
Nations in Montana in which Chairman Wheeler committed to greater 
consultation and coordination. The remaining four consultation and 
training workshops are in the process of being scheduled and will take 
place in Oklahoma and in the Great Lakes, Southwest, and Pacific 
Northwest regions of Indian Country. The Commission is committed to 
working with our Tribal partners and with USDA to ensure that the 2016 
Tribal consultation and training workshops, as well as those in future 
years, provide as comprehensive and coordinated an approach as 
possible.
    While joint participation with USDA in consultations and training 
workshops is a good start, we recognize that our coordination with USDA 
must be more strategic and routine. For example, staff should meet on a 
regular basis to share data and funding plans. This will help ensure 
that RUS loans and Connect America Fund dollars are having the greatest 
impact on tribal lands. Commission staff has begun working 
collaboratively with USDA staff to this end.

    Recommendation 2: GAO recommends that the Commission develop 
performance goals and measures using, for example, data supporting the 
National Broadband Map, to track progress on achieving its strategic 
objective of making broadband Internet available to households on 
Tribal lands.

    The Commission agrees with GAO on the importance of such 
performance goals and measures. In fact, the Commission has performance 
goals and tools in place that can be used to track progress in meeting 
this strategic objective, and the available data shows that the 
Commission is already making progress.
    With respect to performance goals, the Commission's strategic goal 
of maximizing broadband availability on Tribal lands is fulfilled in 
part through its universal service programs established pursuant to its 
obligations under Section 254 of the Communications Act and Section 706 
of the Telecommunications Act of 1996. In its 2011 order initiating 
reform of the universal service high-cost program, for example, the 
Commission stated that its Section 254 obligations ensured universal 
availability of broadband networks to all Americans, including those 
living on Tribal lands. To that end, the Commission has established a 
performance goal for the high-cost subsidy program of bringing 
broadband at speeds of at least 10 Mbps downstream/1 Mbps upstream to 
high-cost areas, including Tribal lands. The Commission has also 
adopted an outcome measure for this goal: the number of homes, 
businesses, and community anchor institutions that newly gain access to 
broadband service as a result of high-cost/Connect America Fund 
support.
    With respect to performance measures, the Commission collects and 
publishes data regarding progress towards its strategic objective of 
maximizing broadband availability on Tribal lands and overall. Twice a 
year, through its Form 477, the Commission collects broadband 
availability data for each census block across the country, including 
those on Tribal lands. The Commission uses that data both to publish 
statistics on the availability of broadband service on Tribal lands in 
its annual broadband progress report, and to monitor progress towards 
its universal service goals of ensuring universal availability of 
broadband networks to all Americans and promoting broadband adoption. 
In fact, in its 2016 Broadband Progress Report, the Commission 
quantified the increasing numbers of subscribers on Tribal lands that 
have access to broadband capable networks and that are adopting 
broadband, indicating progress towards its strategic objective. The 
2016 Broadband Progress Report was adopted and released just prior to 
release of GAO's report and, therefore, the most recent broadband data 
is not reflected in the GAO report.
    Later this year, the Commission will begin collecting geocoded 
location information regarding new broadband deployment from the larger 
incumbent carriers that receive Connect America Fund Phase II support, 
and it recently adopted a similar reporting requirement for the smaller 
rate-of-return carriers, which will be implemented in 2017. This 
information will be updated annually, which will enable us to track 
progress in making broadband available to Tribal lands over time.

    Recommendation 3: GAO recommends that the Commission improve the 
reliability of FCC data related to institutions that receive E-rate 
funding by defining ``Tribal'' on the program application.

    The Commission agrees with GAO on the need for clarity and will 
work with the Universal Service Administrative Company to provide 
guidance to applicants about the term ``Tribal'' on E-rate 
applications. Today, applicants check a box and self-identify as Tribal 
without any guidance as to what that term encompasses. Commission rules 
do not define ``Tribal'' for purposes of the E-rate program, nor is 
there any additional discount under the rules for Tribal schools and 
libraries. The Commission does agree, however, on the importance of 
collecting data both on schools and libraries on Tribal lands and on 
schools and libraries serving Native students, whether on or off Tribal 
lands. Beginning in funding year 2017, therefore, the Commission 
intends to amend directions to the E-rate application to offer guidance 
in applicants' self-reporting of Tribal affiliation.

    Recommendation 4: GAO recommends that the Commission develop 
performance goals and measures to track progress on achieving its 
strategic objective of ensuring that all Tribal schools and libraries 
have affordable access to modern broadband technologies.

    The Commission agrees with GAO on the importance of goals and 
measures to track progress on achieving strategic goals, which is why 
the agency adopted goals and measures in its 2014 First E-rate 
Modernization Order. In that Order, the Commission adopted three goals 
for the E-rate program: (1) ensuring affordable access to high-speed 
broadband sufficient to support digital learning in schools and robust 
connectivity for all libraries; (2) maximizing the cost-effectiveness 
of spending for E-rate supported purchases; and (3) making the E-rate 
application process and other processes fast, simple, and efficient. 
For each of these goals, the Commission adopted associated performance 
measures and targets to determine whether we are successfully achieving 
these goals. These performance measures and targets encompass all 
schools and libraries, including Tribal schools and libraries.
    Further, as part of the development of a robust performance 
management system, the Commission directed USAC to take a number of 
important steps: to create a comprehensive and efficient data reporting 
structure; to develop information technology tools that facilitate 
analysis of all program data; and to increase public availability of 
such data. The Commission intended these actions to increase 
transparency and enable beneficiaries and other stakeholders to assess 
progress by schools and libraries in obtaining access to high-speed 
broadband connectivity.
Conclusion
    The lack of access to broadband services over Tribal lands 
continues to prevent residents of Tribal lands from accessing 
information and services critical to our 21st century economy. 
Community-oriented and truly effective deployment of communications 
technologies within Indian Country, therefore, are critical. New 
commercial, educational, and health care opportunities, as well as 
social stability and quality of life issues, can be significantly 
improved through broadband. When implemented in concert, the 
recommendations advanced by GAO will help to improve and measure the 
availability and adoption of high-speed Internet on Tribal lands, 
giving the Commission a deeper understanding of where and how to direct 
resources. Through increased coordination among our Tribal and federal 
partners, the Commission will continue to address the persistent lack 
of access to broadband services on Tribal lands. Together, we are 
committed to bringing advanced communications services to Tribal lands, 
and we look forward to working with this committee to make broadband a 
reality for all Native communities.
    Thank you again for the opportunity to testify this afternoon. I 
look forward to answering your questions.

    The Chairman. Thank you so much, Ms. Sohn.
    Mr. Goldstein.

        STATEMENT OF MARK GOLDSTEIN, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you, Mr. Chairman and members of the 
Committee. Thank you for the opportunity to testify today on 
GAO's recent work examining telecommunications issues on tribal 
lands. High-speed internet service is viewed as a critical 
component of the Nation's infrastructure and an economic 
driver, particularly to remote tribal communities.
    My testimony examines perspectives of Tribes and providers 
of high-speed internet access and barriers to increasing this 
access, the level in coordination between Federal programs that 
promote high-speed access, and existing data performance 
measures related to high-speed internet on tribal lands. My 
statement is based on our January 2016 report on this issue.
    Based on a recent report, GAO found that although all 21 
Tribes that GAO interviewed have some access to high-speed 
internet, barriers to access remain. Tribal officials and 
internet providers said that high poverty rates among Tribes 
and the high cost of connecting remote tribal villages to core 
internet networks limit high-speed internet availability and 
access. About half of the Tribes we interviewed also said that 
the lack of sufficient administrative and technical expertise 
among tribal members limits their efforts to increase high-
speed internet access.
    We also found that the Federal Communications Commission's 
Universal Service Fund subsidy programs and the U.S. Department 
of Agriculture's Rural Utilities Service grant programs are 
interrelated. The programs seek to increase high-speed internet 
access in unserved areas, including tribal lands. Our previous 
work on overlap, duplication, and fragmentation has shown that 
interagency coordination on programs can help ensure efficient 
use of resources and effective programs.
    However, FCC and USDA do not coordinate to develop joint 
outreach and training, which could result in efficient use of 
Federal resources and missed opportunities for resource 
leveraging. For example, USDA and FCC held separate training 
events in the Pacific Northwest Region in 2015 when a joint 
event could have saved limited training funds, reduced costs, 
and allowed for better coordination among all parties.
    Finally, we found that FCC has placed special emphasis on 
improving internet access on tribal lands following the 
issuance of the National Broadband Plan in 2010, which called 
for greater efforts to make broadband available on tribal 
lands. However, FCC has not developed performance goals and 
measures for improving high-speed internet availability to 
households on tribal lands.
    FCC could establish baseline measures to track their 
progress by using the National Broadband Map, which includes 
some data on internet availability on tribal lands. FCC also 
lacks reliable data on high-speed internet access and 
performance goals and measures for high-speed internet access 
by tribal institutions such as schools and libraries.
    Specifically, FCC's E-rate program provides funds to ensure 
that schools and libraries have affordable access to modern 
broadband technologies, but FCC has neither defined ``tribal'' 
on its E-rate application nor set any performance goals for the 
program's impact on tribal institutions. Without these goals 
and measures, FCC cannot assess the impact of its efforts.
    In January 2016, GAO recommended that FCC take the 
following actions on tribal areas: one, to develop joint 
training and outreach with USDA; two, to develop performance 
goals and measures for improving broadband availability to 
households; three, develop broadband measures for improved 
broadband availability to schools and libraries; and, four, to 
improve the reliability of FCC data related to institutions 
that receive E-rate funding by defining ``tribal'' in the 
program application. FCC has agreed with all these 
recommendations.
    Thank you, Mr. Chairman. That concludes my statement. I 
would be happy to respond to questions.
    [The prepared statement of Mr. Goldstein follows:]

Prepared Statement of Mark Goldstein, Director, Physical Infrastructure 
             Issues, U.S. Government Accountability Office
tribal internet access: increased federal coordination and performance 
                           measurement needed
Why GAO Did This Study
    High-speed Internet service is viewed as a critical component of 
the nation's infrastructure and an economic driver, particularly to 
remote tribal communities. This testimony examines: (1) perspectives of 
tribes and providers on high-speed Internet access and barriers to 
increasing this access; (2) the level of interrelation and coordination 
between federal programs that promote high-speed Internet access on 
tribal lands; and (3) existing data and performance measures related to 
high-speed Internet on tribal lands. This statement is based on GAO's 
January 2016 report (GAO-16-222). For this report, GAO visited or 
interviewed officials from a non-generalizable sample of 21 tribal 
entities and 6 service providers. GAO also reviewed FCC and USDA fiscal 
year 2010 through 2014 program data, funding, and materials and 
interviewed federal officials.
What GAO Recommended
    In January 2016, GAO recommended that FCC take the following 
actions in tribal areas: (1) develop joint training and outreach with 
USDA; (2) develop performance goals and measures for improving 
broadband availability to households; (3) develop performance goals and 
measures for improving broadband availability to schools and libraries; 
and (4) improve the reliability of FCC data related to institutions 
that receive E-rate funding by defining ``tribal'' on the program 
application. FCC agreed with the recommendations.

What GAO Found
    In January 2016, GAO found that, although all 21 tribes GAO 
interviewed have some access to high-speed Internet, barriers to 
increasing access remain. Tribal officials and Internet providers said 
that high poverty rates among tribes and the high costs of connecting 
remote tribal villages to core Internet networks limit high-speed 
Internet availability and access. About half of the tribes GAO 
interviewed also said that the lack of sufficient administrative and 
technical expertise among tribal members limits their efforts to 
increase high-speed Internet access.
    The Federal Communications Commission's (FCC) Universal Service 
Fund subsidy programs and the U.S. Department of Agriculture's (USDA) 
Rural Utilities Service grant programs are interrelated. The programs 
seek to increase high-speed Internet access in underserved areas, 
including tribal lands. GAO's previous work on overlap, duplication, 
and fragmentation has shown that interagency coordination on 
interrelated programs can help ensure efficient use of resources and 
effective programs. However, FCC and USDA do not coordinate to develop 
joint outreach and training, which could result in inefficient use of 
federal resources and missed opportunities for resource leveraging. For 
example, USDA and FCC held separate training events in the Pacific 
Northwest Region in 2015 when a joint event could have saved limited 
training funds and reduced costs.
    FCC has placed special emphasis on improving Internet access on 
tribal lands following the issuance of the National Broadband Plan in 
2010, which called for greater efforts to make broadband available on 
tribal lands. However, FCC has not developed performance goals and 
measures for improving high-speed Internet availability to households 
on tribal lands. FCC could establish baseline measures to track its 
progress by using, for example, the National Broadband Map which 
includes data on Internet availability on tribal lands. FCC also lacks 
both reliable data on high-speed Internet access and performance goals 
and measures for high-speed Internet access by tribal institutions--
such as schools and libraries. Specifically, FCC's E-rate program 
provides funds to ensure that schools and libraries have affordable 
access to modern broadband technologies, but FCC has neither defined 
``tribal'' on its E-rate application nor set any performance goals for 
the program's impact on tribal institutions. Without these goals and 
measures FCC cannot assess the impact of its efforts.
    Chairman Barrasso, Ranking Member Tester, and Members of the 
Committee:
    I am pleased to be here today to discuss the state of broadband 
access and adoption on tribal lands as well as the government programs 
that promote access and adoption on tribal lands. High-speed Internet 
service is viewed as a critical component of the nation's physical 
infrastructure and a driver of economic growth. The Internet is 
particularly useful to tribal communities--which are generally located 
in remote, rural locations--as access to it offers new opportunities 
for growth, productivity, and innovation. According to 2013 Census 
estimates, more than 640,000 American Indians and Alaska Natives reside 
on tribal lands. \1\ There are more than 300 Indian tribes in the 
continental United States and more than 200 federally recognized Alaska 
Native Villages. Native Americans are among the most economically 
distressed groups in the United States and, according to the Census' 
2014 American Community Survey (ACS), about 28.3 percent live in 
households with incomes below the federal poverty level--compared to 
15.5 percent for the U.S. population as a whole. In addition, Federal 
Communications Commission (FCC) data indicates that, as of December 
2013, high-speed Internet was available to 37 percent of households on 
tribal lands--compared to 47 percent of U.S. households in rural areas 
and 92 percent of U.S. households in urban areas.
---------------------------------------------------------------------------
    \1\ For this testimony, GAO has defined tribal lands as lands that 
include any federally recognized Indian tribe's reservation, off-
reservation trust lands, pueblo, or colony, and Alaska Native regions 
established pursuant to the Alaska Native Claims Settlement Act, Pub. 
L. No. 92-203, 85 Stat. 688 (1971) (codified as amended at 43 U.S.C.  
 1601 et seq.). Tribal lands do not include Oklahoma Tribal 
Statistical Areas (OTSA), and the population figure of 640,000 does not 
include the 401,000 Native Americans living on OTSAs.
---------------------------------------------------------------------------
    The communications infrastructure that supports Internet access is, 
by and large, built and operated by private industry. Advances in 
technology, attained through the use of fiber optics and new wireless 
technologies have allowed providers to offer high-speed Internet that 
supports new services and applications such as streaming video. In 
2010, FCC stated that every household and business in America should 
have access to affordable advanced telecommunication service with a 
speed of at least 4 megabits per second (Mbps) download and at least 1 
Mbps upload and that this target should be re-set every four years. In 
January 2015, FCC adopted a speed benchmark at download speeds of at 
least 25 Mbps and upload speeds of at least 3 Mbps.
    From fiscal years 2010 to 2014, the federal government provided 
over $33 billion in assistance to telecommunications service providers 
and municipalities to build or improve networks in order to further the 
national goal of universal high-speed Internet access. The federal 
government has provided this funding through the FCC's Universal 
Service Fund (USF) and the U.S. Department of Agriculture's (USDA) 
Rural Utilities Service (RUS). RUS's programs focus on rural 
telecommunications development, while USF's programs focus on providing 
support for areas where the cost of providing services is high, as well 
as for low-income consumers, schools, libraries, and rural health care 
facilities.
    My statement today is based on our January 2016 report (GAO-16-222) 
on tribal high-speed Internet access. \2\ My statement, like the 
report, examines (1) perspectives of selected tribes and providers on 
the importance of high-speed Internet access for tribes and any 
barriers to increasing this access on tribal lands; (2) the level of 
interrelation and coordination between federal programs at FCC and USDA 
that promote high-speed Internet access on tribal lands; and (3) 
existing data and FCC performance goals and measures related to access 
to high-speed Internet service on tribal lands and for tribal 
institutions.
---------------------------------------------------------------------------
    \2\ GAO, Telecommunications: Additional Coordination and 
Performance Measurement Needed for High-speed Internet Access Programs 
on Tribal Lands, GAO-16-222, (Washington D.C.: January 29, 2016).
---------------------------------------------------------------------------
    To conduct this work for our January 2016 report, we interviewed 
officials from 18 tribal governments covering 10 of the continental 
states,<plus-minus>Alaska Native regions, and 6 service providers 
operating on tribal lands. \3\ We also identified and interviewed 
industry stakeholders such as research groups and telecommunications 
associations on their views regarding the barriers to increasing high-
speed Internet access to broadband on tribal lands. In addition, we 
evaluated USF and RUS program coordination based on criteria for 
implementing interrelated programs developed in previous GAO work on 
fragmentation, overlap, duplication, and interagency coordination 
within the federal government. \4\ Finally, to determine what data and 
FCC performance goals and measures exist related to access to high-
speed Internet service on tribal lands and to tribal institutions, we 
analyzed fiscal year 2010 through 2014 data from USF programs providing 
assistance, reviewed applications and the guidance materials for those 
programs, and the agencies' performance reports. Finally, we reviewed 
performance goals and measures for USF programs according to criteria 
established in the Government Performance and Results Act of 1993, as 
amended \5\ and in federal standards for internal control. \6\ More 
detailed information on our scope and methodology for that work can be 
found in the issued report. We conducted the work on which this 
statement is based in accordance with generally accepted government 
auditing standards.

    \3\ For reporting purposes, we developed the following series of 
indefinite quantifiers to describe the tribal responses from the 21 
tribal entities we interviewed: 5 of the 21 is described as ``a few''; 
5 to 9 is described as ``some''; 10 to 12 is described as ``about 
half''; 13 to 16 is described as ``many''; and 17 or more is described 
as ``most''.
    \4\ GAO, Fragmentation, Overlap, and Duplication: An Evaluation and 
Management Guide, GAO-15-49SP, (Washington, D.C.: April 14, 2015); GAO, 
Managing for Results: Barriers to Interagency Coordination, GAO/GGD-00-
106, (Washington, D.C.: March 29, 2000); and GAO, Managing for Results: 
Key Considerations for Implementing Interagency Collaborative 
Mechanisms, GAO-12-1022, (Washington, D.C.: September 27, 2012).
    \5\ Pub. L. No. 103-62, 107 Stat. 285 (Aug. 3, 1993) as amended by 
GPRA Modernization Act of 2010, Pub. L. No. 111-352 (2010).
    \6\ GAO, Standards for Internal Control in the Federal Government, 
GAO/AIMD-00-21.3.1, (Washington, D.C.: November 1999).
---------------------------------------------------------------------------
Selected Tribes and Providers Identified Opportunities and Barriers 
        Related to Increasing High-Speed Internet Access
    Tribal officials we interviewed for our January 2016 report said 
they place a high priority on institutional and personal Internet 
access because of the numerous benefits, including the following:

  <bullet> Economic Development: Officials from most tribes said high-
        speed Internet is essential for economic development such as 
        finding employment or establishing online businesses. FCC also 
        found that community access to Internet services is critical in 
        facilitating job placement, career advancement, and other uses 
        that help to stimulate economic activity.

  <bullet> Education: Officials from many tribes stated that high-speed 
        Internet access at schools supports educational success. For 
        example, access can allow students to conduct online testing or 
        to watch online lectures.

  <bullet> Health: About half of the tribes said that high-speed 
        Internet access to support telemedicine was important to the 
        tribe, particularly in rural or remote areas.

    Officials from all 21 tribes we interviewed said that Internet 
service existed on at least some of their lands at varying connection 
speeds, ranging from less than 1 Mbps to over 25 Mbps. Some of the 
tribes we interviewed had at least some fiber optic high-speed Internet 
connections while others had slower copper lines, only mobile service, 
or only satellite service. Many of the tribal lands where we held 
interviews had some level of mobile Internet service but only a few had 
4G mobile high-speed Internet services. Others had no mobile service. 
Further, officials from about half of the tribes we interviewed 
described important limitations to their Internet services, including 
higher than usual costs, small data allocations, slow download speeds, 
and unreliable connections.

Rugged Terrain, High Poverty, and a Lack of Capacity Were the Most 
        Cited Barriers to Increasing Access to High Speed Internet in 
        Tribal Areas
    In January 2016, we found that the barriers to improvements in 
high-speed Internet service on tribal lands are interrelated. The 
rugged terrain and rural location as well as tribal members' limited 
ability to pay for high-speed Internet service were tribes' and private 
providers' most commonly cited impediments. Many tribal officials and 
all six providers we interviewed said these barriers can deter private 
investment in infrastructure needed to connect remote towns and 
villages to a service provider's core network--known as the middle-
mile. Middle-mile infrastructure may include burying fiber optic or 
copper cables, stringing cable on existing poles, or erecting towers 
for wireless microwave links, which relay wireless Internet connections 
from tower to tower through radio spectrum. Tribal lands, located far 
from urban areas, may not have the middle-mile infrastructure necessary 
for providers to deploy high-speed Internet.
    Tribal officials and providers we interviewed also cited limited 
financial resources as a barrier to high-speed Internet access. Of the 
21 tribes we interviewed, many reported poverty and affordability as 
drivers of low subscribership to existing Internet services or as a 
barrier to broadening the availability of services. Poverty rates among 
the tribes we interviewed varied, but many were well above the 2014 
national average of 15.5 percent. Two of the providers we interviewed 
discussed non-payment among tribal households as a disincentive to 
Internet service provision. One provider said that the customers it 
serves on tribal lands had non-payment rates double that of other 
customer groups, and that these rates often follow seasonal employment 
patterns.
    About half of the tribes we interviewed told us that a lack of 
tribal members with sufficient bureaucratic and technical expertise was 
a common barrier to increasing high-speed Internet access on tribal 
lands. Tribal officials said that tribal members do not always have the 
bureaucratic expertise required to apply for federal funds, which can 
lead to mistakes or the need to hire consultants. A lack of technical 
expertise also affects tribes' ability to interact with private-sector 
Internet providers. For the seven tribes we interviewed that either had 
a tribally-owned provider or were in the process of establishing one, 
three of them said that the lack of expertise in the tribe was a 
challenge to establishing a tribally-owned telecommunications provider 
for high-speed Internet deployment. To address this, in the early 
2000s, FCC held a number of Indian telecommunications initiatives, 
regional workshops, and roundtables. In fiscal year 2012, the FCC's 
Office of Native Affairs and Policy consulted with about 200 tribal 
nations, many during six separate one- to three-day telecommunications 
training and consultation sessions on tribal lands. These included the 
Native Learning Labs, where attendees could, for example, learn about 
data the FCC has available on spectrum licensing and USF programs, 
among other things. The Office held seven training workshops in fiscal 
years 2014 and 2015, and plans to offer more in fiscal year 2016. The 
goal of this new series of sessions is to provide tribal officials with 
information about funding opportunities and policy changes with respect 
to high-speed Internet, USF programs, and spectrum issues.

Interrelated Federal Programs Promoting High-Speed Internet Access on 
        Tribal Lands Are Not Always Well Coordinated
FCC and USDA High-Speed Internet Programs are Interrelated
    In January 2016, we found that FCC and USDA implement mutually 
supportive, interrelated high-speed Internet access programs that offer 
funding to either tribal entities or service providers to achieve the 
goal of increased access. Tribal officials we interviewed said that 
both FCC's and USDA's programs were important for the expansion of 
high-speed Internet service on their lands. Tribes sometimes qualify 
for benefits from more than one of these programs, either directly or 
through private-sector Internet providers. Eligibility requirements are 
based on the need of an area as well as deployment requirements. Table 
1 identifies three universal service programs that subsidize 
telecommunications carriers and services to areas that include tribal 
lands and two RUS grant programs.

 Table 1: FCC and RUS Programs That Provide High-Speed Internet Services
                   to Areas that Include Tribal Lands
------------------------------------------------------------------------
      FCC Programs             Description            Recent funding
------------------------------------------------------------------------
The Connect America      CAF provides subsidies   The High Cost and CAF
 Fund (CAF)--Formerly     to Internet providers    distributed about $20
 the High Cost Program    to supplement their      billion in subsidies
                          operating costs for      to providers between
                          providing high-speed     2010 and 2014,
                          Internet in unserved     portions of which
                          or high-cost areas.      went to providers
                                                   that serve tribal
                                                   lands.
The USF Schools and      E-rate provides          E-rate provided about
 Library Support          discounts to eligible    $13 billion in
 Program (E-rate)         schools and libraries    discounts to schools
                          on telecommunications    and libraries between
                          services, Internet       2010 and 2014,
                          access, and internal     portions of which
                          connections.             went to schools and
                                                   libraries on tribal
                                                   lands.
Healthcare Connect Fund  HCCF provides            HCCF provided about
 (HCCF)                   assistance to ensure     $52 million to
                          eligible rural health    healthcare facilities
                          care providers have      in fiscal year 2014,
                          access to high-speed     a portion of which
                          Internet services.       went to tribal lands.
                          Assistance may be
                          provided to a service
                          provider that serves
                          tribal lands.
------------------------------------------------------------------------
RUS Programs
------------------------------------------------------------------------
Distance Learning and    The Distance Learning    The Distance Learning
 Telemedicine program     and Telemedicine         and Telemedicine
                          program provides         program provided
                          grants to rural          about $128 million in
                          communities to acquire   grants and loans
                          technologies that use    between 2010 and
                          the Internet to link     2014, almost $3
                          educational and          million of which went
                          medical professionals    to tribal lands.
                          with people living in
                          rural areas.
Community Connect        The Community Connect    The Community Connect
 Program                  Program provides         Program provided
                          grants to rural          about $53 million in
                          communities to provide   grants between 2010
                          high-speed Internet      and 2014, almost $3
                          service to unserved      million of which went
                          areas.                   to tribal lands.
------------------------------------------------------------------------
Source: GAO analysis of FCC and USDA data. GAO-16-504T


Outreach and Training Efforts for Interrelated FCC and USDA Programs 
        Are Not Always Well Coordinated
    While FCC and USDA programs that promote high-speed Internet access 
on tribal lands are interrelated, we found that they are not always 
well coordinated. Our body of work has shown that interagency 
coordination can help agencies with interrelated programs ensure 
efficient use of resources and effective programs. \7\ Agencies can 
enhance and sustain their coordinated efforts by engaging in key 
practices, such as establishing compatible policies and procedures 
through official agreements. \8\ Agencies can also develop means to 
operate across agency boundaries, including leveraging resources across 
agencies for joint activities such as training and outreach. \9\
---------------------------------------------------------------------------
    \7\ GAO, Managing for Results: Barriers to Interagency 
Coordination, GAO/GGD-00-106, (Washington, D.C.: March 29, 2000).
    \8\ GAO, Managing for Results: Key Considerations for Implementing 
Interagency Collaborative Mechanisms, GAO-12-1022, (Washington, D.C.: 
September 27, 2012).
    \9\ GAO, Fragmentation, Overlap, and Duplication: An Evaluation and 
Management Guide, GAO-15-49SP, (Washington, D.C.: April 14, 2015).
---------------------------------------------------------------------------
    One area lacking coordination between FCC and USDA is their 
outreach and technical assistance efforts. FCC and USDA independently 
conduct outreach and training efforts for related programs promoting 
Internet access. For example, while FCC officials said they invite USDA 
officials to FCC training workshops and are sometimes invited to USDA 
training workshops, they said that they do not coordinate to develop 
joint outreach or training events. Synchronizing these activities could 
be a resource-saving mechanism, which could result in a more efficient 
use of limited federal resources, an opportunity for resource 
leveraging between the two agencies and a cost-savings to the tribes 
attending training events. For example, USDA held a training event in 
Washington State in fiscal year 2015 and FCC hosted a training event in 
Oregon the same year. The two agencies could have planned a joint 
training event in the Pacific Northwest Region--each contributing to 
the cost of the event--that would have reduced the cost burdens for 
tribes. Tribal members with limited budgets would not have had to 
travel twice or choose between the two training events. Better 
coordination on conferences, as feasible, could help FCC and USDA reach 
a broader audience and increase the value of their outreach to tribes.
    To this end, we recommended in January 2016 that FCC develop joint 
outreach and training efforts with USDA whenever feasible to help 
improve Internet availability and adoption on tribal lands. FCC 
concurred with our recommendation and summarized the areas in which it 
coordinates with USDA and said that it will continue to work with USDA 
to ensure more strategic and routine coordination. For example, FCC 
invited USDA officials to participate in all tribal consultation and 
training events planned for 2016.

Federal Government is Gathering Data, but FCC Lacks Performance Goals 
        and Measures for the Internet on Tribal Lands
The Federal Government is Gathering Data on Internet Availability and 
        Adoption in Households on Tribal Lands
    FCC defines Internet availability as the presence of Internet 
service in an area, and Internet adoption as the number of people in 
the area subscribing to Internet service. In 2006, we found that data 
on the rate of availability and adoption of Internet on tribal lands 
was unknown because no federal survey had been designed to capture this 
information. We recommended that additional data be identified to help 
assess progress towards providing access to telecommunications, 
including high-speed Internet, for Native Americans living on tribal 
lands. \10\ Since then, as discussed in our January 2016 report, the 
federal government has started collecting data on Internet availability 
and adoption. However, as of December 2015, FCC has not identified the 
performance goals and measures it intends to achieve for broadband 
availability or adoption on tribal lands.
---------------------------------------------------------------------------
    \10\ GAO, Telecommunications: Challenges to Assessing and Improving 
Telecommunications for Native Americans on Tribal Lands, GAO-06-189 
(Washington, D.C.: January 11, 2006).
---------------------------------------------------------------------------
Data on Internet Availability in Households on Tribal Lands
    In 2011, The National Telecommunications and Information 
Administration (NTIA), in cooperation with FCC and the states, began 
publishing the National Broadband Map, an interactive website that 
allows users to view information on high-speed Internet availability 
across the United States, including on tribal lands. The data to 
support the National Broadband Map is collected from service providers, 
including those offering service to federally recognized Indian tribes, 
including Alaska Native villages. The National Broadband Map website 
provides data on Internet availability on approximately 318 federal 
Indian reservations and associated trust lands, including upload and 
download speeds for both wireline and wireless service, technology for 
Internet delivery, and the number of Internet service providers.
    While the National Broadband Map provides information about high-
speed Internet availability, according to NTIA officials, the map is 
based on Census blocks. \11\ If a service provider reported any 
availability of high-speed Internet in a Census block, the entire block 
was counted as served. This could create misrepresentations of service 
in rural areas, which generally constitute large Census blocks. Because 
much of tribal land is rural, the reported broadband service is shown 
to be greater than the actual service available on tribal lands, 
according to NTIA officials. Some tribal officials agreed that certain 
areas on the Broadband Map were inaccurate. For example, the map showed 
the Lac du Flambeau reservation in Wisconsin as covered because two 
providers reported that they provide Internet service on the 
reservation. However, according to tribal officials, the National 
Broadband Map exaggerated the level of service on their reservation 
making them unable to compete for some USF and RUS programs despite 
their efforts to document coverage problems to correct the map. One 
provider indicated that in rural areas, it is more difficult to get 
accurate data because in some cases addresses are not used, making it 
difficult to link service to a census block. However, in the future, 
this provider indicated that it planned to utilize GPS information to 
provide more accurate data. Five of the six providers we interviewed 
said that the reliability of the National Broadband Map has improved 
over time.
---------------------------------------------------------------------------
    \11\ Census blocks are the basis for all geographic boundaries for 
which the Census Bureau tabulates data. Census blocks are statistical 
areas bounded by visible features such as roads, streams, and railroad 
tracks, and by nonvisible boundaries such as property lines, city, 
township, school district, county limits, and short line-of-sight 
extensions of roads.
---------------------------------------------------------------------------
Data on Internet Adoption by Households on Tribal Lands
    In 2008, Congress passed the Broadband Data Improvement Act, \12\ 
which required the Bureau of the Census to collect information from 
residential households, including those on tribal lands. Census 
captured three aspects of Internet adoption: (1) whether a computer is 
owned or used at the residence, (2) if the household subscribes to 
Internet service, and if so, (3) whether that service is dial-up or a 
high-speed connection.
---------------------------------------------------------------------------
    \12\ Pub. L. No. 110-385, 122 Stat. 4096 (2008).
---------------------------------------------------------------------------
    Census began collecting the required data on Internet adoption 
beginning with the 2013 American Community Survey (ACS). According to 
Census officials, five years of ACS data must be collected to provide 
data for areas with smaller populations. Census officials said that 
this data will be available in late 2018 and will provide an estimate 
for Internet adoption nationwide, including the first estimates for 
hard to reach populations such as Native Americans.

FCC Has Not Established Performance Goals and Measures for Internet 
        Availability or Adoption on Tribal Lands
    Agency performance measurement is the ongoing monitoring and 
reporting of program accomplishments, particularly towards pre-
established goals. Performance measurement allows organizations to 
track progress in achieving their goals and provides information to 
identify gaps in program performance and plan any needed improvements. 
The GPRA Modernization Act of 2010 requires annual performance plans to 
include performance measures to show the progress the agency is making 
in achieving its goals. Further, we have identified best practices in 
articulating goals that include:

  <bullet> showing baseline and trend data for past performance, and
  <bullet> identifying projected target levels for performance for 
        multi-year goals. \13\
---------------------------------------------------------------------------
    \13\ GAO, Agency Performance Plans: Examples of Practices that Can 
Improve Usefulness to Decision-makers, GAO/GGD/AIMD-99-69, (Washington, 
D.C.: February 1999). While the Government Performance and Results Act 
is applicable to the department or agency level, performance goals and 
measures are important management tools applicable to all levels of an 
agency, including the program, project, or activity level, consistent 
with leading practices and internal controls related to performance 
monitoring.

    Making high-speed Internet, including broadband Internet, available 
to all Americans is FCC's stated long-term objective, but we found in 
January 2016 that FCC has not set goals to demonstrate or measure 
progress toward achieving it. The National Broadband Map is currently 
the best tool for setting goals and measuring progress toward 
increasing the availability of high-speed Internet on tribal lands. Map 
data are widely used by FCC to describe the availability of broadband 
nationwide. For example, FCC uses data gathered for the National 
Broadband Map in its annual Broadband Progress report provided to 
Congress as required by the Telecommunications Act of 1996. \14\
---------------------------------------------------------------------------
    \14\ Pub. L. No. 104-104,  706, 110 Stat. 56, 153 (1996).
---------------------------------------------------------------------------
    To improve performance management, we recommended in our January 
2016 report that FCC develop performance goals and measures using, for 
example, data from the National Broadband Map, to track progress on 
achieving its strategic goal of making broadband Internet available to 
households on tribal lands, and FCC agreed with our recommendation.

Data Collected Does Not Allow FCC to Measure Outcomes of its E-rate 
        Program for Tribal Institutions
    Although Census is gathering baseline information on household 
Internet adoption, and the National Broadband Map provides data on 
high-speed Internet availability across the country, we found that FCC 
lacks the specific information it needs to measure the outcomes of its 
E-rate program at tribal schools and libraries. The E-rate program 
provides assistance to schools, school districts, and libraries to 
obtain telecommunications technology, including high-speed Internet. E-
rate does not specifically target tribal schools and libraries, 
although some are eligible and receive benefits. Since 2010, E-rate has 
committed more than $13 billion in service provider customer fees to 
schools and libraries, and according to data provided by FCC, at least 
$1 billion of that amount supports tribal institutions.
    FCC's E-rate program has a stated goal of ensuring that all schools 
and libraries have affordable access to modern broadband technologies. 
Communicating what an agency intends to achieve and its programs for 
doing so are fundamental aims of performance management and required 
under the GPRA Modernization Act of 2010. Specifically the act requires 
an agency to have measurable, quantifiable, outcome-oriented goals for 
major functions and operations, an annual performance plan consistent 
with FCC's strategic plan and a means to communicate the outcomes of 
its efforts. However, FCC has not set any quantifiable goals and 
performance measures for its E-rate efforts to extend high-speed 
Internet in schools and libraries nationwide or on tribal lands.
    According to federal internal control standards, government 
managers should ensure there are adequate means of obtaining 
information from external stakeholders that may have a significant 
impact on the agency meeting its goals. To that end, FCC collects 
information on E-rate recipients nationwide through questions on its 
application for E-rate assistance. Several different types of 
institutions on tribal lands can qualify for E-rate funding, including 
schools operated by the tribe or Bureau of Indian Education, private 
schools operating on a reservation, and public school districts that 
serve the reservation. \15\ On FCC's E-rate application, applicants 
receiving service may self-identify as tribal, but in this instance, 
the application provides no definition of ``tribal.'' We found that not 
all schools and libraries on tribal lands identify themselves as such 
during the application process. FCC provided us with information on E-
rate recipients between 2010 and 2014 that self-identified as tribal, 
and the amounts committed to those recipients. These data may 
understate the amount of funds supporting schools on tribal lands. 
Specifically, we identified more than 60 additional school districts, 
private schools, and public libraries on the lands of the 21 tribes we 
studied that received E-rate assistance but were not included in FCC's 
information on tribal recipients. Consequently, FCC does not have 
accurate information on the number of federally recognized tribes, 
including Alaska Native villages, receiving E-rate support, or the 
amount being provided to them. Without more precise information and 
direction from FCC, the extent to which E-rate assistance is provided 
to tribal institutions cannot be reliably determined, nor can FCC rely 
on the information to develop quantifiable goals and performance 
measures for improving high-speed Internet access in tribal schools or 
libraries. It is important to understand how these programs affect 
tribal institutions because FCC has made improving high-speed Internet 
access in tribal institutions a priority following the National 
Broadband Plan, with the establishment of the Office of Native Affairs 
and Policy in 2010, and its current Strategic Plan.
---------------------------------------------------------------------------
    \15\ The Indian Self-Determination and Education Assistance Act of 
1975 (ISDEA), Pub. L. No. 93-638 (1975), as amended, directs the U.S. 
Department of the Interior, at the request of a tribe, to contract with 
Indian tribes or tribal organizations to carry out the services and 
programs the federal government provides to Indians.
---------------------------------------------------------------------------
    To address these concerns, in January 2016, we recommended that 
FCC:

  <bullet> improve the reliability of data related to institutions 
        receiving E-rate funding by defining ``tribal'' on the program 
        application. FCC agreed with our recommendation and intends to 
        provide guidance to applicants in fiscal year 2017.

  <bullet> develop performance goals and measures to track progress on 
        achieving its strategic objective of ensuring that all tribal 
        schools and libraries have affordable access to modern 
        broadband technologies. FCC also agreed with this 
        recommendation, indicating that goals and performance measures, 
        among other things, will substantially improve the 
        accessibility of modern broadband technologies for tribal 
        schools and libraries.

    Chairman Barrasso, Ranking Member Tester, and Members of the 
Committee, this completes my prepared statement. I would be pleased to 
respond to any questions that you may have at this time.

    The Chairman. Thank you so very much for your testimony.
    Ms. Kitka.

   STATEMENT OF JULIE KITKA, PRESIDENT, ALASKA FEDERATION OF 
                            NATIVES

    Ms. Kitka. Good afternoon. My name is Julie Kitka and I 
have the honor of serving as President of the Alaska Federation 
of Natives, which is the largest statewide Native organization 
serving the Native people in the State. I have submitted 
written testimony and ask that it, in its entirety, be included 
into the record.
    For brevity, I want to basically highlight a couple things. 
One, Alaska Natives are very interested in helping ourselves. 
We are very interested in public-private partnerships to 
accomplish goals. We know that it is extremely difficult to get 
the resources that we need to do everything that we need to, 
but we really urge that there is consideration by this 
Committee to try to help us locate those resources that we need 
to pull in private capital in this whole area of 
telecommunications.
    In my testimony I used one example of the New Markets Tax 
Credits. As an example, in Alaska, when we look at how that was 
used, that helped expand broadband in the State by 
incentivizing private companies in order to produce that. If 
you look at the New Market Tax Credits, which the inception was 
2000 and there were 836 different competitive awards over $40.5 
billion in credit authority that was allowed, in the last two 
funding cycles of that, not one Native Community Development 
Financial Institute received any resources.
    The current round that is going on in resources, in which 
they were projecting to award $3.5 billion in new New Market 
Tax Credits, most of the people in Alaska didn't even apply for 
it because they didn't view that as an area that would be 
productive. We received word yesterday that they are looking at 
combining the award cycle in the New Market Credits. Instead of 
awarding $3.5 billion, they are going to combine and do $7 
billion.
    Again, it is a missed opportunity for Native people that 
create these community financial institutions that are trying 
to leverage in private capital into this, and use the example 
in the history of that $40 billion that has been awarded, the 
Congress so smartly set up, we are probably, since its 
inception, received $109 million in tax credits that we could 
leverage with private sector funding. Wyoming, for example, Mr. 
Chairman, I think has only received $3 million in its whole 
inception. Montana, same thing. Just miniscule amounts.
    I really urge this Committee to take on this issue to allow 
Native people to help ourselves using these tax credit systems 
on that that we can go and we can match up with private sector 
partners, that we can help fund these things that we need. We 
cannot be left behind in the digital divide. Everything from 
our businesses that do government contracting, many of our 
villages are really doing a lot of work trying to build up the 
capacity to compete in the Federal marketplace.
    There isn't a chance in heck that they can compete if they 
don't have high-speed internet in order to do work on behalf of 
the government, let alone our schools, our education. From the 
Alaska Native perspective, which I am sure is similar with many 
of the other Native populations, over half of our population 
are very young, and if we don't create the opportunity for the 
young people growing up on that, again, their life 
opportunities are going to be shrunk.
    So I really urge you to focus on the financing sector of 
this. We support the recommendations in the GAO report, but we 
think that the big elephant in the room is the lack of 
resources to do it. And we do think that these tax credits is 
one of those funding mechanisms with some targeted attention, 
and we hope that that could occur in this year or, at the very 
least, set it up for next year. Again, it is helping us help 
ourselves.
    We also think, taking a look at the Universal Service Fund 
for schools and libraries, a minor tweak for expansion for Head 
Start, GED programs, and online computer college classes on 
that would reach out to greater areas on that. And then also 
the need to create a special program in the BIA to lower the 
cost of broadband for Tribal and Native serving institutions we 
think is helpful.
    I would be glad to answer any questions. Thank you.
    [The prepared statement of Ms. Kitka follows:]

  Prepared Statement of Julie Kitka, President, Alaska Federation of 
                                Natives
    Good afternoon. My name is Julie Kitka, and I serve as the 
President of the Alaska Federation of Natives (AFN). AFN is the largest 
statewide Alaska Native organization in Alaska. Our membership includes 
over 130,000 Alaska Natives and their institutions set up to serve our 
people. AFN's membership includes federally recognized tribes, regional 
tribal consortiums, regional non-profit organizations, and Alaska 
Native Claims Settlement Act (ANCSA) village and regional corporations.
    Bottom Line recommendations:

  <bullet> Restore funding for RUS grant programs for broadband 
        deployment and target that money for deployment on tribal lands 
        as defined by the FCC.

  <bullet> Expand the USF Schools and Libraries program to include Head 
        Start, GED programs, and online college courses.

  <bullet> Create a new program within BIA to lower the cost of 
        broadband for tribal and Native serving institutions, funded in 
        part through the USF program.

  <bullet> Set aside ten percent of the New Market Tax Credit program 
        for projects benefitting Indians, Alaska Natives, and Native 
        Hawaiians for ten years, with half that amount being dedicated 
        to broadband deployment.

Background
    AFN's broad mission includes supporting sustainable economies in 
our Native villages and towns; and increasing economic opportunity for 
our people. In so many ways we are still marginalized and the 
investment climate in our rural communities is terrible for solid 
economic development and growth. Federal policies can change this. 
High-level Congressional interest and focused efforts can help us 
overcome the barriers and create an investment climate of real economic 
growth and innovation. A changed investment climate, which supports 
more public-private partnerships and creates real incentives for 
private investment of capital, can change the economic forecast for 
rural Alaska and the futures of Alaska Native peoples. With a young, 
growing Native population, we must continually remove the barriers to 
creating life opportunities, which are taken for granted in urban areas 
all across the country. We need efforts to lift our Native people out 
of poverty and stagnation. This is especially critical in a time of 
economic and fiscal crisis in the State of Alaska due to low oil prices 
and reduced oil output, when the rural areas of Alaska will see 
dramatically reduced state support.
    Only 35 years ago, the majority of Alaska's 200 plus Native 
villages did not have the most basic telephone service available. We've 
come a long way since then. Through the combination of private 
investment and federal support programs, including the Universal 
Service program enacted by Congress in 1996, telecommunications service 
to many Alaska Native communities has drastically improved. But, 
challenges remain before all Alaska Natives have the communications 
services necessary to access the economic opportunities found elsewhere 
in the country, while maintaining their culture and way of life on 
their own land. Ongoing federal support will be necessary to achieve 
that goal. Thus, while AFN supports the recommendations in the GAO 
Report, we believe there is an elephant in the room that must be 
addressed if we are to make meaningful progress in bringing American 
Indian and Alaska Native communities the same kinds of innovative 
services that other Americans enjoy. It all comes down to money.
    Because many of us live in remote locations, unconnected by roads, 
deploying broadband infrastructure to Alaska Native lands is often cost 
prohibitive. The prospect of recovering costs is further diminished by 
the fact that, commonly, Alaska Natives are sparsely disbursed 
throughout a wide geographic area, significantly increasing costs of 
deployment per household; additionally, there are very few large 
commercial customers, so-called anchor institutions, able to provide 
economic stability. In many Alaska Native communities, wages are low 
and unemployment rates and costs of living are so high, resulting in 
local economies that alone are unable to support the private investment 
necessary to effect meaningful change. Without federal incentives, 
companies simply can't invest in Indian country.
    Federal programs are available, but they are not always targeted in 
a way that is helpful to tribal areas. Congress enacted the Universal 
Service Fund to ensure telecommunications services are affordable for 
rural schools and libraries, for health care facilities, and for 
Alaskans living in high cost areas. The theory behind the program was 
that rural and poor communities should not be debilitated by the 
disparity in prices that exist for basic telephone service between 
rural communities and their urban counterparts. And those programs have 
helped make the business case necessary for private investment in 
infrastructure on Tribal Lands. The Lifeline Program, another component 
of Universal Service, provides funding so that low income individuals 
have access to a basic level of service, important for securing 
employment and safety.
    Lifeline is a demonstrable success in Alaska, with telephone 
subscribership among low-income households increasing from 62 percent 
\1\ in 1984 to 91 percent \2\ in 2014. And we commend the FCC for 
recently expanding the Lifeline program to include support for 
broadband, in the hopes that it will have similar effects on broadband 
subscribership. Lifeline has been especially useful on Tribal Lands, 
where residents receive an enhanced subsidy in part because of the 
typically lower incomes and the typically higher costs of providing 
service to tribal lands. But there are those at the FCC and on the Hill 
seriously discussing the abolishment of this important subsidy. We ask 
this Committee to express its continued support for this enhanced 
tribal supplement and ask that no changes be made in the appropriations 
process without first consulting the Indian Affairs Committee.
---------------------------------------------------------------------------
    \1\ Industry Analysis Division, Common Carrier Bureau, Federal 
Communications Commission, Telephone Penetration by Income by State at 
10, Table 2 (March 2000) available at https://transition.fcc.gov/
Bureaus/Common_Carrier/Reports/FCC-State_Link/IADpntris99.pdf.
    \2\ Federal and State Staff for the Federal-State Joint Board on 
Universal Service, Federal Communications Commission, Universal Service 
Monitoring Report at 50, Table 6.8 (2014) available at https://
apps.fcc.gov/edocs_public/attachmatch/DOC-330829A1.pdf.
---------------------------------------------------------------------------
    In addition to the Universal Service Fund, the Stimulus Bill 
adopted in the midst of the financial crisis in 2009 grant and loan 
money for broadband to both the Department of Agriculture's Rural 
Utility Service (RUS) and to a new program housed at the Department of 
Commerce's National Telecommunications and Information Administration. 
The RUS program provided private sector companies with loan and grant 
packages that enabled the deployment of broadband to dozens of Native 
villages, giving them for the first time, not only access to broadband, 
but also cell phone service. Thousands of Alaska Natives now have state 
of the art service because of these programs.
    Unfortunately, the RUS grant money ran out long ago. The Alaska 
Federation of Natives recommends that grant funding be restored to the 
RUS broadband program and targeted to address the unique needs of un-
served and under-served Native communities. The President should 
request funding in the Department of Agriculture budget that will be 
delivered to Congress in February, hopefully with the strong 
encouragement of this Committee. The Congressional budget and the 
Agriculture Appropriations bill should also include funding to restore 
these grant funds, in this appropriation cycle if possible, or commit 
to this in next years process.
    While IHS clinics and hospitals, as well as schools and libraries, 
are eligible for broadband support, a number of other Indian programs 
are not eligible for USF operating subsidies. For example, Kawarek, the 
non-profit regional tribal consortium providing services in the Bering 
Straits coastal region, including Nome and the surrounding 19 villages, 
reports that even when Head Start operates within a school that 
receives USF Schools and Libraries funding, it is not allowed to use 
the Internet in the building without the school risking its USF 
eligibility. Likewise, students who need to take an online GED test or 
want to take college classes online, cannot use the school's Internet 
connections. The Schools and Libraries program should be expanded to 
include Head Start programs operated by tribes as well as online GED 
and college courses taken by students who have dropped out or graduated 
from high school.
    In addition, the Committee should consider establishing a 
telecommunications grant program within the BIA to support tribal 
organizations or other Native serving institutions such as Native 
corporations and Native non-profits which provide services ranging from 
housing to domestic violence counseling to village public safety 
activities.
    Another federal program that has been extremely successful in 
promoting deployment of broadband in Alaska is the New Market Tax 
Credit Program. It provides tax credits to private companies who invest 
in minority and disadvantaged communities. In Alaska, this program has 
been used to leverage private investment in order to build healthcare 
facilities and to deploy broadband to the most remote Native 
communities.
    AFN recommends the Committee introduced legislation to set aside 
ten percent of the New Market Tax Credit program for projects 
benefitting Indian, Alaska Native, and Native Hawaiians communities 
with half of that amount dedicated to deploy broadband. Over ten years, 
this would provide $3.5 billion in tax credits, which in turn would 
leverage an additional $7 billion in private investment for a total of 
$10 billion. If half of that was allocated to build out broadband to 
Indian communities, it would bring Native people not only into the 21st 
century but would open up a range of economic opportunities, would 
improve education and health care, and would give us the same kinds of 
opportunities that other Americans enjoy.
    In summary AFN has four recommendations:

  <bullet> Restore funding for RUS grant programs for broadband 
        deployment and target that money for deployment on tribal lands 
        as defined by the FCC.

  <bullet> Expand the USF Schools and Libraries program to include Head 
        Start, GED programs, and online college courses.

  <bullet> Create a new program within BIA to lower the cost of 
        broadband for tribal and Native serving institutions, funded in 
        part through the USF program.

  <bullet> Set aside ten percent of the New Market Tax Credit program 
        for projects benefitting Indians, Alaska Natives, and Native 
        Hawaiians for ten years, with half that amount being dedicated 
        to broadband deployment.

    The Chairman. Thank you very much, Ms. Kitka. We appreciate 
your traveling all the way from Alaska to be with us.
    Mr. Enjady.

    STATEMENT OF GODFREY ENJADY, PRESIDENT, NATIONAL TRIBAL 
                 TELECOMMUNICATIONS ASSOCIATION

    Mr. Enjady. Thank you, Mr. Chairman.
    Chairman Barrasso, Ranking Member Tester, and members of 
the Committee, thank you for this opportunity to testify as 
President of the National Tribal Telephone Association. I am 
Godfrey Enjady, General Manager of Mescalero Apache Telecom, 
Incorporated, located in Mescalero, New Mexico. I also serve as 
Chairman of NTTA's Tribal Affairs Committee and serve on the 
FCC's Native Nations Broadband Task Force.
    NTTA is comprised of nine tribally-owned and operated 
telecommunications companies that provide voice, broadband, and 
other communications services to their communities. I would 
like to thank the members of Congress that requested the study 
and the GAO for its examination of these issues. Thank you.
    The report concludes that access to internet on tribal land 
varies, but challenges to access and adoption remain. The high 
costs of infrastructure buildout on tribal lands, which tend to 
be remote and rugged terrain, work in tandem with tribal member 
poverty to create a barrier to high-speed internet expansion on 
tribal lands. Even though the GAO's purpose was not to provide 
recommendations as how to increase broadband availability and 
adoption in tribal areas, it does highlight some of the 
challenges being faced today.
    The GAO report demonstrates that providers serving tribal 
areas face many unique challenges in bringing broadband 
services to Native Americans. The GAO correctly notes that 
broadband is vital in tribal areas for education, economic 
development, and health care. Most tribal areas consist of some 
of the highest cost to serve areas in the United States, which 
in turn increases the infrastructure costs. Therefore, in 
addition to challenges to availability, broadband providers in 
tribal areas also face significant affordability and adoption 
challenges.
    The issues raised in the study comes as no surprise to 
those of us that work in this arena. The problems in serving 
remote, sparsely populated communities has been thoroughly 
discussed in congressional testimony and on the record at the 
FCC and with RUS.
    Access to capital is also a major roadblock to network 
growth and viability. Since tribally-owned carriers cannot 
collateralize trust lands, RUS is our only lender, and I 
appreciate the work that they have done for us over there.
    The study points out that there needs to be better 
coordination between the FCC and RUS. We all agree that RUS has 
done a great job, especially on the SUTA portion. We are one of 
the first recipients of SUTA, and that was part of the 2008 
Farm Bill. Thank you. RUS loans and USF support go hand-in-
hand. Reliable and predictable cash flow is required to get any 
sort of loan, including RUS loans.
    The study notes that the National Broadband Plan, in 
numerous instances, outlines the need for greater efforts to 
make broadband available on tribal lands. The study points to 
the lack of FCC development on broadband performance goals and 
measurements on tribal lands. Once again, NTTA agrees.
    While highlighting challenges faced in bringing viable and 
affordable broadband services to tribal communities, the GAO 
study also made some recommendations which include training, 
mapping, data collection, and performance goals and measures. 
NTTA concurs with these recommendations; however, they do not 
go far enough.
    Middle mile costs for NTTA members is extremely high and 
this is very problematic in bringing affordable, robust 
broadband services to Indian Country. This high cost to reach 
the outside internet world inhibits the broadband take-rate, 
thus putting a real damper on consumer adoption.
    The arbitrary budget cap that has been stablished for the 
Universal Service Fund high-cost program does not allow for 
adequate funds to build and maintain the broadband networks 
that are demanded by regulators, policymakers, and consumers 
alike. Networks require a viable and predictable funding 
source. An examination and reform of the USF contribution 
regime is long overdue and may eliminate any need for the 
arbitrary budget cap.
    On June 19th of last year, NTTA went on record at the FCC 
with a proposal to adopt a Tribal Broadband Factor. This Factor 
is part of a reform of the USF for rate-of-return carriers. The 
TBF targets support on tribal lands and has specific 
obligations for any carrier, tribally owned or not, that uses 
the program. We call on the FCC to adopt the TBF in a timely 
manner. Further, NTTA requests that members of the Committee 
weigh in with the FCC to act on the TBF and work to bring 
stability and predictability to USF support for tribal 
communities.
    As noted in the report, adoption of available broadband 
services by Native Americans is also challenging due to the 
poverty rates on tribal lands. The Federal Lifeline program is 
critical in allowing many Native Americans to subscribe to 
voice services with the addition of broadband service to the 
Federal Lifeline program. NTTA has advocated for an increase to 
the Tribal Lifeline credit in order to recognize the higher 
costs of retail broadband services.
    NTTA also believes that the letter of credit required by 
lenders, including RUS, has become burdensome and has, in many 
instances, become a roadblock to getting needed financing. In 
addition, NTTA believes the irrevocable letter of credit 
required to participate in the FCC's reverse auctions prevents 
NTTA members from using that program. This issue must be 
addressed.
    Mr. Chairman, I want to extend my appreciation to the 
members of this Committee and to your staff, and thank you to 
Senator Udall, too, on my behalf. Thank you.
    [The prepared statement of Mr. Enjady follows:]

   Prepared Statement of Godfrey Enjady, President, National Tribal 
                     Telecommunications Association

    Chairman Barrasso, Ranking Member Tester and members of the 
committee, thank you for this opportunity to testify as 
President of the National Tribal Telecommunications Association 
(NTTA). I am Godfrey Enjady, General Manager of Mescalero 
Apache Telecom, Inc. (MATI) located in Mescalero, New Mexico. I 
also serve as Chairman of NTCA's Tribal Affairs Committee and 
am on the Federal Communications Commission's (FCC) Native 
Nation's Broadband Task Force.
    NTTA is comprised of the nine Tribally owned and operated 
telecommunications companies that provide voice, broadband and 
other communications services to their communities. Those 
companies are Cheyenne River Sioux Telephone Authority (SD), 
Fort Mojave Telecommunications, Inc. (AZ), Gila River 
Telecommunications, Inc. (AZ), Hopi Telecommunications, Inc. 
(AZ), Mescalero Apache Telecom, Inc. (NM), Saddleback 
Communications (AZ), San Carlos Apache Telecommunications 
Utility, Inc. (AZ), Tohono O'odham Utility Authority (AZ), and 
Warm Springs Telecom (OR).
    Mescalero Apache Telecom serves the entirety of the 
Mescalero Apache Reservation located in the remote South 
Central Mountains of New Mexico. Prior to MATI purchasing its 
service area and building its network in 2001, 52 percent of 
the Mescalero Apache Tribe received no service, and 48 percent 
received only basic voice service. Nearly 100 percent of the 
Tribe now has access to some level of broadband service. MATI 
provides services in what is considered a rural, high-cost area 
and serves an average population density of two customers per 
square mile. This situation causes the average cost per line to 
substantially exceed the national average. In addition, 90 
percent of the Tribe is eligible for Lifeline Support, compared 
to the national average of 21.8 percent.
    First of all, I would like to thank the Members of Congress 
that requested this study and the Government Accountability 
Office for its examination of these issues. The report 
concludes that ``access to Internet on tribal lands varies but 
challenges to access and adoption remain. The high costs of 
infrastructure buildout on tribal lands, which tend to be 
remote and rugged terrain, work in tandem with tribal member 
poverty to create a barrier to high-speed Internet expansion on 
tribal lands.'' The GAO goes on to recommend some joint 
outreach and training efforts between the Federal 
Communications Commission (FCC) and United States Department of 
Agriculture (USDA), and that the FCC develop some performance 
goals and measures related to broadband availability and 
adoption. Even though the GAO's purpose was not to provide 
recommendations as how to increase broadband availability and 
adoption in Tribal areas, it does highlight some of the 
challenges being faced today.
    The GAO Report demonstrates that providers serving Tribal 
areas face many unique challenges in bringing broadband 
services to Native Americans. The GAO correctly notes that 
broadband is vital in Tribal areas for education, economic 
development, and health care, not unlike the rest of the 
country. Most Tribal areas consist of some of the highest cost 
to serve areas in the United States, which in turn increases 
the infrastructure costs. In addition, according to the GAO 
Report, ``Native Americans are among the most economically 
distressed groups in the United States. According to the 
Census' 2014 American Community Survey (ACS), about 28.3 
percent of Native Americans live in households with incomes 
below the federal poverty level--compared to 15.5 percent for 
the U.S. population as a whole.'' Therefore, in addition to 
availability challenges, broadband providers in Tribal areas 
also face significant affordability and adoption challenges.
    That being said, the issues raised in the study come as no 
surprise to those of us that work in this arena. The problems 
in serving remote, dispersed communities situated in hard to 
serve, rough terrain has been thoroughly illuminated in 
Congressional testimony and on the record at the FCC, and with 
USDA's Rural Utilities Service (RUS). For example, the FCC's 
National Broadband Plan (NBP) states ``Tribes need 
substantially greater financial support than is presently 
available to them, and accelerating Tribal broadband deployment 
will require increased funding.'' In addition, the FCC's Office 
of Native Affairs and Policy said in 2012 that ``the lack of 
communications services in Indian country--be it high speed 
Internet or broadband, traditional wireline phone service, 
mobile service, radio broadcast, or TV broadcast service--is 
well known.'' Finally, the FCC itself, in the landmark USF 
Transformation Order, stated ``Tribally-owned and operated 
carriers serve cyclically impoverished communities with a 
historical lack of critical infrastructure.'' The GAO's most 
recent report serves to reinforce these statements, as does the 
fact that NTTA members exist solely due to the lack of 
communications service historically available on their 
respective reservations.
    Recent FCC Broadband Progress Reports demonstrate the 
substantial digital divide that exists between Tribal areas and 
the rest of the United States. For example, the latest (2016) 
report, while noting some progress in the availability of 25 
mbps (down)/3 mbps (up) fixed broadband services, makes the 
Tribal gap painfully clear:

------------------------------------------------------------------------
                                                       Percentage of
                                  Population         Population Without
                                                       access to 25/3
------------------------------------------------------------------------
United States                              33.982                    10%
Rural Areas                                23.430                    39%
Urban Areas                                10.552                     4%
Tribal Lands                                1.574                    41%
Rural Areas                                 1.291                    68%
Urban Areas                                 0.283                    14%
U.S. Territories                            2.628                    66%
Rural Areas                                 1.078                    98%
Urban Areas                                 1.550                    54%
------------------------------------------------------------------------

    Access to capital is also a major roadblock to network 
growth and viability. Because most Tribally owned carriers 
cannot collateralize their assets, RUS is our only lender and I 
appreciate the work that they do. Last year, my company 
received the first RUS loan under the 2008 Farm Bill's 
Sustainably Underserved Trust Area (SUTA) provision. The GAO 
study points out that there needs to be better coordination and 
communication between the FCC and RUS. NTTA agrees. RUS loans 
and FCC Universal Service Fund (USF) support go hand-in-hand. 
Reliable and predictable cash flow is required to get any sort 
of loan, including RUS loans.
    The study notes that the National Broadband Plan, in 
numerous instances, outlines the need for greater efforts to be 
made to make broadband available on Tribal lands. The study 
points to the lack of FCC development of broadband performance 
goals and measurements on Tribal lands. Once again, NTTA 
agrees.
    The study details the short falls of the E-rate program in 
Tribal communities. Better coordination and performance goals 
are needed. However, in some instances, there are other 
complications. The Bureau of Indian Education (BIE) operates 
the schools on my reservation and they have a nation-wide 
contract with a large communications carrier that prohibits me 
from serving area schools. This is inefficient and blocks MATI 
from E-rate funding. I understand that there are Senators 
examining ways for the E-rate program to better support not 
just schools and libraries, but also Boys and Girls Clubs, and 
other institutions serving youth. NTTA applauds these efforts.
    While highlighting some challenges faced in bringing viable 
and affordable broadband services to Tribal communities, the 
GAO study also made some recommendations which include 
training, mapping, data collection, and performance goals and 
measurements. NTTA has no objections to these recommendations. 
However, they do not go far enough.
    Middle mile costs for NTTA members is extremely high and 
this is very problematic in bringing affordable, robust 
broadband services to Indian country. This high cost to reach 
the outside Internet world inhibits the broadband take-rate, 
thus putting a real damper on consumer growth.
    The arbitrary budget cap that has been established for the 
Universal Service Fund high-cost program does not allow for 
adequate funds to build and maintain the broadband networks 
that are demanded by regulators, policy makers and consumers. 
There continues to be a debate about broadband capacities and 
speeds, no matter what the platform of delivery. Fiber optic 
networks as the anchor, with the compliment of wireless and 
satellite technologies, delivers the most rewarding Internet 
experience to consumers. And that network requires a viable and 
predictable funding source, especially in areas that are 
remote, sparsely populated and hard to serve. An examination 
and reform of the USF contribution regime is long over-due, and 
may eliminate any need for the arbitrary budget cap.
    On June 19 of last year, NTTA went on record at the FCC 
with a proposal to adopt a Tribal Broadband Factor (TBF) as 
part of the reform of the long term USF for rate-of-return 
carriers currently being considered by the Commission. The TBF 
includes a multiplier for targeted support on Tribal lands, and 
has specific obligations for any carrier, tribally owned or 
not, that uses the program. The proposal is straightforward and 
easily understood, and is narrowly-tailored to address the 
specific need to promote broadband while causing very little 
impact on the overall USF mechanism. We call on the FCC to 
adopt the TBF in a timely manner. Further, NTTA requests that 
members of this committee weigh-in with the FCC to act on the 
TBF and work to bring stability and predictability to USF 
support for Tribal communities.
    As noted in the GAO report, adoption of available broadband 
services by Native Americans is also challenging due, in large 
part, to the poverty rates in Tribal lands. The federal 
Lifeline program, which provides direct credits to low-income 
consumers, has helped in allowing many Native Americans to 
subscribe to voice services. The FCC recognized the importance 
of Lifeline services in Tribal areas when it adopted an 
``enhanced'' Lifeline credit for low-income consumers that 
calls for as much as $25 in monthly service credits. However, 
with the addition of broadband services to the federal Lifeline 
program, NTTA has advocated for an increase to the Tribal 
Lifeline credit in order to recognize the higher costs of 
retail broadband service. While the FCC has adopted an order 
addressing this and other Lifeline issues, the text of the 
order has yet to be released, and thus NTTA does not know 
whether the Commission accepted NTTA's proposed increase to the 
Tribal Lifeline credit or not.
    Other issues that the NTTA would like to examine in the 
future are the access and economic rights of spectrum over 
Tribal lands, and the establishment of a USF Tribal Broadband 
Fund.
    NTTA also believes that the letter of credit required by 
lenders, including RUS, has become burdensome and has, in many 
instances, become a roadblock to getting needed financing. In 
addition, NTTA believes the irrevocable letter of credit 
required to participate in the FCC's reverse auctions prevents 
NTTA members from using that program. This issue must be 
addressed.
    Finally, NTTA would like to acknowledge the efforts by the 
staff at the FCC's Office of Native Affairs and Policy to bring 
a voice to native peoples at the Commission. However, this 
effort may not be enough. Congress should examine the 
establishment of a Native American Bureau at the FCC that has 
specific authority to provide support for broadband networks in 
Tribal communities.
    Mr. Chairman, I want to extend my appreciation to members 
of this committee and your staff. Much more work needs to be 
done on infrastructure growth in Tribal areas, most importantly 
in the area of broadband deployment.
    Thank you.

    The Chairman. Thank you very much for your testimony to 
you, as well as to everyone on the panel.
    We will now start with a round of five-minute questions, 
starting with Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman. I appreciate all 
the witnesses being here today and I would like to start with 
Mr. Enjady.
    In 2012, an FCC report notes that in North Dakota, my 
State, 79 percent of tribal areas do not have access to 
broadband services that meet the FCC speed benchmark. You 
talked about the high cost. So my first question goes to are 
there legal or regulatory roadblocks that make it difficult to 
provide affordable broadband in Indian Country?
    Mr. Enjady. Senator, that is a very broad question that 
could take a long time to really answer, but I do really 
appreciate that question. It is tough, especially for myself, 
starting a telephone company in New Mexico. It is one thing 
that I started at the very beginning. I worked for a company 
named CONTEL GTE, which is Verizon.
    I had to go back to the Tribe. I went back to the Tribe and 
worked for them. And in building this company it was one thing 
to get through the regulators of the State. Once you have that 
ETC status, then you go on to the FCC and get your ETCs there.
    Once you establish that and be able to buy the area from a 
local provider like Windstream or any of the bigger 
CenturyLinks now, most of the areas in North Dakota might be 
provided by that. NTCA is a good example of one that represents 
a lot of the smaller companies that do provide services to 
Indian Country in those areas. It is a barrier right now that 
is a tough one to break.
    There are not any new tribal telephone companies lately. 
There are only nine of us, the oldest one being Cheyenne River 
Sioux in South Dakota. There are no tribally-owned telephone 
companies in North Dakota. And I do believe that there are 
providers that are co-ops that do provide those services.
    Senator Hoeven. So now Microsoft and Verizon have both 
announced some programs that partner with private entities to 
provide internet services for more Native American students, so 
that is one area where some of the larger companies are looking 
for partnerships. Sounds to me like you feel there is a need 
for those kind of partnerships. Can you talk about how we 
accomplish that to bring more of this internet connection into 
Indian Country?
    Mr. Enjady. Those are great programs. The problem there is 
the sustainability of it, something that needs to be paid for 
as it keeps moving on. A lot of these computers that I know the 
Gates Foundation left computers on Navajo Nation, a lot of them 
are out of date and broken down. I don't know, it is just a 
one-time influx of money that needs to be sustained some way, 
somehow.
    The FCC has established a great program for companies like 
ours to sustain and receive funding for our capital 
expenditures and operating capital to be able to provide these 
services over the years, and that is one of the greater return 
reforms that is happening right now that is going to be for the 
next 10 years. So that is key, sustainability.
    Senator Hoeven. Right. And it seems to me that we need more 
of these partnerships with entrepreneurs like yourself and with 
companies that are willing to go on the reservation. And 
whether it is setting up the broadband internet, computers in 
schools, all of the above, we have to find ways to create some 
partnerships to do that.
    Mr. Enjady. I welcome any of them that come to New Mexico 
to help our other tribal members there in New Mexico.
    Senator Hoeven. I want to shift to Mr. Goldstein. In your 
study, does the GAO have some recommendations on how we foster 
that, those partnerships?
    Mr. Goldstein. Senator, we didn't really focus on that in 
this report; however, we did in a previous report, and we found 
that, unfortunately, the kinds of barriers that we are talking 
about today existed years ago as well. We simply did not find 
very many examples where private companies were willing to 
partner on the reservation for many of the reasons we have 
talked about today, not just the amount of funding that that it 
would take, but as well the sustainability that the gentleman 
was just talking about.
    Senator Hoeven. That is what I mean. What is your 
recommendation on how to create these partnerships to get the 
larger companies to come in to get the public-private 
partnerships? How do we get that going, how do you do it?
    Mr. Goldstein. It is not something we have looked at, 
unfortunately. It is something that we could, hopefully, try to 
do in the future, but to this date this report, sir, was really 
on some of the barriers to the existing conditions, not so much 
on how public-private partnerships could be developed.
    Senator Hoeven. Did you find barriers at the State level 
that Mr. Enjady referred to?
    Mr. Goldstein. I am sorry, sir?
    Senator Hoeven. Did you find some of the same barriers at 
the State level that Mr. Enjady referred to?
    Mr. Goldstein. Yes. The kinds of barriers we saw were 
everything from long distances, rural terrain, poverty, a lack 
of expertise, administrative and technical, to form some of the 
ETCs. And then even when the ETCs were formed, there were 
additional kinds of challenges and barriers related to them 
being able to get spectrum for their use. Sometimes it was 
already encumbered by other providers who weren't interested in 
relinquishing it. There are a number of regulatory and legal 
barriers that you referred to that exist throughout Indian 
Country.
    Senator Hoeven. Thank you.
    The Chairman. Thank you, Senator Hoeven.
    Senator Udall.
    Senator Udall. Thank you very much, Mr. Chairman, and thank 
you to Mr. Enjady for that answer there.
    I would like to ask my first question to Ms. Sohn. Section 
254 of the Communications Act charges the Commission with 
ensuring that consumers in all regions of the Nation have 
access to telecommunications and information services that are 
``reasonably comparable to those in urban areas.'' The latest 
FCC data show that 96 percent of Americans in urban areas have 
broadband access. This compares to just 59 percent of those on 
tribal lands.
    Given this gap, has the FCC failed to live up to its duties 
under Section 254 of the Communications Act?
    Ms. Sohn. Thank you, Senator Udall. Without a doubt, we 
could do a lot better. And we want to work with you and we want 
to work with our partners in the Federal Government to try to 
close that gap. I think I was quite clear in my opening 
statement that the digital divide that we have today is 
unacceptable, and we can be doing a lot more.
    I would like to actually address one of the things that Mr. 
Enjady talked about, and that was the Tribal Broadband Factor. 
In fact, we are looking right now, we have a further notice of 
proposed rulemaking that is seeking comment not only on the 
Tribal Broadband Factor proposal that NTTA put out, but on any 
other reforms that might promote broadband deployment for rate-
of-return carrier lands.
    So we really, really want to move forward with getting more 
broadband out there and we are looking at many ways of doing 
it. We are actually moving forward with this further notice of 
proposed rulemaking and Chairman Wheeler has said that he will 
act on a proposal before the end of the year.
    Senator Udall. In 2010, the FCC chairman, Julius 
Genachowski, stood up an agency, the Office of Native Affairs 
and Policy, or ONAP. This tribal liaison office is vital, I 
think, for ensuring that robust tribal consultation occurs and 
you have better input from the Tribes on important FCC actions 
that impact them.
    So I am very disappointed by that the FCC did not provide 
ONAP even the modest $300,000 in funding that Congress directed 
for tribal consultation in fiscal year 2015. Will you assure me 
that the FCC will not repeat this mistake for the current 
fiscal year?
    Ms. Sohn. Sir, we will not repeat that mistake, yes. I will 
give you that assurance.
    Senator Udall. That is good. That is good. And how much 
funding for ONAP and tribal consultation is the FCC's fiscal 
year 2017 budget request?
    Ms. Sohn. Well, we do have overages. As you mentioned, we 
did not spend all the money. We spent most of the money in 
fiscal year 2014. We did not spend most of the money, probably 
about half, in fiscal year 2015.
    But I want to take a step back and look at the reason that 
you appropriated that money to ONAP. That was to ensure that 
ONAP went out and did government-to-government consultations 
with the tribal communities, did trainings, did workshops on 
broadband and spectrum and broadcast, and they did that. They 
did 33 in 2014; they did 39 in 2015.
    So in the year where we only spent half the money, they 
actually did more consultations than in the year where they 
almost spent all the money. So the goal of appropriating that 
money is being accomplished.
    In the first four months of 2016, there have already been 
20 consultations, and there is going to be a lot more. We will 
probably exceed the 39 by the end of this year. So we will 
spend the money. We are planning on it. But, more importantly, 
the goal that you set out when you gave ONAP that money has 
been accomplished, and I hope the Tribes, and I do believe the 
Tribes do appreciate the effort that ONAP has made. It is a 
critical part of our agency.
    Senator Udall. But the real answer to the question is that 
in 2017 your budget request is zero, and I don't think that is 
the way we should be headed.
    Just a quick question to Mr. Enjady. My understanding is 
that the Tribal Broadband Factor proposal before the FCC would 
direct $25 million per year to accelerate broadband deployment 
on tribal lands. This amount is offset by savings elsewhere in 
the Connect America Fund. Could you elaborate on how the Tribal 
Broadband Factor would help telcos deploy service to 
underserved and unserved areas?
    Mr. Enjady. Thank you, Senator Udall, I appreciate that 
question. The way things go, funding is going down either way. 
That is one thing that is happening to Indian Tribes, 
especially when it comes to running our telephone companies. I 
am one of nine tribally-owned telephone companies in the Nation 
right now. We are facing a lot of decreased funding in order to 
build our networks, operation caps that are put on top of us, 
capex caps that might becoming here soon. These are some of the 
things that are tough.
    So TBF was formed in order to offset that. A lot of that 
notion obviously can tell that it is hard to provide services 
on Indian reservations. We do not have sidewalks like anywhere 
else, like in America, like where we have a fund where we build 
roads and whatever else. I live on a dirt road myself; it is 
going up a hill. How do we get services up there? I have to 
string it up where the REA guys put up their telephone lines.
    These are some of the real life things that are happening 
on reservations. We don't have improved services like this, so 
we don't have mapping, GIS mapping that is very accurate at 
times. I would like to have a lot of those things, and it takes 
funding to do that. So those are some of the things that we are 
looking at and hopefully TBF can bridge that gap for us here in 
the future.
    Senator Udall. Thank you for your good work.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    And thank you, Ms. Kitka, for being here, making the long 
trip. You are not a stranger to this Committee and we 
appreciate the contributions that you provide on behalf of 
Alaska Natives throughout our State.
    I want to focus a little bit about your suggestion that we 
need to expand the universal service schools and libraries 
program to include Head Start, GED programs, and online college 
courses. It strikes me, as I go around the State, you go out to 
some of these very small villages and the school is the only 
place that has access to internet.
    Well, the school is not open on the weekend; the school is 
not open at night; and the school is not open during the 
summer. And in most of our small villages we don't have 
libraries.
    So what happens on the weekend, at night, and during the 
summer? Where is the access for not only the children, but if 
you don't have a public library, there is no access in these 
communities.
    Am I over-exaggerating or overstating the case?
    Ms. Kitka. No. I think you are exactly right. I think that 
there is a lack of access to many of our residents in our 
villages, especially our small villages, and that is part of 
the reason why we want the schools and library program 
expanded, because even if they provide that for the GED or 
other things, they are actually in violation; and common sense 
is that doesn't make sense.
    But also there really is a need for the BIA to set up a 
special program to lower the cost on that. In some of the 
villages we have the school with the program, you have a tribal 
entity providing social services, things for children on that 
that don't qualify for the lower rate, so they are paying 
double the amount. So we need to lower those costs in the other 
areas.
    Senator Murkowski. One of the things that I hear as I am 
going around, also, is in many of our schools we have a Head 
Start program within the school itself, and yet you have this 
firewall here where the Head Start program cannot avail itself 
of the capabilities that the school has, which makes no sense 
to me. You would think that we ought to be able to resolve 
that.
    Ms. Sohn?
    Ms. Sohn. Senator Murkowski, my understanding is that Head 
Start, if they do hold classes in an E-rate school, they are 
permitted to use that connectivity unless the State says 
otherwise. And USAC actually has a list on its Web site of 
States that permit Head Start and GED classes to use when they 
use the facilities of a school. So it actually goes State by 
State, it is not an overarching rule against it.
    Senator Murkowski. That would be something to look into, 
then, if you have a situation where, if you have job training, 
GED, or Head Start and the States can make that determination.
    Let me ask about your recommendation with regard to the New 
Market Tax Credit program and effectively setting aside 10 
percent of New Market Tax Credits for projects that would 
benefit Alaska Natives and American Indians with a focus 
specifically to the Broadband, because I think you have 
identified what our biggest impediment is.
    Everybody recognizes that we need to have this broadband 
access. The real question is, okay, how do you make it happen? 
Where does the financing come from? So the idea of greater 
public-private partnerships I think is something worth 
considering.
    As you know, we have not fared well in the State, but, 
again, if there were a greater opportunity to be competitive 
with a carve-out that would focus on an area where we have 
extraordinary need when it comes to our ability to access 
broadband amongst our Native American and Alaska Native 
communities, the question to you in terms of how far we have 
gotten with this proposal of kind this 10 percent carve-out or 
set-aside, is this something that you have been working with 
NCAI on? Where are we in just moving the idea forward?
    Ms. Kitka. Well, we have had discussions with the White 
House. As many people know, President Obama traveled to Alaska 
at the end of August of last year and early September and saw 
some of the great needs in our State and made some commitments 
of some critical things that needed to be taken care of by the 
Federal Government. The whole issue of focused New Market Tax 
Credits as one way to tackle some of those commitments of the 
national imperative in the Arctic on that was something that 
they were very interested in talking about. We have had 
conversations with the New Markets program manager within 
Treasury. We do think that there is an interest and a 
willingness to use that program to expand and meet the needs.
    That is why we put it forward as far as a set-aside that 
includes half of that set-aside for telecommunications and half 
of it for other things such as other infrastructure needs. We 
have tremendous infrastructure needs and we believe that the 
Congress really needs to make that a national priority next 
year, when new administration and a new session of Congress on 
that, and include Native Americans' infrastructure needs and 
telecommunications needed in that.
    In the interim, I think what is an immediate question mark 
to us is what they are doing in combining the $3.5 billion to 
do the $7 billion. And if that goes on, it is a huge lost 
opportunity for Native Americans in that whole cycle. We 
understand we don't want to slow down what they are doing, but 
if there is a way that they could carve out in that $7 billion 
some portion of it for Alaska Natives and Native Americans on 
that for us to have an opening to put together proposals in 
there for broadband and other infrastructures, that is 
something that could be done this year.
    I really urge the Committee to develop legislation that is 
totally focused on Native American needs on infrastructure with 
a focus on broadband and consider either in the appropriations 
process or in the omnibus bill this year, but really tackle 
that. It is a lost opportunity for Native Americans not being 
able to access that.
    Senator Murkowski. I appreciate you leading on this and 
look forward to working with you and the Committee on this.
    The Chairman. Thank you, Senator Murkowski.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. You know, on the 
docket we had a bill that Senator Tester and I sponsored, 
trying to take a lot of the mystery out of Indian school 
funding and where things are, and I guess my question to you, 
Ms. Sohn, is similar when it comes to broadband and exactly 
what the FCC does.
    Do we need better metrics to measure the deployment of 
broadband in Indian Country? I know that you maintain a 
broadband map of the U.S. and what speeds in wireless are 
available, but are those maps coordinating with Indian Country? 
Is there a better way to review these?
    Are there implementing issues about data sharing across 
agencies? What do we need to do? What kind of metrics do you 
currently use and what else do we need to do so that we get a 
crisp and clear picture of this challenge?
    Ms. Sohn. Thank you, Senator Cantwell. So we do have 
performance goals and we have outcome goals. Whether we have 
specific metrics, not so much; and we could do a lot better in 
that regard. But we have speed goals both for schools and 
libraries and also for high-cost areas; we have outcome 
measures in high-cost areas, the number of new schools and 
libraries and homes and businesses that get connected.
    Senator Cantwell. On tribal land? Are you talking in 
general?
    Ms. Sohn. In general.
    Senator Cantwell. Okay. I am asking what kind of metrics 
you have on tribal land.
    Ms. Sohn. We don't have specific metrics for tribal lands. 
And one of the reasons for that is that tribal lands, as you 
know, are very, very different. There are tribal lands in the 
suburbs and there are tribal lands in the bottom of the Grand 
Canyon. So we are concerned that if you have one-size-fits-all 
metrics for tribal lands, it may actually do some of the lands 
a disservice.
    Be that as it may, I think we still would like to work with 
the GAO and work with you to figure out whether some metrics 
make sense.
    Senator Cantwell. Well, I don't know any problem that I 
have ever solved without measuring it first and getting a good 
understanding of what we think the problem is. And I know every 
member up here I am sure has Indian Country within their States 
and wants it to be a vibrant economic development area, and 
everybody, as the panelist just did an articulate job of 
saying, it is a key tool to economic development.
    So I guess what I think is always challenging for us is to 
get a clear and crisp picture of exactly where these programs 
are reaching and where they are not reaching, because we just 
keeping talking and talking about how there are these available 
programs, and then we don't even know what they are actually 
accomplishing.
    So I guess, I don't know, Mr. McBride, do you have a kind 
of metrics that you are using? Is there any challenge with 
coordinating data between agencies that we need to clear up?
    Mr. McBride. Actually, thank you for the question. Congress 
actually helped us with this with some direction in the 2014 
Farm Bill. One provision of the Farm Bill required us to share 
reporting on our loans with the FCC, and we are working with 
them to share data that we have so they can update broadband 
maps.
    We also are required to include unserved populations in our 
Farm Bill loan program, and that information is posted online 
when an applicant submits an application so the public can see 
which areas would be served. And we do have that unserved 
requirement within the Farm Bill, so we are trying to target 
our resources to unserved areas.
    Senator Cantwell. Ms. Sohn?
    Ms. Sohn. I think I would like to clarify what I said 
before. So we do measure deployment all over the Country and on 
tribal lands. We ask the carriers to submit twice a year on 
their Form 477 where they deploy broadband. And we do need to 
share that data more with USDA so we can have greater impact 
for our funding. We need to share funding plans, we need to 
share data without a doubt. But we do measure deployment.
    Let me talk about the broadband map for a moment.
    Senator Cantwell. So, on that point, do you know what 
percentage of Indian Country has access to broadband services?
    Ms. Sohn. Yes. Fifty-nine percent. So 41 percent does not, 
by our benchmark.
    Senator Cantwell. Fifty-nine percent of Indian Country has 
broadband service?
    Ms. Sohn. According to our latest broadband progress 
report.
    Senator Cantwell. You mean some coverage or you mean 59 
percent of tribal land has broadband access?
    Ms. Sohn. Fifty-nine percent. So 41 percent of tribal lands 
do not have access to our benchmark speed. But if I could just 
address the broadband map for a moment, because we have never 
actually updated the broadband map because we have never gotten 
the resources to do so. So what we do is we have created our 
own interactive map and we update that pursuant to our 
broadband progress report.
    Senator Cantwell. Mr. Goldstein, did you want to add 
something here?
    Mr. Goldstein. Thank you, Senator. Just briefly. To the 
extent that the broadband map is accurate, I think those 
numbers are fine. The problem with the broadband map is that in 
many places, the way it is being measured is not terribly 
accurate, it is being done with a very large cudgel, if you 
will, because it is being done by census block; and out in a 
lot of Indian Country, as you know, census blocks are very 
large.
    Senator Cantwell. So the Colville Reservation in Washington 
might be one census block.
    Mr. Goldstein. It could be one citizen, even, one small 
portion of a census block and the rest of that census block 
does not have access. And the problem particularly out in 
Indian Country is we talk to a number of Tribes in which they 
tried to protest the accuracy because they were being denied 
funding because they, according to the map, had broadband, when 
in fact they did not.
    So that is still a problem that is not fully rectified. It 
is getting better slowly, but in the meantime we are not that 
certain how accurate it is.
    Senator Cantwell. Well, I definitely think we need to talk 
about what data we can collect to get the accurate picture. We 
are not going to solve this problem unless we have an accurate 
assessment of what the problem exists today. That somehow there 
is 59 percent of Indian Country, I don't know if anybody up 
here on the dais thinks that 59 percent of anything in their 
State has broadband access. I don't think there is 59 percent 
in my State, and we are a pretty wired State. But hopefully I 
am wrong, but let's get data and measurements and work together 
on it.
    The Chairman. Thank you, Senator Cantwell.
    Senator Tester.
    Senator Tester. I just want to tack on to what she said, 
and that is that there is a cellular map that shows Montana 
fully covered for cellular service. It is total BS, and I can 
tell you what BS means, but it is total wrong. So I just want 
to confirm what Maria just said.
    The Chairman. Senator Franken.
    Senator Franken. In Montana, that is buffalo, the BS thing 
is buffalo something.
    [Laughter.]
    Senator Franken. Well, we have gotten into a good thing 
here, which is how we measure, because the 41 percent, I don't 
know what that means. Ms. Sohn, you said we don't have metrics 
and then toward the end you said we do have metrics; and that 
seems imprecise testimony to me. That is just me. So we heard a 
figure, 96 in urban settings.
    But I don't know what 41 percent means in a tribal area. 
Does that mean that let's say you have a huge reservation and 
there is connectivity at the school. What percentage of the 
people are counted as having connectivity, then? How is that 
figured out? How is that calculated?
    Ms. Sohn. So we calculate connectivity by census block. We 
do not use a broadband map because we agree that there are 
inaccuracies, but we do measure by the census block. And if 
there is service at our benchmark speed at the census block, 
then we do count that as served.
    Senator Franken. Okay, I don't know what that means, then, 
again. So let's say a census block has the only connectivity is 
at the school, okay? What does that mean in terms of the 
percentage of people who have access to internet broadband.
    Ms. Sohn. Well, it means it is not the most accurate way to 
measure and, unfortunately, we have been advised by our counsel 
that going much more granular than that could have some privacy 
implications. I mean, without a doubt, our data is not perfect, 
although our staff does spend a lot of time trying to verify 
the data.
    Senator Franken. Okay, I just want to know what 41 percent 
means, because it is a number that is thrown around all the 
time, right? And I know why you said there is 59 percent 
connectivity, because 59 and 41 equal 100.
    Ms. Sohn. Right.
    [Laughter.]
    Ms. Sohn. So 41 percent of the census blocks in tribal 
lands do not have connectivity, do not have connectivity at our 
benchmark speed of 10:1.
    Senator Franken. Yes. And I am trying to figure out what 
that means. Do you understand that?
    Ms. Sohn. Yes, I do.
    Senator Franken. Okay. So let's say there is a big 
reservation, and let's say they have two schools they are so 
big, and both schools have broadband that is fast enough to 
qualify. What if you live 40 miles from the school? Do you have 
connectivity?
    Ms. Sohn. Not necessarily, no. I mean, 477--let me just 
clarify.
    Senator Franken. Are you counted as having connectivity?
    Ms. Sohn. No.
    Senator Franken. No.
    Ms. Sohn. The 477 data does not go to schools and 
libraries, okay? It goes to individual households.
    Senator Franken. Okay.
    Ms. Sohn. The schools and libraries, that is separate.
    Senator Franken. So it is individual households. So that 
helps me now. Okay, so I understand that a little bit better. 
Some of us have become more reliant on mobile devices to access 
the internet, and we are going to have a spectrum auction, 
right? What is the FCC doing to ensure that tribal communities 
have access to that very finite, of course, resource?
    Ms. Sohn. Well, there is a tribal lands bidding credit that 
is available to both the tribal carriers and carriers that want 
to serve tribal lands. So, in other words, it is a 25 percent 
bidding credit.
    Senator Franken. Bidding?
    Ms. Sohn. Bidding credit, yes.
    Senator Franken. Okay, a bidding credit.
    Ms. Sohn. It is a bidding credit that essentially gives 
them a leg up in obtaining spectrum in the incentive auction.
    Senator Franken. Okay. Well, that is good to know.
    Ms. Kitka, thank you for your testimony. You say that money 
is the elephant in the room. I think it is. Are there any other 
elephants in this room that anybody would like to identify?
    Ms. Kitka. I was going to respond to the Chairman's 
question about what can be done to further partnerships, 
public-private partnerships on this. I think that we can ask 
the Administration, either the current President or the next 
president, to convene a high level kind of a matching party, if 
you will, with Native American leaders and business leaders on 
that and the private sector on that.
    Part of the partnership is the lack of opportunity for 
introduction and meeting people on that. If there was an 
opportunity where you had a chance to meet your counterparts in 
the telecom world on that, I think that there could be a lot of 
creative partnerships furthered that don't necessarily cost 
money; it is just a matter of pulling people together. So that 
is a suggestion I had.
    Senator Franken. Okay.
    Mr. Enjady?
    Mr. Enjady. I would like to answer that question. The parts 
that you are asking about, the schools there actually under the 
E-rate program, which is not quite part of some of the regular 
providers that provide services there, so for like my 
reservation, on the Mescalero Apache Reservation, we have an E-
rate program which we are qualified to provide services to that 
school.
    But because of the BIE, Bureau of Indian Education, they 
have a national contract with Verizon to provide those 
services, so I cannot compete against them because they are 
under a national contract because they provide those services. 
So I, as a local provider, cannot provide that service.
    Now, if we look at the rest of the reservation like in 
Mescalero, at one point we were at like 54 percent no service. 
But because the Tribe took the initiative to build out its 
telecom company, we are up to about 98 percent. So we are doing 
very well at the copper line level.
    Now, we have different forms or ways to get to the house 
from our offices. We can do it over copper or we can do it over 
fiber optic cable, which is glass. We can send lasers down that 
line and get all the broadband that we need.
    So I am in that transition point right now, which I was 
fortunate enough to receive a SUTA loan from RUS and be able to 
provide those services. So we are going to start attempting 
doing that pretty quickly. Hopefully in the next six months we 
will start laying the first fiber lines to the home. So with 
that we should get up to 2 gigabytes of connectivity to every 
home on our reservation. Those are some of the things, the 
accomplishments that we are going to do.
    Now, if we can do that in all reservations across the 
Nation, that would give us 100 percent coverage or close to it, 
depending if they are wired or not.
    Senator Franken. That is what we need.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    Just kind of to clarify, I think that when we hear 59 
percent, what we assume that means is that every person who is 
within that territory that you have identified as having access 
could in fact connect at the speeds that you measure. Is that 
what 59 percent means?
    Ms. Sohn. Unfortunately, I can't say that it does.
    Senator Heitkamp. I think that is a problem, because that 
number is unreliable. So we are kind of down to that doesn't 
mean anything to me. So I need to know what the current 
condition is.
    I held a meeting on this in North Dakota and I can tell you 
that the issue that Senator Franken just raised, which is the 
cellular issue, I had people talking about typing a paper, 
putting it on their cell phone, then driving out to the highest 
point in the reservation and holding their cell phone up and 
hoping that that paper transmitted to the professor at UND. 
Standing out there on the high hill, because so many people in 
this demographic area or this census block, they connect 
wirelessly.
    They are fairly mobile. We have a huge problem with Indian 
housing, so they don't have a home that is consistent for a lot 
of them; they move around. Their only connection to the 
internet is on a cell phone or on a mobile device. So we have 
to figure out how we fashion a solution for the population that 
exists and make sure that we are not building fiber to places 
where no one is going to use it. They need cell towers. So we 
have to figure out with RUS what is the direct need that folks 
have.
    And we have done a pretty good job, actually, in providing 
broadband access in North Dakota, even in Indian Country. North 
Dakota is one of the most connected rural States in the Union 
because of the great help of RUS. But we still have gaps in 
coverage. I can't stress upon everyone enough the need to 
collaborate all the Federal information, whether it is BIE, 
whether it is Indian health, whether it is RUS, whether it is 
FCC, to find out what the needs actually are.
    Because having this kind of communication support into the 
future is absolutely essential. It is essential for education 
and it is essential for life and death, and I will tell you 
why. Because we can't recruit a health care workforce in Indian 
health facilities in North Dakota; we have to rely on 
telemedicine. And if we don't have reliable backbone in 
telemedicine, we don't have health care, especially in the area 
of behavior and mental health.
    So my question, Mr. McBride, is really, what more can be 
done and, compared to the applications that you get, how much 
unfilled need is there in Indian Country as it relates to 
support from RUS?
    Mr. McBride. Well, thank you for the question. With regard 
to unmet needs in Indian Country, we are reliant on folks 
coming in and making application. And certainly with the SUTA 
provisions we try to look at those applications and give those 
priority as we are working through the stack of applications 
that we have. Our goal is to make sure that we are meeting the 
most underserved areas, and certainly tribal areas are included 
in that.
    But one of the things that we have also tried to do, to the 
point that you were just making with regard to coordination, 
under the Broadband Opportunity Council, we are trying to work 
across agencies to make sure that we are leveraging resources 
that we do have; not requesting new money, but finding ways to 
use the programs and resources that we have already been given 
to expand access.
    Senator Heitkamp. Well, in many cases isn't it true that 
RUS does do public-private partnerships? I mean, you are 
partnering with the rural telecoms in providing a lot of this 
service or with some of the Indian-owned telecommunications 
companies.
    Mr. McBride. Yes, ma'am. And as you are probably aware, 
Secretary Vilsack has the Rural Opportunity Initiative where we 
have been trying to work with the private sector to leverage 
our resources with theirs to meet the infrastructure needs in 
rural areas.
    Senator Heitkamp. I think one of the most critical things 
that can come out of this hearing is an understanding that we 
are frustrated by the lack of data. We are frustrated that we 
don't know where the gaps are and we don't know how to fill 
those gaps. And we are frustrated that everybody doesn't seem 
to be kind of in the same space, trying to solve the problem 
working together.
    So I hope that going into the future, when you go back to 
collaborate and you do it in consultation with the people who 
are actually being served, so you are not building fiber where 
nobody is going to use fiber, when you could build cell phone 
towers where people could actually get access, that we actually 
begin to close the gap, because this will create economic 
hardship and a lack of economic development for generations to 
come if we don't fix this problem, and that is a place where, 
in all of our States, we desperately need an economic 
opportunity.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Heitkamp.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, and thank you for 
your courtesy of going last. I appreciate that.
    Thank you for your testimony, folks.
    This is for you, Mr. McBride. One of the barriers that GAO 
identified was a lack of tribal members who have necessary 
technical and bureaucratic expertise to navigate the 
application process and to interact with prospective providers. 
What is the agency doing to support Tribes' administrative and 
technical capacity?
    Mr. McBride. Thank you for the question. I actually grew up 
in a rural community in Arkansas with a small town mayor who 
had an executive assistant and needed a lot of help trying to 
identify the different opportunities, so I am sensitive to the 
issue that you have raised.
    We try to do outreach with all rural communities, in 
particular tribal, and we are also fortunate to have State 
offices with State directors and program folks on the ground 
who can go and meet with people in their communities and talk 
to them about their needs and the opportunities under rural 
development to meet those.
    Senator Tester. Good. We have talked about money, and this 
is for you again, Mr. McBride. Other than money, what is the 
biggest obstacle to the deployment of high-speed internet?
    Mr. McBride. A lot of it is simply the difficulty of 
building out. The terrain can be tough. Those who are looking 
to provide service in the hardest to reach areas have to deal 
with different permitting, different issues at the local and 
State level. So there is a lot of work that goes into putting 
together a successful project aside from just finding the 
funding.
    Senator Tester. Okay. Thank you.
    Ms. Sohn, Chairman Wheeler was out in Montana last fall and 
hosted a roundtable with Native American Tribes from Montana 
and talked about the barriers to improving internet access, and 
it was a very successful visit.
    I certainly appreciate the Chairman's time because it 
really was beneficial to me and to the Tribes. The Chairman 
promised to the Tribes that he was going to send a team of 
folks to Montana. I think that is going to happen very, very 
soon, and I hope to be there when they show up to spend a few 
days consulting with the Montana Tribes. Could you talk about 
the value of face-to-face consultations and what the success 
has been for the FCC in this?
    Ms. Sohn. ONAP has worked tirelessly to build 
relationships, government-to-government relationships with the 
Tribes and honor our fiduciary duty, our trust relationship 
with the Tribes to ensure self-sufficiency and economic 
development. As I mentioned before to Senator Udall, in 2014 we 
had 33 such consultations, 39 in 2015. We have already had 20 
in the first four months here.
    So the value is enormous. It is not only consultation, it 
is not only input from the Tribes as to what our policies 
should be and how we can be helpful, but it is also training; 
it is digital literacy training, it is technical training. So 
it is a wide variety and it is very much an interactive 
partnership between our agency and the Tribes.
    Senator Tester. Okay.
    Mr. McBride. this is back to you. It was brought to our 
attention that BIE-operated schools cannot access USDA 
broadband funding because of statutory provisions about 
interagency funding. Is that true?
    Mr. McBride. I am not aware of the issue that you have 
raised. I would be happy to look at the specific concern. I 
know that there might be an issue if you were using Federal 
funds to match other Federal funds or something of that nature, 
but if it is a partnership through distance learning, for 
example, I wouldn't be aware of the concern.
    Senator Tester. Could you do me a favor? And we might be 
able to save you some footsteps. Get hold of my staff and check 
into this.
    Mr. McBride. Absolutely.
    Senator Tester. Because as it is written here it doesn't 
make a lot of sense to me. Okay?
    Mr. McBride. Absolutely.
    Senator Tester. I don't think it makes a lot of sense to 
you either.
    Mr. Enjady, one of the obstacles we have seen in getting 
agencies and telecom groups to recognize the unique rights of 
the way in Indian Country, it has been a challenge, trust, 
responsibilities, plus sovereignty and all that. It is a 
sensitive topic, but we have seen some big projects fall 
through the cracks because of issues about right-of-ways that 
just stretch out too long and it got too late.
    I was talking to a rural telephone cooperative that does 
much of the broadband in Eastern Montana and they were saying 
they were having a hard time getting right-of-ways across 
Indian Country to be able to provide Native Americans with 
broadband.
    I just want to get your perspective on this. Is this an 
issue we should be paying some attention to as a Committee or, 
if it is a problem, how do we solve it?
    Mr. Enjady. It is a huge problem. Right now I just went 
through that same problem with a tower lease with Verizon. We 
submitted it to the BIA. It took two years for them to approve 
it. In the meantime, Verizon was sitting there. They were 
paying their lease agreement, but it was a two-year agreement 
and it took two years to get it, and the first day of their 
lease commenced when BIA finally signed off on it, so they 
actually got four years for actually two years.
    Like I said, that was difficult to try to do it. I am not 
sure if there are enough people to really take care of the 
situation. Putting it back in the Tribe's hand might be one way 
of doing this, where we are able to do the realty part of this. 
That could be one way. I am not sure. That is an area that is 
very sensitive.
    I know how I would do it myself. I would just do it and 
take care of it, then, here, write it down and take care of it 
for us, because, like I said, Indian Tribes, when my president 
asked me to provide services, I do it; and we have to try to do 
it the best way, and we will ask BIA to forgive us afterwards.
    Senator Tester. Yes. Well, I am on a co-op. I get my 
telephone and my electricity from a co-op. I get my internet 
service from the co-op, and I can just tell you it is a 
sensitive issue, okay, but part of my getting access to the 
internet and telephone and power lines is that I give them a 
right-of-way. I give them a right-of-way. I don't get one damn 
nickel for it other than the fact that if I didn't give them 
the right-of-way I wouldn't get the service, and I need that 
service to run my business and be successful.
    I would love to be able to work with you and other folks 
moving forward to try to get this issue tapped down because 
there has to be a solution for this. I think in Indian Country, 
where the economy and especially a lot of the large land-based 
Tribes, where it is expensive to lay cable, lay fiber, it is 
critical if we are going to get them out of poverty. I think it 
is just critical. If we don't do it, we are going to be 
fighting an uphill battle.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Mr. Enjady, just following up. We talked a lot about if you 
couldn't get it done, you would do it yourself and ask 
forgiveness later. It is interesting. The FCC has dedicated 
itself, it says, to having robust consultation with Indian 
Tribes. I would just like you to comment a little bit about 
their current policies for communicating along this robust 
consultation. Is it working? Are there things that could be 
done better?
    Mr. Enjady. Tribal engagement is one thing that the FCC has 
tried to do very well. When Geoffrey Blackwell was there, 
consultation was very good. I cannot cite the fact that the FCC 
is trying to do the best they can in that arena. They have done 
a very good job in that they have had numerous listening 
sessions across the Country. The last one I was in was last 
year, when we were in Phoenix. They invited quite a few tribal 
folks and they did do a very good job.
    The part is that Tribes have a lack of knowledge in what 
telecoms really are. It is a very, very complicated arena. It 
is something that obviously you can see that we have had the 
toughest time just trying to figure out what the percentages 
are of what is served and not served only because it is so 
complicated.
    It is not easy anymore. The 1996 Telecommunications Act 
said that we will provide services all across the land, and 
that is something that sure needs to be done, and I hold the 
FCC's feet to that for some of the things that we, as 
providers, want to do throughout our whole reservation.
    As a part for all of Indian Country, some of the big 
carriers take care of that, like Windstream, CenturyLink. I am 
not sure exactly where they are. I mean, they are a for-profit 
business; they are publically owned and they do have shares, so 
their shareholders come first, and I am not sure where Indian 
Country fits into that picture yet. That is something that I am 
sure the FCC is addressing, but, as a whole, there are a lot of 
problems out there.
    When Senator Heitkamp said that wireless might be the way, 
that is true, it could be the way, but obviously we have to 
build fiber optic networks to get to those towers in order to 
provide the high bandwidths that they need just so you can use 
your smart cellphone to be able to get on the internet and do 
what you need to do. You still need fiber optic cables to 
deliver the huge amounts of data, and wireless cannot do that 
right now at this time.
    The Chairman. Following up on that, Ms. Sohn, we were 
talking about the issues of 41 percent, 59 percent, what does 
it all mean, and could you just flip the numbers, in terms of 
actual service. According to the GAO, between 2010 and 2014, 
about $33 billion has been spent on universal high-speed 
internet access. The FCC has implemented several programs to 
aid in ensuring that all people have access. When do you expect 
that all tribal communities that want access to broadband might 
have access to broadband?
    Ms. Sohn. Well, I am reticent to make a prediction. All I 
can say is that that is our goal and we are working hard to 
make that happen. Can our data be better? Absolutely. I do want 
to mention, though, just to say that the FCC didn't start 
collecting this data until 2014.
    So before that it was the NTIA and the States doing it 
together. So we are kind of like a toddler in that regard and 
we need to do a better job, without a doubt. We may well need 
Congress's help in order to collect more granular data.
    The Chairman. I want to just follow up a little bit on that 
because we hear about the worry that when you look at the 
national broadband map it can exaggerate service in local 
areas, and that was the comment you heard from many members of 
this Committee today. So if a service provider provides 
availability to a portion of a census block unit, that whole 
census block may be counted. We understand that, we have that 
agreement.
    This leads to a misconception sometimes that providers are 
providing to a larger area than may actually be delivered. So 
that is, like you said, like a toddler just trying to learn. I 
wonder is there some enticement for carriers to purposefully 
overstate their coverage of an area in terms of either 
additional payments, additional incentives that they can say, 
yeah, we have covered this? Are there incentives out there, 
inducements that would help explain to us why they may want to 
overstate what is actually covered?
    Ms. Sohn. Well, I don't want to speak for the carriers, but 
I will say this. If they do overstate their coverage, the 
Tribes have two options: number one, the carriers that serve 
tribal lands must engage with the Tribes, and that is a place 
where the Tribes can deal with the carriers' overstatement 
there; or they can come to us, they can come to ONAP. So we 
will enforce those kinds of overstatements. But I really don't 
want to get into what the carriers were thinking.
    The Chairman. So, Mr. Goldstein, one of the recommendations 
has to develop performance goals and measurements to track 
progress to achieve, including tribal lands. The FCC stated in 
the response to the GAO report the agency already had 
performance measures for in-home access. Are there further 
actions that the FCC should be taking?
    Mr. Goldstein. Mr. Chairman, the kinds of performance 
measures that the FCC has are not, as Ms. Sohn said, related to 
tribal lands, they are very broad in nature; they cover rural 
areas generally, the Nation in general. They are for in-home 
access, as well as for the E-rate program.
    With E-rate program itself, I would add that this is a 
program that has been around for many, many years, and unlike, 
like Ms. Sohn said, where they are just getting involved in 
terms of trying to understand data for in-home access, in the 
E-rate program we have been writing reports for more than a 
decade which have criticized the FCC's inability to develop 
performance measures in that program. So the fact that they 
still don't have them for Tribes, even though they have in the 
last couple years developed them more broadly, is of some 
concern.
    The Chairman. You had also focused in the report on the 
Department of Agriculture, the FCC. Other agencies like the 
Department of Commerce, the Department of the Interior are 
mentioned in the report, but they are not really included in 
the report's recommendations. Anything you would like to add 
about the Department of Commerce or the Department of the 
Interior?
    Mr. Goldstein. We have written a number of reports in the 
last couple of years taking a look at the Recovery Act programs 
of BIP and BTOP and the like, and we have made recommendations, 
sadly, that are very similar to the ones we made here today 
regarding a lack of performance measures. Too many of these 
kinds of programs where we are spending billions of dollars, 
the money is being sent out the door without any adequate 
oversight of exactly what it is being used for and, even before 
that, what the goals are that the agencies are trying to 
achieve and how they are going to measure when they are 
achieved.
    So, therefore, it is difficult to determine what is being 
achieved, what kind of overlap might exist, how money might be 
targeted better, things like that. So without these kinds of 
measures in all of these programs, we don't get as much 
progress as we probably could.
    The Chairman. And, Mr. McBride, the Community Connect 
grants were part of the $33 billion spent improving access to 
universal high-speed internet access. The Community Connect 
grants were awarded to rural communities, including tribal 
communities, to provide high-speed internet service. The GAO 
report states that between 2010 and 2014 $53 billion, as we 
have talked about, had been spent. Of that, approximately $3 
million was awarded to tribal lands, by my math in this. Is 
there a dedicated stream of funding for tribal broadband and is 
it something that needs to come from Congress?
    Mr. McBride. Tribal areas are prioritized under Community 
Connect and DLT. I am not sure which statistics you are 
referencing. Since 2009 we have funded $77 million in Community 
Connect grants, and $14 million of that has been targeted to 
tribal areas. Last year we were able to fund five projects and 
four of them were to tribal areas. So we are trying to target 
them.
    The Chairman. There are a number of examples of interagency 
issues between tribal carriers that they face. I don't know if 
rural utility services have a way to help tribal communication 
carriers when interagency issues arise between, say, the rural 
utility service, the FCC, other Federal agencies. Do mechanisms 
exist?
    Mr. McBride. Certainly for our borrowers, if there are 
issues, we are happy to work with them and coordinate with 
other agencies and help in any way we can to facilitate 
conversations that help them achieve their goals.
    The Chairman. Well, I want to thank all of you for your 
testimony today. We appreciate your taking the time to answer 
the questions, to be patient as the questions continued.
    The hearing record is going to remain open for the next two 
weeks. There is a possibility you may receive written questions 
from some of the members who thought of additional questions 
after your testimony or who weren't able to be here. But I want 
to thank all of you for being here.
    This hearing is adjourned.
    [Whereupon, at 4:05 p.m., the Committee was adjourned.]

                            A P P E N D I X

 Prepared Statement of the National Congress of American Indians (NCAI)
Introduction
    The National Congress of American Indians (NCAI) is the oldest and 
largest representative organization of American Indian and Alaska 
Native tribal governments. NCAI represents the broad interests of 
tribes and their citizens to promote the advancement of tribal 
sovereignty and self-determination. On April 27, 2016, the Senate 
Committee on Indian Affairs held a hearing on, ``The GAO Report on, 
`Telecommunications: Additional Coordination and Performance 
Measurement Needed for High-Speed Internet Access Programs on Tribal 
Lands'''. The hearing focused a report released by the Government 
Accountability Office (GAO) on February 3, 2016, which highlighted 
programmatic and interagency issues to deploy telecommunications 
services on tribal lands. The report determined that the Federal 
Communications Commission (FCC) and the U.S. Department of Agriculture 
(USDA) did not coordinate well in telecommunications programs, 
outreach, and training to tribes. In addition to the need for joint 
outreach and training efforts between the FCC and USDA, the GAO 
recommended that the FCC develop performance goals and measures to 
track progress on Internet availability in households on tribal lands; 
improve reliability of data regarding institutions receiving funds 
under the Schools and Libraries (E-rate) Program by defining ``tribal'' 
on the program application; and develop performance goals and measures 
to ensure tribal schools and libraries receive affordable Internet 
services.
    While the focus of the Hearing was on the findings and 
recommendations highlighted in the GAO report, a number of issues were 
also raised including requests for legislative action to increase 
access to private capital and regulatory action to preserve the 
Universal Service Fund (USF) for carriers serving tribal lands. A 
number of Committee Members also raised concerns over how the FCC 
collects information for broadband availability on tribal lands, and 
how reliable that information is since carriers self-report U.S. Census 
blocks they receive USF support for. GAO also acknowledged that certain 
inaccuracies with different maps illustrating broadband availability on 
tribal lands have prevented some tribes from accessing federal funding 
for broadband projects. The FCC responded that it could not collect 
granular level data on tribal lands because it could have privacy 
implications and recommended that Congress look at what actions to take 
regarding the issue.
    NCAI respectfully submits this testimony for the record of the 
Senate Committee on Indian Affairs hearing on, ``The GAO Report on, 
`Telecommunications: Additional Coordination and Performance 
Measurement Needed for High-Speed Internet Access Programs on Tribal 
Lands'''.
Telecommunications In Indian Country
    The primary law governing our telecommunications sector is the 1934 
Communications Act, which was last amended in 1996 due to early and 
rapid advances in wireless and cable technologies. Section 254(b) of 
the 1996 Telecommunications Act established six universal service 
principles to meet the goals of providing affordable and quality 
telecommunications services across the country. In order to reach these 
universal service objectives the 1996 Telecommunications Act created 
the Universal Service Fund (USF), and required carriers providing 
interstate telecommunications services to contribute a fee to the fund 
to support telecommunications deployment across the country.
    In the 2000 U.S. Census, it was estimated that less than ten 
percent of tribal lands had access to the Internet, and that less than 
69 percent of tribal households had access to basic landline telephone 
service. During the following decade tribal leaders and organizations 
like NCAI held numerous meetings with the FCC. These meetings sought to 
educate the FCC on ways it could change its regulatory priorities to be 
more inclusive and receptive to telecommunications deployment on tribal 
lands. However, change came slowly as tribes quickly found challenges 
with navigating the complex regulatory framework of the FCC. 
Additionally, the constant release of technical and lengthy policy 
changes stretched tribal budgets for advocacy efforts. It is during 
this period that tribes advocated for the creation of a tribal office 
at the FCC that could directly consult with tribal nations and act as a 
channel to receive tribal input. After a decade of these discussions 
the FCC created the Office of Native Affairs and Policy in 2010, and 
since then consultation and engagement with tribal nations has reached 
heightened levels.
    While the FCC has released numerous regulations over the past 15 
years to bridge the ``Digital Divide'' in Indian Country many tribal 
lands across the country are still lacking access to modern 
communications technologies and services. Many tribes have received 
first-time connections to the Internet through the Indian Healthcare 
Service, or other federal programs that have connected tribal schools, 
public safety facilities, and government buildings. However, 
residential service remains an area of challenge as the drive of 
``market forces'' have not connected the majority of tribal lands. 
Additionally, services such as those provided through IHS and other 
federal programs often operate within closed networks to ensure 
appropriate bandwidth is available for the services they need to 
provide. While a majority of tribes have established IT networks to 
connect facilities on tribal lands, just ten of the 567 federally-
recognized tribes have established telecom companies to provide 
residential phone and Internet services.
Tribal Lands Continue to Remain the Most Disconnected Areas of the 
        Country
    As aforementioned, for well over a decade tribes and the federal 
government have referenced a 2000 Census finding that less than ten 
percent of tribal lands have access to the Internet. That same data 
also proclaimed that less than 69 percent have access to analog 
wireline telephone networks. Today there are conflicting reports 
regarding broadband availability and adoption in Indian Country between 
the FCC, Department of Commerce, and the U.S. Census, thereby making it 
difficult to determine where targeted funding for tribal lands is 
needed.
    According to the FCC's 2016 Broadband Progress Report, 41 percent 
of residents on tribal lands lack access to advanced telecommunications 
services, compared to 10 percent of the overall U.S. population as 
highlighted below:

Americans Without Access to Fixed Advanced Telecommunications Capability
                              (Millions)\1\
------------------------------------------------------------------------
                                                       Percentage of
                              Population Without     Population Without
                                    Access                 Access
------------------------------------------------------------------------
United States                              33.982                    10%
    Rural Areas                             23.43                    39%
    Urban Areas                            10.552                     4%
Tribal Lands (Overall)                      1.574                    41%
    Rural Areas                             1.291                    68%
    Urban Areas                             0.283                    14%
------------------------------------------------------------------------
See Federal Communications Commission. 2016 Broadband Progress Report.
  Jan. 29, 2016. FCC 16-6. Table 1. Pg. 34. Available at http://
  transition.fcc.gov/Daily_Releases/Daily_Business/2016/db0129/FCC-16-
  6A1.pdf.


    These statistics are based on the FCC's current speed benchmark of 
terrestrial services provided at speeds of 25 Mbps download/3 Mbps 
upload (25 Mbps/3 Mbps), which the FCC determined was required to use 
high-quality video, data, voice, and other broadband applications in a 
household with multiple users. This data is further disaggregated 
below:

    Tribal Lands Without Access to Fixed Advanced Telecommunications
                              Capability\2\
------------------------------------------------------------------------
                                                        Percentage of
                                     Population           Population
------------------------------------------------------------------------
Tribal Lands                              1,573,925                  41%
    Rural Areas                           1,291,330                  68%
    Urban Areas                             282,595                  14%
Alaskan Villages                            128,638                  49%
    Rural Areas                             113,706                  70%
    Urban Areas                              14,932                  15%
Hawaiian Home Lands                             367                   1%
    Rural Areas                                 307                   7%
    Urban Areas                                  60                   0%
Tribal Lands in the Lower 48                588,324                  58%
 States
    Rural Areas                             469,818                  72%
    Urban Areas                             118,506                  33%
Tribal Statistical Areas                    856,596                  34%
    Rural Areas                             707,499                  66%
    Urban Areas                             149,097                  10%
------------------------------------------------------------------------
Id. Table 2. Pg. 35.

    The FCC explained that this information is collected biannually 
when carriers receiving USF support report Census block service data on 
FCC Form 477. Numerous Members of the Committee asked questions 
regarding the collection of this information, and specifically how this 
information can be used to identify which areas of tribal lands lack 
access to broadband service. In response the FCC raised concerns with 
the collection of more granular level data as it could have privacy 
implications and that it may take an act of Congress to mandate such 
collection of data. Nonetheless, GAO noted issues with data collection 
and specifically referenced that inaccuracies with the National 
Broadband Map have precluded some tribes from accessing federal funding 
for telecommunications projects on tribal lands.
    Additionally, the National Telecommunications & Information 
Administration (NTIA) collects data on broadband Internet adoption. A 
study conducted by NTIA was released in 2013 and found that broadband 
adoption rates among urban American Indians and Alaska Natives hovers 
around 60 percent, while a 33 percent broadband adoption rate for rural 
tribal households ranked the lowest among all ethnic groups. The survey 
also found rural American Indian and Alaska Native groups had the 
lowest computer ownership rates compared to their urban counterparts. 
It is also important to note that NTIA and the FCC's definition of 
``broadband'' high-speed Internet in 2013 was 3 Mbps/768 Kbps.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Finally, 2013 Census American Community Survey (ACS) data similarly 
found that American Indians and Alaska Natives overall, have higher 
rates of computer ownership and broadband Internet subscription rates 
compared to those residing on reservation and trust lands. However, 
according to the overall 2013 Census ACS data, American Indians and 
Alaska Natives overall continue to have the lowest broadband Internet 
subscription rates and the highest group without an Internet 
subscription when compared to other ethnicities. It was difficult to 
ascertain what the Census defined as `broadband' high-speed Internet, 
but it is assumed that it would have coincided with the FCC's 
definition of 4 Mbps/1 Mbps during this time period.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    3 Reporting overall American Indian/Alaska Native Alone (AIAN): 
2,439,080. Reporting on Reservation and Trust Lands: 559,491.
    While all these data collection efforts over the years have 
demonstrated increases in broadband availability, computer ownership, 
and broadband adoption rates, there are still significant deficiencies 
in other areas. For instance, there are no reliable sources of data for 
wireless services and pricing on tribal lands. The Native Nations 
Broadband Map was meant to provide an ideal snapshot of a broad range 
of wireline and wireless services on tribal lands but it has failed to 
fulfill these goals. Much of the data that is used to populate the map 
is collected either through telecom carriers self-reporting areas they 
serve and the types of service(s) they offer, or through data 
collection efforts through state agencies or third-party contractors.
    Originally the National Broadband Map initiative was created 
through the American Recovery and Reinvestment Act of 2009 (P.L. 111-5) 
and offered grants through the State Broadband Initiative Program for 
the purposes of collecting telecommunications data. However, there was 
a major oversight in the legislation as the grants awarded were 
directed to the 50 states, five territories, the District of Columbia, 
or their designees-thereby effectively excluding direct tribal 
eligibility for data collection on tribal lands. \4\ While state 
agencies, or their contracted designees, were expected to collect data 
on tribal lands some tribes refused to share data or allow outside 
entities onto tribal lands to collect this information.
---------------------------------------------------------------------------
    \4\ See BroadbandUSA: Connecting America's Communities. State 
Broadband Initiative. Available at http://www2.ntia.doc.gov/SBDD.
---------------------------------------------------------------------------
    According to a 2012 U.S. Department of Commerce Performance 
Progress Report, the Gila River Indian Community of Arizona, and their 
tribally-owned and operated telecommunications carrier refused to share 
information with the State of Arizona and the National 
Telecommunications & Information Administration. \5\ Although the 
Report didn't specify the reasons for the Gila River Indian Community's 
refusal to participate in the data collection efforts, similar 
instances of tribes refusing to share their data or information with 
outside entities can be found in other areas. Data collection and 
retention has more recently been held as an exercise of tribal 
sovereignty since many tribes have historic and deep-seated issues with 
sensitive information being exploited by non-tribal individuals or 
entities. A key example of this infringement dates back to the early 
anthropological and archaeological publishing of religious and cultural 
practices, or seizing of sacred cultural items by non-tribal 
researchers. Nevertheless, Congress must empower tribes to collect this 
information for their own uses and purposes. Enabling tribes to 
determine how they collect this information, either through 
partnerships or through their own efforts, will advance tribal 
sovereignty and self-determination.
---------------------------------------------------------------------------
    \5\ See U.S. Department of Commerce, Performance Progress Report. 
Arizona--Government Information Technology Agency. February 24, 2012. 
Available at http://www2.ntia.doc.gov/files/grantees/04-50-
m09045<SUP>geom-prop</SUP>arizona_department_of_administration_-
_adoa_ppr2012_q1.pdf.
---------------------------------------------------------------------------
Congress Should Fund and Elevate the FCC Office of Native Affairs and 
        Policy
    In recognition of the disparate levels of telecommunications 
service on tribal lands the FCC established its Office of Native 
Affairs and Policy (FCC-ONAP) to provide technical assistance and 
engage in government-to-government consultation with tribal nations. 
The office was created without dedicated funding and it was not until 
passage of the FY 2014 Omnibus that FCC-ONAP received $300,000 to 
support its tribal consultation and training directives. FCC-ONAP did 
not receive a Congressional appropriation in the FY 2016 budget and the 
FCC has not requested funding in its Annual FY Budget Requests to 
Congress since FY 2014. NCAI has previously advocated that Congress and 
the FCC authorize and appropriate a dedicated annual budget of $500,000 
for FCC-ONAP to facilitate meaningful and productive consultations with 
tribal governments and to support the office in hiring additional 
staff. It came as a surprise to learn that the FCC has previously 
failed to fully use the $300,000 appropriated by Congress in recent 
years.
    While the FCC testified that they have been holding increased 
consultations with tribes without fully expending their consultation 
budget, it was not specified how and where those consultations were 
taking place. If these consultations were being conducted when a tribe 
visits the FCC offices to discuss an issue or rulemaking, then that is 
very different than the FCC actually visiting Indian Country or holding 
its regional consultations, trainings, and workshops. Additionally, 
funds should be used to hire additional staff and other 
telecommunications experts to provide technical assistance to tribes.
    The FCC and Congress should also elevate the FCC-ONAP as a stand-
alone office. The FCC has already established a procedural framework 
for stand-alone offices, such as the Office of General Counsel and 
Office of Engineering and Technology to name a couple. These offices 
were created to directly advise the FCC Chair and Commissioners as 
specific subject matter experts. When FCCONAP was established it was 
place under the Consumer & Governmental Affairs Bureau with the intent 
to report to, and work directly with the FCC Chair, Commissioners, and 
across the Bureaus and Offices at the Commission. Elevating FCC-ONAP to 
operate as a stand-alone office will ensure that it has the unfettered 
access needed to address tribal concerns and advise the FCC Chair, 
Commissioners, and the Commission's Bureaus and Offices on all tribal 
matters.
Preserve High Cost Subsidies for Broadband Deployment: Adoption of a 
        Tribal Broadband Factor in the High Cost Fund
    Section 254 of the Telecommunications Act of 1996 ensures that all 
Americans, regardless of where they live, will have access to 
communications services at reasonable and affordable rates. The 
Universal Service Fund (USF) has provided financial support to 
telecommunications companies providing service to rural and insular 
areas, where the cost of providing service to consumers could not 
otherwise be achieved at affordable rates. The FCC has established 
rules to provide this support through various mechanisms including High 
Cost Loop Support (HCLS) and the National Average Cost Per Loop Support 
(NACPLS), which both provide critical ongoing capital and operating 
support to price cap and rate of return telecommunications companies. 
However, regulatory changes at the FCC have not always taken into 
consideration the depth of telecommunications services needed in rural 
and tribal lands. For instance, as part of its ongoing USF/ICC 
Transformation Order, in June 2014 the FCC initiated a Further Notice 
of Proposed Rulemaking (FNPRM) to seek comment on reforms to the HCLS 
mechanism. The FNPRM proposed reforms to the HCLS mechanism, which 
included a proposal to freeze the NACPLS--a reform that was estimated 
to drastically reduce support for approximately half of all tribal and 
nontribal providers serving tribal lands.
    In response to the FNPRM proposals, in September 2014 Alexicon 
Consulting submitted a white paper that analyzed what effects the 
proposed NACPLS freeze would have on carriers receiving HCLS. \6\ Using 
available data from the National Exchange Carrier Association (NECA) 
for the reporting years 2010 through 2012, the White Paper recalculated 
the HCLS for over 600 study areas based on the NACPLS freeze and 
adjusted HCLS recovery percentage proposals put forward by the FCC. The 
data illustrated potential decreases in HCLS support for a number of 
the tribally-owned and operated telecommunications providers and non-
tribal carriers serving tribal lands. \7\ On November 14, 2014, the 
Wireline Competition Bureau (WCB) submitted a Staff Report on the 
impact of the FCC's proposed reforms to the HCLS mechanism. \8\ The 
Staff Report showed an increase in the number of study areas receiving 
support and a projected ``zero'' for study areas losing all HCLS 
compared to a proposal submitted by NTCA. However, the overall data set 
compiled by the WCB staff also illustrated that nine of the ten 
tribally-owned and operated telecommunications providers would receive 
decreases in their HCLS support of an estimated $865,000 under the FCC 
proposals. \9\ Despite these findings by the WCB Staff Report, and 
analysis submitted for the record, on December 18, 2014 the FCC 
released a Report & Order in which it adopted its proposed reforms to 
HCLS on an interim basis, while indicating that it intended to act on 
long-term reform in 2015. \10\ The FCC also adopted its proposals to 
freeze the NACPLS absent any consultation with affected tribes to 
determine how it would affect HCLS and other USF High Cost support 
mechanisms.
---------------------------------------------------------------------------
    \6\ See Federal Communications Commission. Alexicon Consulting, 
``White Paper: Adjusting Recovery Percentages to Cap Total High Cost 
Loop Support''. Sept. 19, 2014. Available at http://apps.fcc.gov/ecfs/
document/view?id=7522902861
    \7\ Id., App. B-E.
    \8\ See Federal Communications Commission. Letter for the Record 
from Mark Walker, Legal Advisor to the Chief of the Wireline 
Competition Bureau, to FCC Secretary Marlene H. Dortch, WC Docket Nos. 
10-90 and 14-58. Nov. 24, 2014. Available at https://
prodnet.www.neca.org/publicationsdocs/wwpdf/112514fcc.pdf.
    \9\ Id.
    \10\ See Federal Communications Commission. HCLS Reform Report and 
Order, WC Docket Nos. 10-90, 14-58, 14-192. Dec. 18, 2014. FCC 14-190. 
paragraph 100, pg. 36. Available at https://apps.fcc.gov/edocs_public/
attachmatch/FCC-14-190A1.pdf.
---------------------------------------------------------------------------
    Tribal consultation followed the FCC's decision, and after a year 
the FCC initiated a Further Notice of Proposed Rulemaking to solicit 
input on the development of a Tribal Broadband Factor (TBF) within the 
USF High Cost Fund. \11\ This rulemaking is still ongoing, but NCAI 
does support the establishment of a TBF within the High Cost Fund to 
maintain or provide increased USF subsidies to support the deployment 
and maintenance of telecommunications infrastructure in Indian Country. 
This proceeding, however, has highlighted the need for prior and 
informed consultation with tribal nations since it took a year for the 
FCC to develop these proposals after deciding to freeze NACPLS support. 
As aforementioned the FCC has stated it did not expend its tribal 
consultation budget in recent years, which is troubling given the 
issues that were raised as a result of the HCLS/NACPLS proceeding. 
Moving forward the FCC must develop rules that will provide parity for 
carriers that require ongoing capital and operating support to connect 
tribal lands to broadband services. Ongoing reforms to the universal 
service High Cost program must take into consideration how regulatory 
and financial changes could adversely affect tribal carriers and those 
serving tribal lands.
---------------------------------------------------------------------------
    \11\ See Federal Communications Commission. Report and Order, Order 
and Order on Reconsideration, and Further Notice of Proposed 
Rulemaking, WC Docket Nos. 10-90 and 14-58, and CC Docket No. 01-92. 
FCC 16-33. Released March 30, 2016. Available at http://
transition.fcc.gov/Daily_Releases/Daily_Business/2016/db0504/FCC-16-
33A1.pdf.
---------------------------------------------------------------------------
Congress and the FCC Should Recognize Tribal Authority to Designate 
        Libraries on Tribal Lands
    In June 2013, President Obama announced the ConnectED initiative to 
connect 99 percent of America's students to high-speed broadband and 
services by 2018. Shortly after this announcement, the Federal 
Communications Commission (FCC) initiated rulemakings to modernize its 
$2 billion Schools and Libraries program (E-rate)--the federal 
government's largest educational technology program. In the Final Order 
adopted by the FCC in August 2014, many tribal concerns were addressed, 
such as the need for training on various programmatic aspects of the E-
rate program and the need for a Tribal Liaison at the Universal Service 
Administrative Company. However, the Final Order missed taking action 
on several key recommendations to increase tribal participation in the 
program. Additionally, the Final Order focused on prioritizing funding 
to support Wi-Fi deployment, which does not address the critical need 
for new hardline, and in many cases first-time, connections to the 
nation's schools and libraries.
    Congress should enact statutory changes to enable tribal authority 
to designate what constitutes a ``library'' on tribal lands. Tribal 
`libraries' are usually located in multi-service buildings that provide 
programs and services to tribal members, which may not constitute a 
formal `stand-alone' library or necessarily be attached to a primary or 
secondary education institution. When the 1996 Telecommunications Act 
passed it recognized the Library Services and Construction Act, which 
provided tribes the ability to designate their own libraries. However, 
just months after passage of the '96 Telecom Act, the LSCA was 
rescinded and replaced by the Library Services and Technology Act 
(LSTA). Under the LSTA tribes must receive approval from a State 
Library Administrative Agency to designate a ``library'' as eligible 
for receiving funds for various library functions-including eligibility 
for participation in the E-rate program. The FCC should include this 
recommendation in their reports to Congress to support the need to 
amend the LSTA, or remove the requirement that tribal libraries be 
eligible for LSTA under state programs and instead restore them to 
being treated as agencies of sovereign tribal nations. NCAI's 
membership also adopted Resolution #ANC-14-049, ``Support for the 
Creation of a `Tribal Priority' in E-rate Funding for Tribal Libraries 
and Schools'' (enclosed), which called for the FCC to exercise 
forbearance on any laws or regulations that would prevent tribal 
libraries from accessing E-rate funds.
Increase Tribal Nation Access to Spectrum Licenses
    As the demand for commercial mobile services increases the federal 
government is working to free up more spectrum to support and expand 
wireless networks nationwide. However, due to previous auctions of 
spectrum licenses by the FCC many non-tribal telecommunications 
providers hold spectrum licenses over tribal lands but don't 
necessarily serve all tribal lands within a license area. In past and 
present circumstances tribes are unable to participate in spectrum 
auctions due to the vast amount of capital the telecommunications 
industry leverages to bid on these licenses. This has resulted in a 
comprehensive spectrum grab by industry without any new deployment or 
improvements to existing networks supporting wireless services over 
tribal lands. As the government continues to free up government held 
spectrum for commercial mobile use, tribes must receive a priority to 
licenses over tribal lands.
    On March 3, 2011, the Federal Communications Commission (FCC) 
adopted a Notice of Proposed Rulemaking (NPRM), WT Docket No. 11-40, in 
the Matter of Improving Communications Services for Native Nations by 
Promoting Greater Utilization of Spectrum over Tribal Lands. \12\ This 
was a major step in further recognizing disparate spectrum access 
issues experienced by tribal nations. However, since the FCC adopted 
this NPRM, there has been no action to initiate a next phase of 
rulemaking in WT Docket No. 11-40. In the WT 11-40 NPRM, the FCC 
recognized proposals in the National Broadband Plan (NBP) to extend a 
tribal licensing priority to commercial wireless spectrum. 
Recommendations from the NBP called for the development of rules for 
re-licensing unused spectrum to tribes and encouraging the use of 
secondary markets to facilitate broadband deployment to unserved or 
underserved tribal areas. \13\ However, the inactivity and dormancy 
that has been the subject of WT 11-40 has stifled the promise of 
increasing tribal access to commercial wireless spectrum licenses.
---------------------------------------------------------------------------
    \12\ See Federal Communications Commission. In the Matter of 
Improving Communications Services for Native Nations by Promoting 
Greater Utilization of Spectrum Over Tribal Lands. Notice of Proposed 
Rulemaking. WT Docket No. 11-40. Available at http://apps.fcc.gov/ecfs/
comment/view?id=6016822908.
    \3\ See Federal Communications Commission. In the Matter of 
Improving Communications Services for native Nations by Promoting 
Greater Utilization of Spectrum Over Tribal Lands. Notice of Proposed 
Rulemaking. WT Docket No. 11-40. Paragraph 12, page 6. Available at 
http://apps.fcc.gov/ecfs/comment/view?id=6016822908.
---------------------------------------------------------------------------
    Congress should urge that the FCC initiate a next phase of 
rulemaking on WT 11-40 to increase tribal nation access to spectrum 
licenses. Due to regulatory changes and implementations since the 
release of WT 11-40, the FCC should revisit the proposals included in 
the rulemaking and request further comments to reflect the current 
state of telecommunications both regulatory and technologywise. The FCC 
should also implement a ``Tribal Priority'' in the rules inclusive of 
commercial mobile radio services, and wireless spectrum that can be 
utilized to deploy critical important and robust broadband services. 
Regulatory rules should also strengthen the structure of negotiations 
with existing licensed companies and strengthen the ability of tribal 
nations to initiate and participate in these negotiations. Access to 
currently licensed spectrum is absolutely necessary as many communities 
and tribal nations have never received the full benefit of services 
that could and should be provided on these licenses. Adoption and 
utilization of broadband services cannot occur until these services are 
available on tribal lands.
    Finally, the FCC should adopt rules that ensure there is good 
faith, responsiveness, and continuity in negotiations between tribal 
nations and service providers. As part of the fiduciary trust 
responsibility that exists between the federal government and tribal 
nations, it is critical that the FCC act in accordance with the best 
interest of tribes. While NCAI supports FCC initiatives to ensure that 
industry entities must ``meaningfully engage'' with tribal governments, 
the FCC should remain involved in these negotiations to ensure tribes 
are receiving fair treatment and deployment of broadband infrastructure 
is occurring in accordance with tribal sovereignty and community needs. 
NCAI's membership has also adopted a number of Resolutions calling upon 
the FCC to adopt regulations that would increase access to spectrum 
licenses including Resolution #MKE-11- 007, ``In Support of a Tribal 
Priority for the Utilization of Spectrum on Tribal Lands (enclosed); 
Resolution #SAC-12-034, ``Promoting Tribal Nation Access and Use of 
Spectrum for Communications Service'' (enclosed); and Resolution #SD-
15-037, ``Urging the Federal Communications Commission to Improve 
Access to Spectrum Licenses for Tribal Lands'' (enclosed).
Congress and the FCC Should Establish a Stand-Alone Tribal Broadband 
        Fund
    One of the recommendations from the National Broadband Plan (NBP) 
that Congress or the FCC has yet to consider is the establishment of a 
Tribal Broadband Fund. Chapter 8.4 of the NBP provides recommendations 
to Congress that would provide additional financing solutions beyond 
USDA RUS programs and USF support:

        Recommendation 8.18 Congress should consider establishing a 
        Tribal Broadband Fund to support sustainable broadband 
        deployment and adoption in Tribal lands, and all federal 
        agencies that upgrade connectivity on Tribal lands should 
        coordinate such upgrades with Tribal governments and the Tribal 
        Broadband Fund grant-making process. \14\
---------------------------------------------------------------------------
    \14\ See the National Broadband Plan. Chapter 8.4: Other Government 
Actions to Promote Availability. Mar. 17, 2010. Page 152. Available at 
http://transition.fcc.gov/national-broadband-plan/national-broadband-
plan.pdf.

    The NBP specified that the creation of a Tribal Broadband Fund 
would provide grant funding to bring high-capacity broadband services 
to tribal anchor institutions; conduct feasibility studies, planning 
and infrastructure deployment; and provide business plan development, 
implementation, and digital literacy training. \15\ In recognition of 
the low access and adoption rates prevalent on tribal lands, the NBP 
also recommended that a portion of the Tribal Broadband Fund would 
provide targeted grant funding for Internet access and adoption 
programs. \16\ While many discussion draft bills have been circulated 
regarding the creation of a Tribal Broadband Fund, no bill has been 
formally introduced.
---------------------------------------------------------------------------
    \15\ Id.
    \16\ Id.
---------------------------------------------------------------------------
Congress Should Establish a Tribal Seat on the Federal-State Joint 
        Board on Universal Service
    The Federal-State Joint Board on Universal Service provides 
recommendations on how to implement and provide critical USF 
investments. On June 11, 2010, NCAI sent a letter to Congressman Jay 
Inslee in support of legislative changes to Section 410 of the 
Communications Act (enclosed). In that letter, NCAI referenced 
recommendations from the National Broadband Plan citing, ``. . 
.Congress should consider amending the Communications Act to establish 
a Tribal seat on the USF Joint Board.'' \17\ During the 111th Congress 
legislation was introduced on December 16, 2010 to provide amendments 
to Sections 254(a) and 410(c) of the Communications Act to create a 
tribal seat on the Federal-State Joint Board on Universal Service. \18\ 
Following the bill's introduction, NCAI's membership adopted Resolution 
#MKE-11-005, ``In support of Tribal Positions on Universal Service 
Reform'' (enclosed). To the extent that Congress determines the 
continued use of other Federal-State Joint Boards, tribal interests and 
representation must be included.
---------------------------------------------------------------------------
    \17\ See the National Broadband Plan. Chapter 9.7: Coordinating 
with Tribes on Broadband Issues. Page 184. Released March 17, 2010. 
Available at http://transition.fcc.gov/national-broadband-plan/
national-broadband-plan.pdf.
    \18\ See H.R. 6530, To amend the Communications Act of 1934 to 
establish a position for a representative of Indian Tribes on the Joint 
Board overseeing the implementation of universal service, and for other 
purposes. 111th Congress, 2nd Session. Introduced December 16, 2010. 
Available at https://www.govtrack.us/congress/bills/111/hr6530.

---------------------------------------------------------------------------
    Attachments

    The National Congress of American Indians_Resolution #ANC-14-049
  title: support for the creation of a ``tribal priority'' in e-rate 
                funding for tribal libraries and schools
    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, the tribal communities in the U.S. have the lowest 
broadband deployment and adoption rates of any group of Americans, and 
often rely on tribal libraries and school computer labs to obtain 
access to the Internet; and
    WHEREAS, the Universal Service Fund (USF) E-Rate program has 
provided more than $2.25 billion in support each year for schools and 
public libraries, and today 61 percent of the nation's public libraries 
benefit from E-Rate discounts, and more than 95 percent offer free 
public Internet access, up from only 28 percent in 1996; and
    WHEREAS, recent studies by the Association of Tribal Archives, 
Libraries & Museums (ATALM) found that 10 percent of tribal libraries 
do not offer Internet access, 38 percent are the only source of free 
public Internet access in their communities, and only 17 percent of 
tribal libraries have ever applied for E-Rate discounts, with 15 
percent actually receiving E-rate funds; and
    WHEREAS, the Department of the Interior, Bureau of Indian Education 
(BIE) reported 130 to 140 BIE schools applying for and receiving E-rate 
funds over the last nine years--out of a total 183 BIE entities. 
However, of the E-rate funds committed for these BIE schools over the 
past nine years, only 60 percent was actually spent. Furthermore, many 
eligible BIE schools did not apply because they did not meet the 80 
percent threshold to receive a discount. These statistics illustrate 
persistent gaps in E-rate adoption among BIE schools that are similarly 
prevalent in other Native-serving institutions due to their 
geographical isolation and inability to meet Universal Service 
Administrative Company (USAC) guidelines; and
    WHEREAS, E-rate funding is critically important to the development 
and maintenance of Internet-based services to tribal schools and 
libraries, and without a 90 percent discount rate tribal schools and 
libraries are detrimentally impacted through reduction in teachers and 
student programs creating further distress in the most economically 
challenged tribal communities; and
    WHEREAS, NCAI Resolution REN-13-064 called on the FCC to place the 
highest priority on tribal schools and libraries in efforts to 
modernize the E-Rate Program as part of the President's ConnectED 
initiative; and
    WHEREAS, the definition of Tribal Schools From the National Indian 
Education Association is as follows:

        TRIBAL PRIORITY ELIGIBILTY FOR E-RATE FUNDS
        LOCAL EDUCATION AGENCIES

         (1) Where Indian children eligible under Section 7117 of the 
        No Child Left Behind Act (Public Law 107-110) [20 U.S.C. 7427] 
        are served by local education agencies located on, or adjacent 
        or contiguous to, an Indian reservation, any other lands held 
        in trust by the United States for Indians, or former Indian 
        reservations in Oklahoma, such local education agencies and 
        Indian tribes shall be eligible and have priority for funds 
        distributed under the Universal Service Fund (USF) E-Rate 
        program for any fiscal year.

         (2) If one or more Indian tribes represent Indian children 
        eligible under section 7117, the Indian tribe that represents a 
        majority of the eligible Indian children shall have priority to 
        receive such funds under the Universal Service Fund (USF) E-
        Rate program for any fiscal year.

        BUREAU OF INDIAN EDUCATION

         (1) A school funded by the Bureau of Indian Education, 
        including a school operated under a contract or grant with the 
        Bureau of Indian Education, or a consortium of such schools 
        shall have priority to receive such funds under the Universal 
        Service Fund (USF) E-Rate program for any fiscal year.; or

         (2) a school funded by the Bureau of Indian Education in 
        consortium with an Indian tribe, institution of higher 
        education, tribal organization or community organization, shall 
        have the same eligibility for and be given the same 
        consideration as a local educational agency with regard to such 
        program.

        TRIBAL PRIORITY SPECIAL RULE

         (1) If an eligible local educational agency or school funded 
        by the Bureau of Indian Education that is otherwise eligible 
        for funds but does not apply for such funds, an Indian tribe 
        that represents not less than \1/2\ of the eligible Indian 
        children who are served by such eligible entity may apply for 
        such funds; and

         (2) The Universal Service Fund (USF) E-Rate program shall 
        treat each Indian tribe or consortium of Indian tribes applying 
        for funds as if such Indian tribe or such consortium were a 
        local educational agency, except that any such tribe or 
        consortium is not subject to section 7114(c)(4), section 
        7118(c), or section 7119 of the No Child Left Behind Act 
        (Public Law 107-110) [20 U.S.C. 7427]; and

    WHEREAS, 85 percent of tribal libraries do not receive E-Rate 
funding due to eligibility restrictions, lack of awareness, and 
application complexities, and current statutory eligibility 
requirements make the majority of tribal libraries ineligible for E-
rate participation; and
    WHEREAS, according to ATALM, tribal libraries receive less than $3 
per capita per year in contrast to public libraries which receive an 
average of $45 per capita per year, and the majority of Tribal 
libraries often do not receive services or state certification from 
state library agencies and are thus not eligible for Library Services 
and Technology Act funding, which FCC rules currently require; and
    WHEREAS, the FCC has a trust obligation to Indian Country and to 
meet that obligation a `Tribal Priority' to E-Rate should be developed 
for tribal libraries and schools to provide these institutions with 
targeted funding for digital broadband services, so they do not fall 
further behind mainstream America in terms of digital access, adoption, 
and applications.
    NOW THEREFORE BE IT RESOLVED, that NCAI calls on the FCC and its 
Office of Native Affairs and Policy (FCC-ONAP) to increase awareness 
and remove tribal-specific barriers by: (1) Conduct outreach to tribal 
libraries and schools, especially those having not participated in the 
E-rate program previously; (2) Provide tribal specific training modules 
for the E-Rate program; (3) Attend national and regional tribal 
meetings where tribal school and library administrators are present; 
(4) Develop educational materials that will be part of the FCC-ONAP's 
Native Learning Lab and provide these materials directly to tribes via 
web portal or physical hard copy; (5) Provide assistance to tribal 
school and library awardees to comply with E-rate regulations; (6) 
Ensure accessibility to tribes during critical times of the annual 
funding cycle to answer questions and provide additional assistance as 
needed; and (7) grant forbearance from all applicable laws precluding 
tribal library participation in E-rate; and
    BE IT FURTHER RESOLVED, that the FCC consult with tribal nations to 
accelerate deployment of high-capacity broadband to tribal libraries 
and schools by creating a `Tribal Priority' so they can better serve 
tribal citizens by qualifying these institutions for both Priority 1 
and Priority 2 E-Rate funding; and
    BE IT FURTHER RESOLVED, that the FCC create new eligibility 
criteria that more effectively targets tribal communities for E-rate 
funds, such as those proposed by the `Tribal Commenters' filing (WC 13-
184) to the FCC on April 7, 2014; and
    BE IT FURTHER RESOLVED, that the FCC preserve the 90 percent 
funding E-rate for tribal schools and libraries and re-instate Priority 
2 funding for tribal communities; and
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.
    CERTIFICATION
    The foregoing resolution was adopted by the General Assembly at the 
2014 Mid-Year Session of the National Congress of American Indians, 
held at the Dena'ina Civic & Convention Center, June 8-11, 2014 in 
Anchorage, Alaska, with a quorum present.

   The National Congress of American Indians_Resolution # MKE-11-007
title: in support of a tribal priority for the utilization of spectrum 
                            on tribal lands
    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, the 1996 Telecommunications Act provides for 
telecommunications infrastructure and information technology to be 
developed and utilized in a manner that meets the social, civic, 
economic, educational, and cultural needs of American Indians and 
Alaska Natives; and
    WHEREAS, while competitive market forces have spurred robust 
wireless communications services in many areas, connectivity on tribal 
lands remains at significantly lower levels necessitating robust 
`tribal centric' build out comparable to the national average; and
    WHEREAS, NCAI supports the establishment of a tribal priority, 
similar to the current 307(b) tribal priority for broadcast licenses, 
for the licensing of fixed and mobile wireless telecommunications 
services, and ensuring its availability to qualifying tribal entities 
that provide service to unserved or underserved tribal lands, when such 
lands are within the geographic area covered by an unallocated Wireless 
Radio Services license; and
    WHEREAS, NCAI supports increased ``tribal-centric'' build out 
requirements for carriers, including tribally operated providers of 
first resort or tribal joint ventures based on consultation with 
tribes; and
    WHEREAS, NCAI supports a tribal licensing priority for tribal 
governments, tribal consortia, and entities that are more than 50 
percent owned and controlled by a tribe(s). This is consistent with FCC 
rules governing the tribal priority in the broadcast radio licensing 
context, and the legal foundation for providing opportunities to tribes 
for access to spectrum is based on the federal government's trust 
relationship with tribal governments; and
    WHEREAS, tribal governments, residents, and first responders have 
critical communications needs that remain unmet; carriers maintain a 
stronghold on wireless telecommunications licenses and have failed to 
meet these tribal needs.
    THEREFORE BE IT RESOLVED, the NCAI strongly supports FCC rule 
modifications requiring carriers to immediately engage with tribal 
governments and either divest themselves of their FCC licenses over 
tribal areas or provide services to tribal lands within on an mutually 
agreed deployment schedule; and
    BE IT FURTHER RESOLVED, the NCAI urges the FCC to support tribal 
efforts to use spectrum services and allocations on tribal lands should 
be managed in deliberated consultation with tribal governments on 
deployment of services, rights of way, business and tribal regulatory 
permissions, and tribal governments should be a part of the licensing 
approval and renewal process for non-tribal licenses; and
    BE IT FURTHER RESOLVED, that the FCC must provide as much and 
sufficient spectrum to meet the public needs of Native communities. As 
a matter of sovereignty and trust responsibility, such vital spectrum 
should be provided free to Native communities. Tribal service areas 
should be a single service area for the entire community. If there 
needs to be payment for spectrum licensing, then Native governments 
should be given the priority to serve themselves with reserve costs 
calibrated (and thus, the first right of refusal for license 
ownership); and
    BE IT FURTHER RESOLVED, that NCAI urges all spectrum policy 
impacting Native communities be deliberated in consultation with tribal 
governments; and
    BE IT FURTHER RESOLVED, that the NCAI urges termination of the 
existing tribal bidding credit program and any reformed tribal bidding 
credit or tribal priority program must have the two key components: (1) 
such program or priority must result in tribes actually attaining 
licensing in their communities; and, (2) that every Native community 
and tribal government be able to use spectrum over their lands or 
communities for public interest needs; and
    BE IT FURTHER RESOLVED, that the NCAI supports the establishment of 
a Tribal Priority for licensing Wireless Radio Services, thereby 
expanding the current tribal radio broadcast licensing priority and 
creating opportunities for access to unlicensed or unallocated Wireless 
Radio Services licenses to increase access to communications services; 
and
    BE IT FURTHER RESOLVED, that the NCAI supports ensuring that this 
new tribal priority be available to qualifying tribal entities for 
spectrum access, and a qualifying tribal entity for these purposes 
would be an entity designated by the tribal government(s) having 
jurisdiction over particular tribal land for which the spectrum access 
is sought, or the tribal government(s) for a tribe residing in a single 
identifiable geographic unserved area; and
    BE IT FURTHER RESOLVED that the NCAI supports the FCC requiring new 
licensees to consult with tribal governments for deployment of services 
over tribal lands and to build or divest a geographic area covering 
unserved or underserved Tribal lands within its license area within 
three years of receipt of a construction permit from the FCC, thereby 
promoting the availability of services to residents in the affected 
tribal areas within a reasonable length of time and to compel current 
licensees to immediately consult with tribal governments and either 
divest themselves of their FCC licenses over tribal areas or provide 
services to tribal lands within a mutually agreed deployment schedule; 
and,
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.
    CERTIFICATION
    The foregoing resolution was adopted by the General Assembly at the 
2011 Mid-Year Session of the National Congress of American Indians, 
held at the Frontier Airlines Center in Milwaukee, WI on June 13-16, 
2011, with a quorum present.

   The National Congress of American Indians--Resolution #SAC-12-034
     title: promoting tribal nation access and use of spectrum for 
                        communications services
    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, approximately 90 percent of Native Americans living in 
Indian Country do not have access to Internet connectivity and the 
economic, cultural and human significance of that fact cannot be 
underestimated; and
    WHEREAS, connecting Indian Country to broadband with the rest of 
the world can reverse centuries of neglect and isolation and enable 
Tribal Nations to shape the future health and welfare of their 
communities with critical communications infrastructure; and
    WHEREAS, broadband has the potential to assist Native American 
people in securing their rightful place in a world economy of ideas and 
opportunities; and
    WHEREAS, access to currently licensed spectrum is absolutely 
necessary as many communities and entire Tribal Nations have not seen 
the full benefit of the services that could and should be provided on 
these licenses; and
    WHEREAS, the Federal Communications Commission (FCC), Office of 
Native Affairs and Policy (FCC-ONAP) is well positioned and respected 
throughout Indian Country to consult and coordinate with Tribal Nations 
as the FCC acts on important proceedings that impact Tribal Nations; 
and
    WHEREAS, with the creation of the Tribal Mobility Fund together 
with the Connect America Fund provisions requiring engagement with 
Tribal Nations on many important broadband deployment issues, Tribal 
Nations are still waiting for the promulgation of important rules to 
increase tribal access to spectrum; and
    WHEREAS, the attached letter dated July 19, 2012, NCAI President 
Jefferson Keel filed a letter to the FCC under WT Docket No. 11-40, 
highlighting critical issues for the FCC to act to increase tribal 
access to commercial wireless spectrum.
    NOW THEREFORE BE IT RESOLVED, that in order to fully understand the 
true availability of communications service on tribal lands, the FCC 
must, as a threshold matter, consult with Tribal governments to ensure 
Tribes are receiving good faith, responsive, fair treatment and 
deployment of broadband infrastructure in accordance with tribal 
sovereignty; and
    BE IT FURTHER RESOLVED, that NCAI reaffirms Resolutions MKE-11-007 
and LNK-12-007, and calls for the FCC to implement a Tribal Priority in 
the rules inclusive of commercial mobile radio services and wireless 
spectrum that can be used to deploy critical important and robust 
broadband services; and
    BE IT FURTHER RESOLVED, that NCAI, by our membership, adopts the 
comments made in the attached letter from NCAI President Jefferson Keel 
to the FCC; and BE IT FINALLY RESOLVED, that this resolution shall be 
the policy of NCAI until it is withdrawn or modified by subsequent 
resolution.
    CERTIFICATION
    The foregoing resolution was adopted by the General Assembly at the 
2012 Annual Session of the National Congress of American Indians, held 
at the Sacramento Convention Center from October 21-26, 2012 in 
Sacramento, California, with a quorum present.

                                                      July 19, 2012
The Honorable Julius Genachowski,
Chairman,
Federal Communications Commission,
Washington, DC.
    RE: Emphasizing the Importance of a Tribal Priority to 
   Spectrum Licenses (Improving Communication Services for 
Native Nations by Promoting Greater Utilization of Spectrum 
     Over Tribal Lands, WT Docket No. 11-40) Dear Chairman 
                                               Genachowski,

    On behalf of the National Congress of American Indians (NCAI), I 
would like to extend to you my gratitude for speaking with NCAI's Board 
during our 2012 Executive Council Winter Session in early March. At 
that time I expressed how important and critical the need throughout 
Indian Country is for fully licensed wireless spectrum. As your 
Commission has acknowledged, wireless services are sorely lacking in 
many parts of Indian Country. In many places, wireless services are not 
a matter of convenience, but a matter of necessity, and often life or 
death.
    NCAI appreciated the Commission launching the Spectrum for Tribal 
Lands Rulemaking. Tribal Nations need access to spectrum that was 
licensed long ago to companies that have failed to build out to 
communities on Tribal Lands. Much needed rule changes will serve tribal 
needs in these least connected regions of the country.
    It is not only a matter of need but also a matter of efficiency in 
the use of this important resource, and especially in those many 
instances where the spectrum is not being used for the benefit of our 
communities. Having a wireless license is not the same as ownership of 
property, and such licenses should be utilized by those who are willing 
and able to deploy wireless services for the public good.
FCC Docket No. 11-40--In the Matter of Improving Communications and 
        Utilization of Spectrum Over Tribal Lands
    NCAI and Native Public Media (NPM) submitted joint reply comments 
under WT Docket No. 11-40, ``Improving Communication Services for 
Native Nations by Promoting Greater Utilization of Spectrum Over Tribal 
Lands'' on June 20, 2011.(i) In the joint reply comments, NCAI and NPM 
highlighted a variety of measures the FCC could take to promote the 
deployment of wireless services over Tribal Lands, which included:

        1) Expanding the Tribal Priority to advanced wireless services;

        2) Establishing a build or divest process for spectrum use over 
        Tribal Lands;

        3) Establishing a formal and mandatory negotiation process 
        between both current and future licensees and Tribal 
        governments;

        4) The inclusion of a demonstration of service requirement as 
        part of any Tribal-lands safe harbor;

        5) Significant modification of the Tribal Lands Bidding Credit; 
        and

        6) The adoption of well defined eligibility criteria for Tribes 
        to obtain spectrum, as set forth in the Notice of Proposed 
        Rulemaking.(ii)

    I respectfully submit this letter to reemphasize certain 
requirements for success that were previously addressed in NCAI's and 
NPM's joint reply comments to Docket No. 11-40. It has been well over a 
year since the FCC released its Notice of Proposed Rulemaking on this 
issue, and many tribes across the country are still waiting for the 
promulgation of these important rules to increase tribal access to 
spectrum.
Reemphasizing the Need to Increase Tribal Access to Spectrum
    With the creation of the Tribal Mobility Fund together with the 
Connect America Fund provisions requiring engagement with Tribal 
Nations on many important broadband deployment issues, many pieces are 
in place to address the Digital Divide in Indian Country. Now is the 
time to put the most important piece in place--Spectrum priority.
    With this in mind, I urgently encourage you to take the next steps 
and promulgate rules that the FCC has proposed to create new 
opportunities for Tribal Nations to access spectrum. Specifically, I 
urge you to take immediate action to:

        1. Implement a Tribal Priority in the rules inclusive of 
        commercial mobile radio services, and wireless spectrum that 
        can be utilized to deploy critical important and robust 
        broadband services. We look forward to future licensing actions 
        or auction opportunities to license areas that support tribal 
        lands and governmental priorities.

        2. Create rules that strengthen the structure of negotiations 
        with existing licensed companies, and strengthen the ability of 
        Tribal Nations to initiate and participate in these 
        negotiations. Access to currently licensed spectrum is 
        absolutely necessary as many communities, and indeed entire 
        Tribal Nations, have never seen the full benefit of the 
        services that could and should be provided on these licenses. 
        Adoption and utilization of broadband services cannot occur 
        until these services are available on tribal lands.
        3. Ensure that there is good faith, responsiveness, and 
        continuity in negotiations. As part of the fiduciary trust 
        responsibility that exists between the federal government and 
        Tribal Nations, it is critical that the FCC act in accordance 
        with the best interest of tribes. While NCAI supports FCC 
        initiatives to ensure that industry entities must `meaningfully 
        engage' with tribal governments, the FCC should remain involved 
        in these negotiations to ensure tribes are receiving fair 
        treatment and deployment of broadband infrastructure is 
        occurring in accordance with tribal sovereignty, FCC 
        expectations, and community needs.
        4. Minimize the ability of parties to present ultimatums in 
        negotiations, and one-sided demands. In accordance with 
        Executive Order 13175, ``Consultation and Coordination with 
        Tribal Governments'',(iii) and President Obama's recent 
        Executive Order, ``Accelerating Broadband Infrastructure 
        Deployment'',iv the FCC should develop and implement mechanisms 
        for tribal recourse when and if negotiations with industry 
        entities deteriorate.
        5. Create opportunities for these negotiations to recognize the 
        unique geography, economies, and multiple-use needs of many 
        Tribal Nations. Coordinated efforts between tribes, their 
        respective governments, and industry entities are essential to 
        bridging the Digital Divide in Indian Country. Planning and 
        feasibility studies for infrastructure deployment should take 
        into consideration the needs of the community. The recent 
        Connect America Fund ``Tribal Engagement Provisions'' provide a 
        foundation for this to occur by requiring eligible 
        telecommunications carriers (ETCs) to meaningfully engage with 
        tribal governments in their service areas. NCAI supports these 
        provisions and encourages the FCC to enforce these provisions 
        on ETCs serving tribal lands.
        6. Further investigate Best Practices based on stronger rules 
        and experiences surrounding negotiations and tribal engagement 
        under the Connect America Fund. The new build out measures for 
        Tribal Lands should be evaluated in coordination with Tribal 
        Nations, and involve the carriers who are only now beginning to 
        address tribes within their service areas. These measures 
        should be tailored specifically to the needs of different 
        regions and address the unique aspects of tribal governments 
        and lands, while taking into consideration the needs of each 
        individual Tribal Nation.
        7. Implement a ``Build or Divest'' program in the context of 
        close coordination and consultation between Tribal Nations and 
        the FCC. We recognize this is a controversial point, but until 
        the Commission takes action to enforce actual build out onto 
        tribal lands, we will not solve the specific issues in each 
        corner of Indian Country. Recipients of CAF funds should be 
        legally obligated to address these specific issues and needs. 
        Additionally, the concept of ``Build or Divest'' is similar to 
        the incentive auctions authorized by Congress in the Middle 
        Class Tax Relief and Job Creation Act of 2012 as a way to 
        encourage the voluntary relinquishment of currently licensed 
        spectrum.
Implementation of Tribal Priority to Spectrum Would Benefit Tribal 
        Nations Today
    In closing, I reiterate our offer to assist in any further outreach 
efforts to tribes for the purposes of consultation and coordination 
with Tribal Nations as the Commission acts in this important 
proceeding. With the FCC Office of Native Affairs and Policy well-
positioned and well-respected throughout Indian Country, the 
Commission's presence across Indian Country is deeply appreciated and 
much needed. With the many new opportunities for Tribal Nations that 
the Commission has created, it is time to implement a tribal spectrum 
priority and bring meaningful robust wireless services to tribal lands.
    Therefore, the Commission should act now to increase access to 
spectrum over tribal lands. A Tribal Priority to spectrum would enable 
American Indian tribes and Alaska Native villages to develop their own 
robust wireless services if they so choose or to empower tribes to 
develop their own regulatory authorities to engage with industry 
officials in the planning and deployment of robust wireless services.
        Sincerely,
                                             Jefferson Keel
                   President, National Congress of American Indians

        (i) See Joint Reply Comments of Native Public Media and the 
        National Congress of American Indians. WT Docket No. 11-40. 
        ``In the Matter of Improving Communication Services for Native 
        Nations by Promoting Greater Utilization of Spectrum Over 
        Tribal Lands.'' Submitted to the FCC Electronic Comment Filing 
        System on June 20, 2011. Posted on June 21, 2011. Available at 
        http://apps.fcc.gov/ecfs/document/view?id=7021688922.
        (ii) Id.
        (iii) See Executive Order No. 13175, ``Consultation and 
        Coordination with Tribal Governments. 65 Federal Register 218. 
        November 9, 2000. Available at http://www.gpo.gov/fdsys/pkg/FR-
        2000-11-09/pdf/00-29003.pdf.
        (iv) See President Obama Executive Order, ``Accelerating 
        Broadband Infrastructure Development''. June 14, 2012. 
        Available at http://www.whitehouse.gov/the-press-office/2012/
        06/14/executive-order-accelerating-broadband-infrastructure-
        deployment.

    The National Congress of American Indians--Resolution #SD-15-037
 title: urging the federal communications commission to improve access 
                to spectrum licenses for tribal nations
    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, tribal lands remain the most disconnected areas across the 
country, and as the nation continues its shift to wireless based 
services tribal access to spectrum licenses is absolutely critical; and
    WHEREAS, tribal areas contain complex geographies where coverage 
may be up to or exceed 85 percent within the more urban markets, while 
residents of rural and remote regions are not covered and it is often 
in these more rural/remote places where coverage is critical for 
economic development, education, healthcare, and public safety; and
    WHEREAS, while NCAI supports Commission efforts to encourage 
competition in the marketplace tribes experience regulatory and 
financial barriers preventing them from participating in commercial 
wireless markets; and
    WHEREAS, current licensing mechanisms aren't responsive to tribal 
needs and would incentivize the deployment of telecommunications 
services by smaller, more market sensitive carriers on tribal lands; 
and
    WHEREAS, a spectrum license assigned to a tribal nation would 
incentivize the deployment of telecommunications services through 
further structured financial arrangements; and
    WHEREAS, in recognition of these issues, on March 3, 2011, the 
Federal Communications Commission (FCC) initiated a Notice of Proposed 
Rulemaking under WT Docket No. 11-40 in the matter of ``Improving 
Communications Services for Native Nations by Promoting Greater 
Utilization of Spectrum over Tribal Lands'' (WT Docket No. 11-40); and
    WHEREAS, WT Docket No. 11-40 included proposals to implement a 
``Tribal Priority'' to commercial mobile radio services and wireless 
spectrum to deploy robust broadband services; strengthening negotiation 
structures between tribes and companies holding spectrum licenses and 
ensuring good faith in the negotiation process; reforms to the Tribal 
Land Bidding Credit program; and whether a ``build or divest'' rule 
should be exercised over licensees failing to deploy to tribal lands 
within their service area; and
    WHEREAS, since 2011, the FCC has not initiated any further 
rulemaking on WT Docket No. 11-40, yet the Commission has continued its 
implementation of the Connect America Fund to support wireless 
deployment through the Mobility Fund and Tribal Mobility Fund auctions; 
and WHEREAS, one of the primary and common barriers referenced by 
tribes excluding their participation in the Mobility Fund and Tribal 
Mobility Fund auctions is the lack of access to spectrum licenses; and
    WHEREAS, since 2011, numerous tribes, tribal telecommunications 
providers, and tribal organizations have submitted comments to WT 
Docket No. 11-40 proclaiming support for the creation of a ``Tribal 
Priority'' to spectrum licenses; and
    WHEREAS, NCAI's membership adopted Resolution #SAC-12-034, 
``Promoting Tribal Nation Access and Use of Spectrum for Communications 
Services'' during its 2012 Annual Convention in Sacramento, CA that 
urged the FCC take action on WT Docket No. 11-40; and
    WHEREAS, the FCC has a legal foundation for providing tribal access 
to spectrum licenses, which is in accordance with its federal trust 
responsibility and the Communications Act of 1934.
    NOW THEREFORE BE IT RESOLVED, that the National Congress of 
American Indians (NCAI) reaffirms Resolution #SAC-12-034, which 
supports the establishment of a ``Tribal Priority'' to spectrum 
licenses, and urges the Federal Communications Commission (FCC) to 
revisit and act upon tribal proposals in WT Docket No. 11-40, in the 
matter of ``Improving Communications Services for Native Nations by 
Promoting Greater Utilization of Spectrum over Tribal Lands'' (WT 
Docket No. 11-40); and
    BE IT FURTHER RESOLVED, that NCAI supports the establishment of a 
structured secondary market negotiation process triggered by the tribal 
nations requiring good faith and fair market value negotiations, as 
well as considered reasons, as per the proposal in WT Docket No. 11- 
40; and
    BE IT FURTHER RESOLVED, that the Commission's tribal government 
engagement obligation provisions in the Connect American Fund and 
Mobility Fund rules be applied to carriers involved in the secondary 
markets agreements with tribal nations; and
    BE IT FURTHER RESOLVED, that a tribal lands safe harbor buildout 
provision in which a licensee would be deemed to have met its 
construction obligations for its entire service area if it provides a 
specified level of service to tribal lands within the geographic area 
of its license with service levels in parity with the three most 
proximate of the top 20 Metropolitan Statistical Areas; and
    BE IT FURTHER RESOLVED, that this Resolution urges NCAI to 
facilitate a coalition of tribes, tribal telecommunications providers, 
tribal task forces, tribal organizations, and non-tribal entities and 
associations to gather input and submit joint comments to the FCC 
urging action on WT Docket No. 11-40; and
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.
    CERTIFICATION
    The foregoing resolution was adopted by the General Assembly at the 
2015 Annual Session of the National Congress of American Indians, held 
at the Town and Country Resort, San Diego, CA, October 18-23, 2015, 
with a quorum present.

   The National Congress of American Indians--Resolution # MKE-11-005
   title: in support of tribal positions on universal service reform
    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, a 2006 Government Accountability Office report found that 
only about 69 percent of households on tribal lands had telephone 
service in 2000 compared to the national rate of 98 percent. The report 
identifies four specific barriers to deployment: (1) the rural, rugged 
terrain of tribal lands; (2) limited tribal resources; (3) lack of 
technically trained tribal people; and, (4) rights of way issues; and
    WHEREAS, the Universal Service Fund (USF) currently administers the 
Link-Up, Lifeline, and High Cost programs which provide much needed 
telephone discounts to qualified subscribers on tribal lands, and 
ensures that all consumers have access to affordable pay rates for 
telecommunications services; and
    WHEREAS, in light of a limited regulatory definition of ``library'' 
as defined by the FCC, tribal libraries are often ineligible for `E-
rate' support as many do not qualify for state library funds, a fact 
that was specifically noted by the U.S. Government Accounting Report 
(GAO-06-189), in January 2006. Tribal libraries, serving as community 
anchor institutions, are frequently the only access point for Internet 
services in some tribal communities, and the lack of broadband services 
at these institutions impedes education, individual self-determination, 
social discourse and participation for tribal membership; and
    WHEREAS, there needs to be a tribal seat on the USF Federal-State 
Joint Board to include an American Indian/Alaskan Native representative 
to make recommendations on implementing USF programs to provide 
critical investments and expand telecommunications services on tribal 
lands.
    NOW THEREFORE BE IT RESOLVED, that the federal government should 
support tribal sovereignty by removing all regulatory and market 
barriers, and by supporting all tribal nations' efforts to attain 
parity of telecommunications service and technology with non-Native 
communities; and
    BE IT FURTHER RESOLVED, that NCAI urges the FCC, the President, and 
Congress to not take any action on any policy that would harm tribal 
efforts to serve its own communities, and that the aforementioned 
should do everything within federal capacity to fund tribal efforts to 
provide its own regulatory telecommunications solutions; and
    BE IT FURTHER RESOLVED, that NCAI urges the FCC, the President,` 
and Congress to support the requirement for direct consultation with 
tribal governments on federal policies directly impacting tribal lands 
and communities; and
    BE IT FURTHER RESOLVED, that NCAI urges the FCC, the President, and 
Congress to support the requirement for regulated commercial 
telecommunications entities to directly consult with tribal governments 
and Native community organizations on providing full service to tribal 
communities; and
    BE IT FURTHER RESOLVED, that NCAI recognizes the path and the model 
that tribes have embarked upon to become their on regulatory 
telecommunications providers to meet the needs of their communities and 
these efforts should continue to be fully supported by the Connect 
America Fund and by the revised Universal Service Fund; and
    BE IT FURTHER RESOLVED, that the NCAI strongly urges the joint 
support of the President, the FCC, and Congress create a tribal seat on 
the USF Federal-State Joint Board to be filled by an American Indian or 
Alaska Native so that tribes will have representation and effective 
input regarding the overhaul and future management of the Universal 
Service Fund; and
    BE IT FURTHER RESOLVED, by the NCAI that Indian Country can 
overcome the digital divide through meaningful collaboration and 
consultation on USF reform through strong, engaged, and consistent 
dialogue with the federal government including the FCC Office of Native 
Affairs and Policy, and the Wireless Telecommunications and Wireline 
Competition Bureaus; and
    BE IT FURTHER RESOLVED, during the modification of the USF, and 
transition to the Connect America Fund, that the USF continue to 
provide the much needed support of legacy technology through the 
Lifeline, Link-Up, and High Cost programs, which provide telephone 
discounts to qualified subscribers on tribal lands, ensuring all 
consumers have access to affordable rates for telecommunications 
services; and
    BE IT FURTHER RESOLVED, that the NCAI strongly urges Congress to 
direct the FCC to permit tribal governments to determine what 
constitutes a ``library'' in Indian Country so that the tribally 
designated location is eligible for `E-rate' support; and BE IT FINALLY 
RESOLVED, that this resolution shall be the policy of NCAI until it is 
withdrawn or modified by subsequent resolution.
    CERTIFICATION
    The foregoing resolution was adopted by the General Assembly at the 
2011 Mid-Year Session of the National Congress of American Indians, 
held at the Frontier Airlines Center in Milwaukee, WI on June 13-16, 
2011, with a quorum present.
                                 ______
                                 
Prepared Statement of the Affiliated Tribes of Northwest Indians (ATNI)
    Chairman Barrasso, Ranking Member Tester, Members of the Committee:
    Thank you for this opportunity to offer our observations and 
recommendations on improving availability and adoption of voice and 
broadband communications services on Tribal lands. The plight of Indian 
country's communications has been well documented for many decades now. 
This most recent GAO Report simply continues to confirm our story of 
unserved or underserved Tribal lands.
    The Affiliated Tribes of Northwest Indians (ATNI) was formed in 
1953 by a farsighted group of tribal leaders in the Northwest dedicated 
to promoting tribal sovereignty and self-determination. Today, ATNI is 
a nonprofit organization comprised of American Indians/Alaska Natives 
representing 57 northwest tribal governments from Oregon, Idaho, 
Washington, southeast Alaska, northern California, and western Montana.
    ATNI is an organization whose foundation is composed of the people 
it is meant to serve--the Indian peoples. ATNI is focused on preserving 
for its people and their descendants the rights secured under Indian 
Treaties, Executive Orders, and the benefits to which they are entitled 
under the laws and the constitution of the United States.
    Our comments are primarily directed at FCC policy, rules, and 
regulations. Certainly ATNI believes there is much more to be done by 
the FCC in assisting tribes with the deployment of broadband 
infrastructure on Tribal lands and sustaining fiber-based and wireless 
services.
    With that said and with that goal in mind, Sections 254 and 706 of 
the 1996 Telecommunications Act were enacted by the Congress to ensure 
that all Americans, regardless of where they live, have access to voice 
and advanced communications services at reasonable and affordable 
rates. These universal service principles have been reflected in FCC 
policies and support mechanisms and have proven valuable in bringing 
voice and broadband communications services to some Tribal lands. 
However, although much remains to be done, we are concerned that the 
Commission has lost sight of this Congressional mandate.
    The GAO recommends that data collections, performance goals, and 
measurements be undertaken to better understand our plight. However, 
that will simply continue to prolong lack of broadband deployment on 
Tribal lands and development of solutions that can be undertaken now to 
begin a positive process in compliance with the goals and objectives 
apparent to Congress and codified in the Telecommunications Act of 1996 
twenty years ago.
Why Poor Service In Indian Country
    Willing providers of communications services are not available to 
serve Indian country. The economics of serving Indian country do not 
justify the private sector involvement, even with FCC funding, which 
currently is declining as a result of Universal Service Reform. It 
appears that tribes have been left to their own means to provide 
adequate service, especially in more remote reservation areas. For 
tribes to provide their own communications will require better hands on 
assistance from government agencies to plan, engineer, design, train, 
educate, partner, and bring in private partners to construct and 
operate broadband communications systems.
    The existing tribally-owned communications providers (essentially 
the 9 members of the National Tribal Telecommunications Association) 
should be encouraged to provide regional communications platforms. 
Technical resources and skills are limited to these carriers at this 
time. Favorable FCC policy can facilitate sharing of broadband 
technology, technical resources and skills, as well as back office and 
other administrative services. Essentially by creating the possibility 
of ``scope and scale'' for this nucleus of carriers, the Commission can 
fulfill on its model for rural America, including Indian country. 
Favorable regulatory policy must be adopted to incentivize willing 
service providers.
    Generally speaking, there are some very fundamental issues that 
stand in the way of many ATNI tribes entering the process of applying 
for funds to deploy broadband infrastructure on Tribal lands.

  <bullet> The lack of funds available to rural communities from 
        federal or state sources leave native communities with little 
        means for broadband development. The limited resources that are 
        available fund only a portion of the infrastructure necessary 
        to serve the entire community. For example, funds are generally 
        available only to provide one aspect of the broadband network 
        or service, e.g. middle mile, last mile, equipment, adoption, 
        training or ongoing monthly service fees. This creates a very 
        confusing and disjointed process for rural/native community 
        development.

  <bullet> The USDA Community Connect program funds are insufficient to 
        meet the need. For example, the total budget for the current 
        round of funding is only $10 million. Applications for over 
        $100,000 million of funds were submitted during the previous 
        round. Only eight organizations qualified for funds and none of 
        the grants went to ATNI member tribes.

  <bullet> In addition to the lack of available funding options, 
        existing grants are difficult to secure. Application processes 
        are complex, especially for tribes and small communities that 
        do not have the local technical staff needed to prepare an 
        application. Many funding programs require sophisticated, 
        expensive engineering studies or research, as well as local 
        matching funds to successfully develop a competitive 
        application. The inaccuracy of data used to determine 
        eligibility (i.e., National Broadband Map, Census Tract/Bloc 
        data) often limits applications from tribes which have the 
        greatest need. The federal agencies need to do a better job of 
        coordinating and communicating with each other so policy and 
        procedures do not conflict between various agencies. Everyone 
        has a stake in this final success.

  <bullet> Technical assistance from federal agencies to identify and 
        complete funding applications is extremely limited and does not 
        provide the level of help needed for many tribal and rural 
        communities. Obstacles arise from the inconsistency in 
        definitions (broadband, rural, etc.) across agencies. This 
        makes it even more difficult to be successful in securing 
        necessary funds to deploy infrastructure and provision 
        broadband services. Specific funds are needed to support local 
        and regional capacity building and training around technology. 
        Deals are done locally with local private/public partnerships 
        and a few successes are building a sustainable self-help 
        network.

  <bullet> ATNI respectfully submits that there exists a need for both 
        (1) capital funding via Tribal Resources and Economic Growth 
        Act (TREGA) legislation to construct broadband infrastructure 
        and (2) additional operations support via FCC USF \1\ to make 
        the cost of broadband services more affordable for tribal 
        members. If the FCC will adopt a ``Tribal Broadband Factor,'' 
        the effect will be to increase tribal USF payments by 25 
        percent. This will keep the existing tribally-owned carriers in 
        a better position to grow and add needed infrastructure and 
        services. The ``TBF'' also works to the advantage of ATNI 
        tribal members by keeping a nucleus of tribally-owned carriers 
        financially viable and in place. It is our hope that one day 
        these carriers may assist ATNI tribes by sharing network 
        facilities and operating resources with ATNI members, making it 
        easier for us to take responsibility for our own broadband 
        services.
---------------------------------------------------------------------------
    \1\ The FCC is currently seeking comment and considering adoption 
of a ``Tribal Broadband Factor'' in its proceeding to Reform USF for 
Rate-of-Return Carriers. The ``TBF'' should be adopted to facilitate a 
long-term deployment of broadband beyond Tribal lands served by 
existing tribally-owned carriers.

    In addition to the concerns identified above, the following 
additional points will be discussed within these comments in more 
detail. Our comments are intended to shed light on how access to 
---------------------------------------------------------------------------
quality broadband services can be improved on ATNI member Tribal lands:

  <bullet> Large price cap carriers designated as incumbent Local 
        Exchange Carriers are responsible for underserving much of 
        Indian country, including ATNI Tribal lands;

  <bullet> Fiber/significant bandwidth capacity in the network is 
        required to adequately meet the broadband needs of ATNI native 
        communities;

  <bullet> Lifeline voice and broadband rates are important for ATNI 
        peoples, and

  <bullet> Quality broadband could be expanded more rapidly throughout 
        ATNI Tribal lands if broadband service providers had favorable 
        regulation that promoted sharing of infrastructure.

ATNI Tribes are Underserved by Large Price Cap Carriers
    The ATNI tribal members generally reside on reservations that are 
remote, sparsely populated, and high-cost to serve. The support funds 
provided to large price cap carriers that serve much of Indian country 
have not been used to bring fiber networks and robust broadband to 
Tribal lands. \2\ Tribal lands are underserved. And, as yet, the 
penalties levied by the FCC for underservice are not stiff enough to 
cause these carriers to walk away from Tribal service areas, which 
leave the Tribes without access to federal universal service funds 
(USF).
---------------------------------------------------------------------------
    \2\ As a contrast, NoaNet is a non-profit wholesale broadband 
provider in Washington State that works through public utility 
districts to connect underserved areas of the state with fiber optic 
networks. The E-rate program is utilized to bring high capacity 
broadband to libraries, higher education, and medical providers.
---------------------------------------------------------------------------
    The FCC National Broadband Plan released in 2010 acknowledged that 
Tribal lands were underserved and more support funds would be needed to 
deploy needed broadband infrastructure. Fast forward 5 years and 
another report, the FCC 2015 Broadband Report, confirms that nothing 
has changed to improve access to broadband services on Tribal lands. 
More support funds have not been directed to these areas. In fact, 
rather than address this recognized need more specifically within FCC 
rules and regulation, Tribal lands continue to be subject to the same 
regulatory policies and programs that apply to all of rural America. 
The result is that we now have a ``rural-rural'' divide that is getting 
wider in rural America between non-tribal and Tribal lands.
    Providing additional funds to large price cap carriers would not 
solve this problem. These large carriers are focused on maintaining or 
increasing market share in urban markets and new markets, because they 
represent a long-term financial incentive. Managerial resources are 
committed to these lucrative markets that have the potential to 
generate significant earnings for shareholders. Realistically, the 
national policy to enhance competition in a communications marketplace 
of converged technology has ensured that Tribal lands will remain 
forever underserved by large price cap carriers.
    Proposed Corrective Action: To improve the quality of broadband, 
service providers must be truly interested in engaging the ATNI tribes 
to identify and meet the specific communications needs of ATNI native 
communities and peoples. The FCC should adopt new programs to 
incentivize small rural local exchange carriers, new entrants, or the 
tribes themselves to take up the challenge of providing reasonably 
comparable broadband service on Tribal lands. Reformed USF programs 
should provide a specific fund, a ``Tribal Broadband Fund,'' to be used 
exclusively for the build-out of Tribal lands.
    The FCC should also adopt new rules through a proposed rulemaking 
that establishes an expedited process for the removal of an incumbent 
eligible telecommunications carrier (ETC) that has not demonstrated its 
willingness to adequately serve an ATNI member. Rules should be 
established by the FCC that allow the tribe, or another ETC designated 
by the tribe, to replace the incumbent ETC and embark on a mission to 
improve broadband service for the tribe. Putting in a new service 
provider would allow the tribe to gain access to universal service 
funds that will finally be used for the intended purpose of bringing 
the benefits of broadband to the members of ATNI.
Fiber Is Necessary in the Network to Serve Native ``Anchor 
        Institutions''
    The primary goals of ATNI are promotion of health, education, 
welfare, public and personal safety, and economic and employment 
opportunities for its people. From a communications network 
perspective, all of these basic needs are associated with high 
bandwidth requirements, i.e. Gigabit speeds. The large price cap 
carriers have linked their expansion of service in rural areas to 
deployment of 4G wireless networks. This is an important step in moving 
out broadband to rural America, but wireless has its limitations, and 
the FCC speeds that have evolved in recent years, i.e. 4/1, 10/1, and 
25/3 Mbps are keyed only to robust residential application. To serve 
the bandwidth need of ``anchor institutions'' a fiber connection 
offering Gigabit speed is required.
    The ``anchors'' are the source of quality-of-life in any community. 
ATNI has formed committees within the organization to maintain a 
continual focus on these the basic needs of the tribes. It has become 
very apparent to ATNI that broadband brings with it the promise of 
improving the tribe's ability to make significant advancement in all of 
these areas. In this 21st century a robust broadband network has become 
the platform for sharing information and applying new technology. To 
participate in the gains resulting from the rapid development of 
broadband applications, investment in fiber backbone is essential. The 
large carriers have crisscrossed the nation with such networks reaching 
into urban Northwest locations, including the Seattle/Puget Sound 
corridor, the Spokane Inland Empire, and the Portland Metropolitan 
vicinity. But none found their way to Warm Springs, Oregon, until the 
Confederated Warm Springs Tribes tackled its communications needs. We 
need more success stories like this one.
    Proposed Corrective Action: Constructing fiber networks on Tribal 
lands will require access to capital. Corporate charters of federally 
recognized tribes typically contain a provision restricting the tribe 
from mortgaging property. This is an obvious hurdle that prevents 
borrowing of funds from banks. Thus, the USDA Rural Utilities Service 
(RUS) has essentially become the only lender available to tribes. To 
enable the tribes to move forward in establishing their own 
telecommunications companies, RUS regulations should include specific 
provisions to ensure access to and extension of low interest federal 
government loans to tribes. RUS has at its discretion the ability to 
use the Substantially Underserved Trust Area (SUTA) provisions 
incorporated within the Farm Bill to grant 2 percent loans.
    Another opportunity to obtain capital funding occurred with the 
recent FCC Rural Broadband Experiments. Unfortunately, the FCC bidding 
rules were designed to shut out tribal bidders. Unreasonably expensive 
Letters of Credit (LOC) were required from a Top 100 bank that were to 
remain in place for over 10 years and offset the total amount of funds 
awarded by the FCC. Tribes were unable to obtain a LOC. In addition, 
start-up companies were disqualified from participating because they 
could not produce 3 years of audited financial statements, a 
requirement literally impossible to meet.
    The FCC did not grant waivers of these requirements. One 
provisionally selected company that intended to serve Tribal land was 
disqualified for not meeting the above requirements, even though the 4 
principles of the company had over 120 years of combined telephony and 
business management experience, including building out Atlanta, Georgia 
for the 1996 Olympic Games.
    With the CAF II Auctions on the horizon, the FCC should utilize 
bidding rules that do not shut out tribal bidders, including the 3 
years audited financials and the LOC. The Tribal Bidding Credit should 
remain available, since this additional incentive should help to 
attract broadband providers interested in serving Tribal lands.
Deep Discount Tribal Lifeline Rates Should Apply to Both Voice and 
        Broadband Services
    Most tribal lands are home to a high percentage of poverty level 
income households. This is true for the ATNI tribes, as well. 
Consequently, the affordability of voice and broadband service, if 
available, is a key factor in determining the service penetration level 
on Tribal lands. For example, several tribally owned telecommunications 
companies report that 75-80 percent of their tribal residents qualify 
for and receive Lifeline service.
    Proposed Action: The FCC should not disrupt the application of its 
Lifeline program for the tribes. The current poor level of voice and 
broadband penetration speaks to the importance of retaining Lifeline 
rates. If these discounted rates were taken away, the already 
documented low subscription rates on Tribal land would undoubtedly 
suffer severely.
    As the FCC contemplates whether to establish, or at what level to 
establish broadband Lifeline rates, it should consider the lack of 
penetration and adoption levels on Tribal lands. Granted, this poor 
performance is actually a function of lack of broadband infrastructure 
deployment and uneducated tribal members that do not understand the 
power of broadband or know how to use it. Nonetheless, the issue of 
poverty level income should not be lost in an FCC rulemaking. Bringing 
broadband to Indian country and pricing it at extremely discounted 
rates will be necessary if penetration and adoption levels on Tribal 
lands are to see reasonable movement toward nationwide averages.
Infrastructure Sharing Among Tribes Could Improve Broadband 
        Penetration
    The communications business is becoming more complex and 
sophisticated as technology convergence drives change in the industry. 
The business remains highly capital intensive, as well. The result is 
shorter useful lives for each generation of technology, and an 
increasingly higher demand for capital to keep up with technological 
innovation. A competitive communications industry, even in rural 
America, amplifies the effects of technological advance. All of these 
factors create a tremendous need for funding in the most high-cost to 
serve areas of the nation, especially on Tribal lands.
    Interestingly, as these pressures for capital mount, the FCC has 
determined that budgeted USF funds should be capped annually at about 
$8 billion. This puts a strain on the distribution mechanisms in place 
to adequately fund service providers in rural America. There the 
challenge remains to keep up the pace with the rest of America, while 
support funds are frozen or declining.
    Keeping up the pace is necessary for rural American communities to 
survive and thrive. The socio-economic health of rural America is tied 
to the level of communications advancement and adoption in urban 
America. It is there that the national quality-of-life and economic 
opportunity ``standards'' for communications/broadband networks are 
set.
    The dilemma for ATNI tribes is even more critical. The urban-rural 
divide is emerging because access to communications services on Tribal 
lands has not kept pace. And now when FCC policies require cost 
containment and consolidation of operations, the future of broadband on 
already underserved ATNI Tribal lands becomes cloudier.
    Technology advance can be viewed as a blessing in this instance. 
For example, soft-switch technology has opened the way for remote 
management of gateways to the network. Established service providers, 
including NTTA members, can use this switch technology to provide 
operational support for start-up companies located in neighboring 
states. Start-up companies can actually avoid the cost of a soft switch 
(over $250,000) by electing to have a ``neighbor'' company perform the 
service. Such a decision introduces ``scope and scale'' immediately 
into the operation of a remote, start-up communications provider.
    Proposed Corrective Action: An outdated FCC rule in the NECA 
Interstate Access Tariff FCC No. 5 requires that outsourced switching 
services be acquired from a service provider located in the same LATA. 
The reason for this rule was to avoid the Interexchange Carrier (IXC) 
from incurring costs to rehome its switch locations. However, in a 
``greenfield'' situation, the opposite is true. The IXC is able to 
avoid cost by utilizing existing connection points in the network, 
rather than building out to a new switch location. This is a win-win 
solution for all parties. An ATNI member stepping up to provide needed 
communications services for its tribe could establish its own tribally-
owned carrier, and by agreement utilize the infrastructure and 
technical expertise of one of the existing tribally-owned companies to 
provide switch functionality.
    The cost benefit of this arrangement extends beyond the initial 
start-up of service. A start-up service provider not only avoids the 
initial capital cost of a switch, but it also avoids future upgrade 
costs and change out of technology. Operating costs are avoided too, 
since specially trained technicians are not required in-house to 
maintain a switch.
    The FCC should revisit the existing tariff rules and allow rural 
service providers to share infrastructure without regard to LATA 
location.
Conclusion
    When one considers the daunting task of deploying broadband in 
rural America, the challenges only become greater for the ATNI member 
tribes. If the existing universal service programs were not in place, 
it is unlikely that any native communities on Tribal lands would have 
the quality of communications service they have today. And what has 
been accomplished is small, when compared with the need that continues 
to exist today. Lack of infrastructure is the primary reason the FCC 
and RUS must coordinate needed corrective action to facilitate ATNI 
tribes and all of Indian country attaining a reasonable parity with the 
rest of America. In addition to other steps outlined in these comments, 
the Commission should create a new universal service program, a 
``Tribal Broadband Fund,'' specifically and exclusively for the dual 
purposes of (1) funding broadband infrastructure deployment on Tribal 
lands, and (2) sustaining affordable broadband services for the 
residents of native communities on Tribal lands.
                                 ______
                                 
               Prepared Statement of the Cherokee Nation
    On behalf of the Cherokee Nation, we write regarding the oversight 
hearing held on April 27, 2016. The Committee considered a GAO Report 
entitled ``Telecommunications: Additional Coordination and Performance 
Measurement Needed for High-Speed Internet Access Programs on Tribal 
Lands.'' We greatly appreciate the Committee's attention to matters of 
accessing the Internet in Indian country.
    Cherokee Nation is headquartered in Tahlequah, located in northeast 
Oklahoma. Our tribe is the largest federally recognized American Indian 
tribe with more than 330,000 citizens. Nearly 75,000 of those citizens 
reside in rural communities within our jurisdictional boundaries across 
northeast Oklahoma. Similar to the many tribal governments across the 
Unites States, Cherokee Nation provides the basic needs of life like 
housing, food, and employment for many citizens who are impoverished in 
our communities.
    Increasing Internet access through federal programs designated 
specifically for Internet is critical in Oklahoma. The map used to 
describe tribal lands in the report does not show Cherokee Nation and 
many other tribes that exist in Oklahoma that do not have exterior 
boundaries, but are included as a footnote under the Census term 
Oklahoma Statistical Areas. Services provided through USDA's Rural 
Utility Service (RUS) and FCC's Universal Service Fund (USF) to the 39 
Oklahoma tribes remain very helpful to our citizens and facilities.
    The recommendations raised in the GAO report are valuable to 
improving the success of Internet deployment in Indian country. As 
stated by Sen. Franken (D-MN), growing Internet availability in the 
21st Century's rural infrastructure is akin to expanding the telephone 
network in the 20th Century. Internet is imperative to being 
competitive in research, education, commerce, and healthcare. Internet 
access for all is achievable.
    Below are Cherokee Nation's comments regarding the recommendations 
provided in the GAO Report 16-222 and in response to discussion during 
the hearing.

        1.  The GAO proscribes greater coordination in outreach and 
        programming efforts between the FCC's Office of Native American 
        Policy/Universal Administrative Service Company tribal liaisons 
        and USDA's Rural Utility Service offices as each programing 
        effort often overlaps and where one program may not provide the 
        right solution for a tribe, as products slightly differ. We 
        agree such coordination will disseminate information in a more 
        efficient manner during visits to Indian country and benefit 
        tribes.

        2.  The GAO Report 16-222 recommends improving the National 
        Broadband Map and data points used to show Internet deployment. 
        Much discussion was provided during the hearing in building out 
        the metrics of assessing access and deployment beyond large 
        census blocks and instead using more meaningful metrics. The 
        Cherokee Nation recommends further developing such metric tools 
        for assessment and that the metadata disclose the amount of 
        federal funding spent on areas in Indian country for Internet 
        adoption and deployment.

        3.  The GAO Report 16-222 recommends creating measurable goals 
        to increase adoption as key to all programing success. During 
        the oversight hearing, discussion about this recommendation 
        reverted to gaining a better understanding of our current 
        status. Visionary goals will leverage improved metric tools in 
        order to create a better assessment and an accurate benchmark.

            In creating these goals, Cherokee Nation hopes continued 
        consultations or potential advisory committees are supportive 
        of dialogue and representative of tribal nations that result in 
        communication between tribes and the federal agencies 
        overseeing programs that deploy and provide Internet. Realistic 
        goals that meet the needs of tribes are critical to develop 
        together, rather than one-sided strategies filled with 
        assumptions and errors. Items to keep in mind while developing 
        goals include, but are not limited to, finding sustainable 
        funding mechanisms, providing room for tribal 
        telecommunications company development, continuing the 
        availability of spectrum in Indian country, and providing cost 
        benefit analysis of technologies prior to deployment and 
        construction.

        4.  Lastly, the GAO report recommends defining ``Tribal 
        Programs'' in the Schools and Libraries Program, commonly known 
        as the E-Rate application. Cherokee Nation agrees this would be 
        beneficial. We recently submitted an E-Rate application this 
        past month.

    Thank you for accepting our comments on behalf of Cherokee Nation 
to be included in the record for the oversight hearing held on April 
27, 2016, entitled ``The GAO Report on, Telecommunications: Additional 
Coordination and Performance Measurement Needed for High-Speed Internet 
Access Programs on Tribal Lands.'' We greatly appreciate your attention 
to matters of accessing the Internet in Indian country.
    Wado (Thank you).
                                 ______
                                 
  Prepared Statement of the Leech Lake Telecommunications Company, LLC
    Under tribal corporate code, the Leech Lake Band of Ojibwe 
established its own telecommunications company in 2013. The Leech Lake 
Telecommunications Company launched its fixed wireless broadband 
services to citizens in the tribal lands of the LLBO in February of 
2015. The broadband needs in the tribal lands of the Leech Lake Band of 
Ojibwe (LLBO) were not met by local ILEC/CLEC telecommunication 
carriers. The Leech Lake Telecommunication Company provides wireless 
fixed broadband services because it is the most cost efficient means to 
rapidly deploy broadband services to all areas of the tribal lands.
    Lack of broadband in LLBO tribal lands still exist and are 
extraordinary:

        1)  Distance learning is nearly non-existent.

        2)  Where fiber exists, the costs are out of reach for low-
        income households. Poverty in LLBO lands is displayed by 53.8 
        percent of households below poverty level (American Community 
        Survey 2007-2011) and reside in extremely rural locations.

        3)  A trespass dispute between the Leech Lake Band of Ojibwe 
        and a local telecommunication company has resulted in the 
        withholding of broadband services to Band members in tribal 
        lands since 2008.

        4)  Broadband services do not exist in 9 of 15 of the Bands' 
        communities today (See table 1)

        5)  Health factors for elderly and ill are high with distance 
        to get to medical care are great.

        6)  Unaffordable broadband has stifled economic growth with 
        small businesses in LLBO tribal lands.


              Table 1--LLBO tribal lands Pop. Housing Unit
------------------------------------------------------------------------
                                               Population   Housing Unit
------------------------------------------------------------------------
1. Cass Lake                                          3885          1904
2. S. Lake                                             308           278
3. Inger                                               466           430
4. CutFoot                                             238           168
5. Ball Club                                           746           276
6. Bena                                                339           230
7. Kego Lake                                           954          1326
8. Onigum                                             2685          2071
9. Tower Hill/OakPt.                                  1278           987
10. Noopiming                                          140            97
11. Mission/BuckLake                                   837           399
12. Prescott                                           316           113
13. Federal Dam                                        133           150
14. Boy River                                          191           156
15. Sugar Point                                        172           185
------------------------------------------------------------------------
                                                     12688          8770
------------------------------------------------------------------------

    Most communities are small (less than 500 residents) and isolated. 
The tribal council headquarters are located in Cass Lake, which is also 
home to the Leech Lake Tribal College, Cass Lake Service Unit-Indian 
Health Service hospital/outpatient clinic, and headquarters of the 
Minnesota Chippewa Tribe, and the Chippewa National Forest.
Conclusion
    The Federal Communications Commission Office of Native Affairs and 
Policy 2012 Annual Report stated ``The lack of communications services 
in Indian Country--be it high speed Internet or ``broadband'' , 
traditional wireline phone service, mobile service, radio broadcast, or 
TV broadcast services--is well known. As the Commission has observed 
previously, ``[b]y virtually any measure, communities on tribal lands 
have historically had less access to telecommunications services than 
any other segment of the population.'' (Extending Wireless 
Telecommunications Services to Tribal Lands, WT Docket No. 99-266, 
Report and Order Further Notice of Proposed Rule Making, 15 FCC Rcd 
11794, 11798 (2000). The lack of robust communications services 
presents serious impediments to Tribal Nations' efforts to preserve 
their cultures and build their internal structures for self-governance, 
economic opportunity, health, education, public safety, and welfare.'' 
(Improving Communications Services for Native Nations, CG Docket No. 
11-451, Notice of Inquiry, 26 FC Rcd 2672, 2673 at para. 1 (2011) 
(Native Nations NOI).
    The economic value that broadband will bring to the tribal lands is 
great. Job creation is expected with home-based businesses, local 
service establishments, telemarketing centers, increased heath care 
options, and an arts cooperative.
    The Leech Lake Band of Ojibwe seeks grants each year to expand its 
fixed wireless telecommunications and with this testimony seeks an 
Indian set-aside with the legislature's broadband plan.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                             Godfrey Enjady
    Question. Have tribes contacted you about the inaccuracies of the 
National Broadband Map? What have their concerns been?
    Answer.
Background
    The National Broadband Map was originally instituted via the 
American Recovery and Reinvestment Act (ARRA) of 2009 and the National 
Telecommunications and Information Administration's (NTIA) State 
Broadband Initiative (SBI). The SBI program ended with the June 2014 
data collection, at which time the FCC assumed responsibility through 
its Form 477 data collection program. I will refer to the FCC's 
administration through the Form 477 data collection program for the 
remainder of this response.
    The FCC's revised Form 477 program (done so in order to assume 
responsibility for the National Broadband Map) is an imperfect 
mechanism. For Indian Country, the flaws are even more pronounced due 
to the general lack of reliable data, such as roads, street addresses, 
and housing information. In turn, while carriers providing broadband 
services and reporting on Form 477 may be reporting data as best they 
can, the inherent limitations of the data available. As a result, the 
broadband mapping results reflected for Indian Country are sometimes 
substantially inaccurate.
    Compounding the problems with the Form 477 data is the FCC's 
increased reliance on the produced data. Recently, the FCC has adopted 
rules and procedures in the areas of universal service reform, Lifeline 
program reform, and other areas that rely upon Form 477 data and that 
assume, by virtue of reporting carrier's attestation, that the data is 
accurate. Thus, it is in all stakeholders' interests to ensure the Form 
477 data is as accurate as possible.
Inaccuracies in Tribal Areas
    In general, Tribes, especially those with their own 
telecommunications providers, are aware of the Form 477 limitations. 
For example, in a proceeding to determine if small carriers were 
completely overlapped with unsubsidized (by federal USF support) 
competition, Fort Mojave Telecommunications, Inc. (FMTI), a carrier 
owned and operated by the Fort Mojave Tribe in Arizona, found numerous 
flaws related to the Form 477 data relied upon by the Commission.
    Tribal entities also agree with statements regarding the 
limitations and inaccuracies of the Form 477 data, such as stated by 
NTCA--The Rural Broadband Organization in comments related to the 
FCC''s 100 percent overlap determination process:

        ``. . .reliance on Form 477 deployment data, which formed the 
        foundation of determinations of 100 percent competitive overlap 
        identified in the Public Notice, is all but certain to lead to 
        ``false positives'' in identifying unsubsidized competition. 
        Indeed, comments filed by purported unsubsidized competitors in 
        response to the Public Notice shine a spotlight on the limits 
        of Form 477 deployment data. For example, at least one 
        commenter attempts to dodge the very question of whether they 
        serve specific locations, effectively reaffirming nothing more 
        than that they serve ``in the area'' as stated on their Forms 
        477.''

    In conclusion, I believe that in order to put Form 477 data to uses 
adopted by the FCC in Tribal areas, much work needs to be done, and 
opportunities for adjustment must be provided. If this is not done, 
then we risk making the broadband connectivity problem in Tribal areas 
much worse due to reliance on inaccurate data.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                            Brandon McBride
    Question. To date the primary extent of coordination between the 
Rural Utilities Service (RUS) and the Federal Communications Commission 
(FCC) has been through joint workshops. Do you believe that simply 
having the RUS present at the FCC's workshops is enough to be 
considered meaningful interagency cooperation? How will the RUS better 
coordinate with the FCC in the future to minimize duplication of funds 
and efforts and maximize results for broadband deployment in Indian 
County?
    Answer. RUS agrees that participating in workshops with the FCC, in 
a vacuum, is not meaningful interagency cooperation. However, it is a 
step in the right direction. RUS staff participated in the FCC Tribal 
Broadband, Telecom and Broadcast Training and Consultation workshop in 
Great Falls, MT on May 31st through June 2nd, 2016. Not only did the 
workshop provide the opportunity to share RUS program information 
regarding our telecom and broadband programs, but just importantly the 
workshop closed with a consultation and listening session to hear the 
concerns and recommendations of Tribal leaders and Tribal telecom 
professionals. This type of direct input from the Tribes will inform 
future collaboration between the FCC and RUS. The U.S. Department of 
Agriculture Office of Tribal Relations Programs (OTR) and RUS will 
continue to build on the traditional partnering activities with the 
FCC's Wireline Competition Bureau and will open new lines of 
communications with Tribal leaders, stakeholders, providers and 
residents in Tribal areas who benefit every day from RUS and FCC 
programs. RUS staff are planning on participating in additional FCC 
Tribal workshops later this year in Washington, Wisconsin and Arizona.
    In addition, great progress has resulted from the ongoing work as 
part of the Broadband Opportunities Council, which includes the 
Department of Commerce's National Telecommunications Information 
Administration and RUS, as the two lead agencies, along with the 
Department of the Interior, the FCC, and FirstNet, is currently working 
with tribal leaders to develop a Tribal Broadband Summit designed to 
build on the work that has been completed to date. This summit will 
culminate in a collaborative effort with tribal representatives to 
develop a blueprint for broadband deployment and use.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                               Gigi Sohn
    Question 1. As laid out in your 2011 Transformation Order creating 
the Connect America Fund, do you believe that all high-cost support for 
the deployment of middle mile and last mile facilities should be tied 
to specific obligations? If so, should the obligations for publicly-
financed middle mile facilities address the adequacy of capacity, 
affordability, or competitive access to the facilities?
    Answer. The Commission has taken significant steps to continue the 
implementation of the landmark reforms to the federal universal service 
high-cost program unanimously adopted by the Commission in 2011. A core 
component of the 2011 reforms was the creation of the Connect America 
Fund to preserve and advance voice and robust broadband services in 
high-cost areas of the nation that the marketplace would not otherwise 
serve. With each step, the Commission has adopted defined obligations 
of carriers to deploy broadband-capable facilities. Service providers 
may use support to construct the facilities required for them to meet 
their deployment obligations, including using support for improved 
backhaul and middle mile. However, while recipients of high-cost 
support may invest in middle mile to bolster their last-mile offerings, 
this support is not directly linked to specific obligations regarding 
middle-mile offerings. The Commission's overarching goal is to preserve 
and enhance the provision of broadband service to consumers in rural 
and high-cost areas.

    Question 2. According to the Telecommunications Act of 1996, low-
income and rural consumers, and those in high-cost areas, should have 
access to telecommunications services which are comparable to the 
services and rates in urban areas. What steps are you taking to ensure 
that tribal lands are receiving the necessary support to receive 
comparable services and rates, particularly where there is little 
competition and public money is being used to build out?
    Answer. The Commission is committed to facilitating the expansion 
of 21st century communications to Tribal Nations across the United 
States.
    In the last two years, the Commission has modernized two universal 
service programs that hold the potential to help bridge the digital 
divide in Indian Country. The first of these programs is the E-rate 
program, which is the country's largest educational technology program. 
The E-rate program provides discounts for the cost of broadband 
services to eligible elementary and secondary schools and libraries. In 
order to ensure all schools and libraries can afford broadband 
services, the highest discount rates are provided to schools and 
libraries in high poverty areas, including schools and libraries in 
high poverty Tribal areas. In 2014, the Commission took decisive steps 
to modernize our E-rate system and refocus it on the broadband 
connectivity needs of 21st Century schools and libraries. As a part of 
those reforms, the Commission directed Universal Service Administrative 
Company (USAC) to designate an E-rate Tribal liaison and to conduct E-
rate trainings tailored to the unique needs of Tribal applicants. 
Commission staff work closely with the Tribal liaison to enhance 
awareness of the program and to provide assistance in navigating the 
application process for representatives of Tribal Nations and Tribal 
communities. The 2014 reforms also include an opportunity for an 
additional discount for special construction charges for last-mile 
facilities supporting high-speed broadband to Tribal schools and 
libraries when funding is matched by states, Tribal governments, or 
other federal agencies.
    In March of this year, the Commission adopted an Order to modernize 
a second universal service program, the Lifeline program. For more than 
30 years, the Lifeline program has helped tens of millions of low-
income Americans afford basic phone service. Recognizing the unique and 
dire economic circumstances many Tribal Nations face, the Commission 
provides enhanced levels of Lifeline support of up to $34.25 per month 
to low-income residents of Tribal lands. Not surprisingly, Lifeline is 
an extremely important program to low-income residents on Tribal lands. 
Yet, before last month's vote, Lifeline support was limited to basic 
telephone service. Under the new modernized rules, low-income residents 
of Tribal lands will soon be able to apply up to $34.25 per month 
toward the cost of broadband service. This change will significantly 
reduce the cost of broadband for low-income Tribal residents while also 
incentivizing businesses to deploy broadband infrastructure on Tribal 
lands.
    In addition to the recent modernizations of the Lifeline and E-rate 
programs, the Commission adopted an Order and Further Notice of 
Proposed Rulemaking earlier this year to modernize high-cost support 
for rate-of-return carriers. In the Further Notice of Proposed 
Rulemaking, the Commission specifically sought comment on additional 
reforms to further promote broadband investment and deployment on 
unserved and underserved Tribal lands. Staff is currently reviewing the 
record of that Further Notice and the Chairman has committed to taking 
action on this important issue by the end of the year.
    The Commission also has adopted initiatives to drive investment in 
mobile broadband on Tribal lands. For example, in 2014 the FCC's Tribal 
Mobility Fund Phase I reverse auction made up to $50 million in one-
time funding available to Tribal lands to accelerate mobile broadband 
availability. In addition, both the Tribal Mobility Fund Phase I and 
the general Mobility Fund Phase I made a 25 percent bidding credit 
available for Tribally-owned or controlled providers seeking support.
    In addition, since 2000 the Commission has administered a Tribal 
Land Bidding Credit program in wireless spectrum auctions. The credit 
serves as a discount for a qualified winning bidder proposing to deploy 
wireless facilities on a Tribal land. The Tribal Land Bidding Credit 
was used by a bidder in our recent AWS-3 Auction and is available to 
bidders participating in the Incentive Auction.
    An important part of the Commission's work toward ensuring that 
Tribal lands have access to comparable telecommunications services is 
robust Consultation with Indian Country. In 2016, the Commission will 
ultimately hold five regional Tribal consultation and training 
workshops. Three have already been conducted, including events in Great 
Falls, MT; Keshena, WI (Menominee Tribe); and Bothell, WA (Affiliated 
Tribes of Northwest Indians). The United States Department of 
Agriculture (USDA) participates in each of these workshops. The 
Commission is committed to working with our Tribal partners and with 
USDA to ensure that the Commission's Tribal consultation and training 
workshops, now and in the future, provide a comprehensive and 
coordinated approach to drive investment into Indian Country.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                               Gigi Sohn
    Question 1. Lack of data about broadband on tribal lands. According 
to the GAO, there is a lack of data about how much money from the 
universal service fund goes toward broadband access on tribal lands 
specifically. How can we improve the FCC's collection of universal 
service data so that we can have a better idea about how native 
communities are being served by each of the four programs within the 
universal service fund (Connect America Fund, Schools and Libraries (E-
Rate), Lifeline, and Rural Health Care)?
    Answer. The GAO report recommended that the FCC improve the 
reliability of its data related to institutions that receive E-rate 
funding by defining ``Tribal'' on the E-rate program application. The 
FCC agrees with this recommendation, and beginning with funding year 
2017, the E-rate forms will include guidance about when a school or 
library should identify itself as on Tribal lands.
    While not a GAO recommendation, the Commission plans to similarly 
improve the reliability of its data related to institutions that 
receive Rural Healthcare (RHC) Program support. Specifically, subject 
to approval under the Paperwork Reduction Act, Tribal affiliation will 
be tracked across all sub-programs of the RHC program--Healthcare 
Connect Fund, Telecommunications Program, and Pilot Program--starting 
on January 1, 2017.
    In addition, the Commission will soon begin collecting in the high-
cost program specific information about the locations that are newly 
served with broadband by price cap carriers and rate-of-return 
carriers. Beginning this year, we will start to collect from the price 
cap carriers that accepted Connect America Fund Phase II support 
geocoded location information for locations that are newly served by 
the carrier. This data will enable us to determine for each recipient, 
how much of that support is associated with census blocks that are 
categorized as Tribal lands according to the U.S. Census. Once 
Paperwork Reduction Act approval from OMB is obtained, we expect to 
start collecting similar information from rate-of-return carriers.
    Finally, as you know, the Commission's rules provide enhanced 
levels of Lifeline support of up to $34.25 per month to low-income 
residents of Tribal lands. As a result, the Commission already collects 
data on the disbursement of Lifeline support to residents of Tribal 
lands.

    Question 1a. According the FCC's 2016 Broadband Report, 41 percent 
of households on tribal lands do not have broadband available to them. 
Do you have data on the percentage of community institutions like 
schools, libraries and health care facilities that have broadband 
service available on tribal lands?
    Answer. Though E-rate does not specifically earmark funds for 
Tribal schools and libraries, they are eligible for the highest levels 
of support available via the E-rate program based on their rural 
locations and the financial needs of their students. Many schools, 
libraries, and rural health care facilities serving residents of Tribal 
lands are not necessarily located on Tribal lands, but nearby to Tribal 
lands. As a result, developing one universal definition for ``Tribal'' 
is a complex and challenging task when trying to gather data on the E-
rate and Rural Healthcare support that squarely benefits those living 
on Tribal lands. With that said, the FCC believes that collecting such 
Tribal-specific data would help contribute to the Commission's goal of 
making broadband Internet available on Tribal lands; thus, beginning 
with funding year 2017, the E-rate forms will include guidance about 
when a school or library should identify itself as on Tribal lands. We 
look forward to improving the reliability of the data we have regarding 
the E-rate program and its impact on broadband Internet availability on 
Tribal lands.
    With regard to the Rural Healthcare Program, as discussed above, 
the program does not currently track whether healthcare providers 
participating in all of its sub-programs (i.e., Healthcare Connect 
Fund, Telecommunications Program, and Pilot Program) have Tribal 
affiliations. Subject to approval under the Paperwork Reduction Act, 
Tribal affiliation will be tracked across all sub-programs starting on 
January 1, 2017.

    Question 1b. Do you collect data on the percentage of households 
that subscribe to broadband on tribal lands? If not, why not?
    Answer. The Commission collects residential broadband subscription 
data that allows it to estimate the broadband adoption rate on Tribal 
lands. Specifically, the Commission collects data on residential 
broadband subscription at the census-tract level. Broadband services 
with a speed of at least 25 Mbps/3Mbps are included in this data 
collection. The Commission then segments areas into Tribal lands and 
non-Tribal lands groupings for purposes of estimating broadband 
adoption on Tribal lands. The Commission's most recent estimate of the 
broadband adoption rate on Tribal lands can be found in the 2016 
Broadband Progress Report. \1\
---------------------------------------------------------------------------
    \1\ See Inquiry Concerning the Deployment of Advanced 
Telecommunications Capability to All Americans in a Reasonable and 
Timely Fashion, and Possible Steps to Accelerate Such Deployment 
Pursuant to Section 706 of the Telecommunications Act of 1996, as 
Amended, GN docket No. 15-191, 2016 Broadband Progress Report, 31 FCC 
Rcd 699, Table 10 and n. 290 (2016).
---------------------------------------------------------------------------
    In addition, as noted in the GAO Report, the Census Bureau is in 
the process of collecting information about household Internet adoption 
on Tribal lands. Specifically, the Broadband Data Improvement Act of 
2008 requires the Bureau of the Census to collect information from 
residential households, including those on Tribal lands, on Internet 
adoption, if the household subscribes to Internet service, and if so, 
whether that service is dial-up or a high-speed connection. This data 
will provide the Commission with information about residential Internet 
subscriptions (of all speeds) on Tribal lands over a long period of 
time.

    Question 1c. Do you collect data on the percentage of schools, 
libraries and health care facilities that subscribe to broadband 
service on tribal lands? If not, why not?
    Answer. The Commission does not currently collect data on the 
percentage of schools, libraries and health care facilities that 
subscribe to broadband service on Tribal lands. However, as noted in my 
earlier response in 1(B), the Commission has committed to improving the 
reliability of its data related to health care facilities that receive 
Rural Healthcare Program support and the reliability of its data 
related to schools and libraries that receive E-rate support.

    Question 2. FCC commitment to performance metrics In the study, the 
GAO recommends setting goals and performance measures for broadband 
deployment on tribal lands. The FCC's current goal for broadband is 
``universal access for all Americans.'' What type of performance 
measures could the FCC develop and use that may help improve deployment 
of broadband to more households on tribal lands?
    Answer. The Commission agrees with GAO about the importance of 
performance goals and measures for broadband deployment on Tribal 
lands. The FCC's strategic objective of maximizing broadband 
availability on Tribal lands is fulfilled in part through its universal 
service programs established pursuant to its obligations under Section 
254 of the Communications Act, and Section 706 of the 
Telecommunications Act of 1996. In order to meet its Section 254 
obligations, in its 2011 USF/ICC Transformation Order, the Commission 
specifically expressed that its section 254 obligations ensured 
universal availability of broadband networks to all Americans living on 
Tribal lands. To that end, the Commission has established a performance 
goal of bringing broadband at speeds of at least 10/1 Mbps to high-cost 
areas, including Tribal lands. The Commission is in the process of 
considering whether and how additional Tribal-specific performance 
goals and measures could complement the existing programmatic-wide 
goals.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                               Gigi Sohn
    Question 1. The FCC measures access of advanced telecommunications 
to Internet and mobile services around the country by Census block. Is 
the use of Census blocks to gather data on tribal lands the most 
effective way to measure tribal accessibility? At the recent Indian 
Affairs Committee hearing, the use of Census block data was portrayed 
as being overly expansive and uncharacteristic of actual connectivity 
for individuals. What alternatives exist, if any, for ensuring quality 
data collection that might be more applicable to and representative of 
tribal connectivity at the local level? What barriers exist inhibiting 
the FCC from using other data collection methods?
    Answer. In 2013, the FCC unanimously adopted the Form 477 
Modernization Order, which requires facilities-based broadband 
providers to submit mobile and fixed broadband deployment data directly 
to the Commission.
    While the Commission previously measured mobile broadband 
deployment by census block, we plan to measure deployment on a much 
more granular basis in the near future. As a result of the 2013 Order, 
mobile broadband and voice providers must submit shapefiles showing 
their network coverage areas and certify the accuracy of their 
submissions. Using this new and improved data, we are working to 
identify where mobile broadband service is available within each census 
block. In other words, we are utilizing our new data to produce 
``actual coverage area,'' at the sub-block local level. This allows the 
Commission, amongst other things, to identify local areas where, for 
instance, 4G-LTE service may not be available.
    With respect to fixed broadband deployment data, the Form 477 
Modernization Order concluded that requiring providers to report fixed 
broadband deployment data by census block appropriately balanced the 
burdens of reporting this information to the Commission with the level 
of granularity required by the Commission to carry out its statutory 
duties. However, Commission staff continues to discuss possibilities 
and proposals with providers, including those serving Tribal lands, to 
develop the most accurate and granular data set possible.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                               Gigi Sohn
    Question 1. Would you support streamlining applications for rights-
of-way on tribal land?
    Answer. While the Commission supports reasonable measures to expand 
broadband deployment, it is important to recognize the limits on our 
jurisdiction. Access to rights-of-way on Tribal land is subject to 
federal law through the Bureau of Indian Affairs (BIA) and to Tribal 
law (to the extent not inconsistent with federal law). Rights-of-way 
requests submitted to BIA involve an application process, and we would 
support any BIA effort to streamline its processes for granting access 
to rights-of-way for broadband infrastructure.

    Question 2. Have you heard concerns throughout the Federal 
Communications Commission's (FCC) tribal outreach that the application 
process has been an impediment to completing broadband deployment 
projects on tribal land?
    Answer. While the 2006 GAO Report entitled ``Challenges to 
Assessing and Improving Telecommunications for Native Americans on 
Tribal Lands'' identified the process of obtaining rights-of-way as a 
barrier to broadband deployment on Tribal lands, this is not an issue 
that is regularly raised during FCC Tribal outreach. Nonetheless, as 
addressed above, the Commission supports reasonable measures to expand 
broadband deployment.
    An example of this support can be seen in recent actions the FCC 
has taken to facilitate wireless infrastructure deployment. In October 
2014, the FCC unanimously adopted rules bringing new efficiencies to 
wireless infrastructure deployment. Since then, FCC staff has continued 
to work closely with our preservation partners--including Tribal 
Nations, the Advisory Council on Historic Preservation (ACHP), and the 
National Conference of State Historic Preservation Officers (NCSHPO)--
to revise the siting review process in situations where a project has 
limited potential to cause significant adverse effects. As recently as 
August of 2016, the Commission, ACHP, and NCSHPO amended an agreement 
between the three parties that governs the review process for 
collocating small wireless facilities throughout the country, including 
on Tribal lands. This amendment further simplifies the process for 
deploying small cells, distributed antenna systems, and other small-
scale wireless broadband infrastructure.
    Our priority is to develop policies and rules that encourage 
responsible deployment. Thus, while we are committed to facilitating 
infrastructure deployment to meet booming demand, we also respect the 
critical role of subject matter experts, including Tribal Nations. 
State, local and Tribal governments play essential roles in this 
process, and we value their input.

    Question 3. Has the Office of Native Affairs and Policy 
successfully completed any broadband deployment projects on tribal 
lands? If so, how is the FCC using those as a model to bring service to 
unserved tribal lands?
    Answer. The Office of Native Affairs and Policy (ONAP) does not 
manage individual broadband deployment projects. In its work in Indian 
Country, ONAP, as the FCC's liaison with Tribal Nations, has promoted 
broadband deployment in Indian Country. To this end, FCC staff has 
supported the development of cutting edge broadband deployment efforts 
from Tribes and Tribal entities such as the Coeur d'Alene Tribe's Red 
Spectrum Communications (Red Spectrum). Red Spectrum uses a hybrid 
microwave and fiber system to provision customers both on and outside 
of the Reservation. ONAP is currently working to seed ideas and lessons 
learned from entities like Red Spectrum across Indian Country to help 
unserved and underserved Tribes more easily find a path forward to 
broadband deployment.

    Question 4. The National Broadband Map is currently the FCC's best 
tool for measuring broadband coverage, including on tribal lands, and 
yet it is widely known to contain misleading data. When it was being 
created, were you aware of the inaccuracies of the National Broadband 
Map? Regardless, when did you become aware of its inaccuracies? What 
steps have you taken and will you take to rectify the map's 
inaccuracies?
    Answer. The data underlying the National Broadband Map are no 
longer the best tool for measuring broadband coverage. Those data were 
collected by National Telecommunications and Information Administration 
through a state block grant program. Funding for this data collection 
ended in June 2014. Consequently, the data reflected on the Broadband 
Map is now two years out of date.
    Recognizing the need to improve our mobile broadband coverage data, 
the Commission adopted an Order in 2013 that required mobile wireless 
data collection from one of the most reliable sources available-the 
mobile wireless carriers themselves. As a result, the Commission is now 
collecting coverage data directly from wireless carriers through the 
Commission's Form 477. Each carrier that submits data must certify to 
its accuracy. We expect the data wireless carriers provide through 
these submissions to be more accurate than our previous data because it 
comes directly from the entity that is deploying the wireless 
facilities. We are in the relatively early stages of collecting this 
new coverage data from wireless carriers through the revised FCC Form 
477, and Commission staff are currently analyzing these filings.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
